<html>
<title> - ELDER JUSTICE ACT, THE ELDER ABUSE VICTIMS ACT OF 2008, THE SCHOOL SAFETY ENHANCEMENTS ACT OF 2007, AND THE A CHILD IS MISSING ALERT AND RECOVERY CENTER ACT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
  ELDER JUSTICE ACT, THE ELDER ABUSE VICTIMS ACT OF 2008, THE SCHOOL 
 SAFETY ENHANCEMENTS ACT OF 2007, AND THE A CHILD IS MISSING ALERT AND 
                          RECOVERY CENTER ACT

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                                   ON

             H.R. 1783, H.R. 5352, H.R. 2352 and H.R. 5464

                               __________

                             APRIL 17, 2008

                               __________

                           Serial No. 110-146

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
                       
                              ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

41-797 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. ``BOBBY'' SCOTT, Virginia  HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
WILLIAM D. DELAHUNT, Massachusetts   CHRIS CANNON, Utah
ROBERT WEXLER, Florida               RIC KELLER, Florida
LINDA T. SANCHEZ, California         DARRELL ISSA, California
STEVE COHEN, Tennessee               MIKE PENCE, Indiana
HANK JOHNSON, Georgia                J. RANDY FORBES, Virginia
BETTY SUTTON, Ohio                   STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
      Sean McLaughlin, Minority Chief of Staff and General Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

             ROBERT C. ``BOBBY'' SCOTT, Virginia, Chairman

MAXINE WATERS, California            LOUIE GOHMERT, Texas
WILLIAM D. DELAHUNT, Massachusetts   J. RANDY FORBES, Virginia
JERROLD NADLER, New York             F. JAMES SENSENBRENNER, Jr., 
HANK JOHNSON, Georgia                Wisconsin
ANTHONY D. WEINER, New York          HOWARD COBLE, North Carolina
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
ARTUR DAVIS, Alabama                 DANIEL E. LUNGREN, California
TAMMY BALDWIN, Wisconsin
BETTY SUTTON, Ohio

                      Bobby Vassar, Chief Counsel

                    Caroline Lynch, Minority Counsel
















                            C O N T E N T S

                              ----------                              

                             APRIL 17, 2008

                                                                   Page

                           TEXT OF THE BILLS

H.R. 1783, the ``Elder Justice Act''.............................     2
H.R. 5352, the ``Elder Abuse Victims Act of 2008''...............    25
H.R. 2352, the ``School Safety Enhancements Act of 2007''........    34
H.R. 5464, the ``A Child Is Missing Alert and Recovery Center 
  Act''..........................................................    36

                           OPENING STATEMENTS

The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Chairman, Subcommittee 
  on Crime, Terrorism, and Homeland Security.....................     1
The Honorable Louie Gohmert, a Representative in Congress from 
  the State of Texas, and Ranking Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    37
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................    39
The Honorable Hank Johnson, a Representative in Congress from the 
  State of Georgia, and Member, Subcommittee on Crime, Terrorism, 
  and Homeland Security..........................................    44
The Honorable Tammy Baldwin, a Representative in Congress from 
  the State of Wisconsin, and Member, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................    44

                               WITNESSES

The Honorable Rahm Emanuel, a Representative in Congress from the 
  State of Illinois
  Oral Testimony.................................................    46
  Prepared Statement.............................................    48
The Honorable Joe Sestak, a Representative in Congress from the 
  State of Pennsylvania
  Oral Testimony.................................................    50
  Prepared Statement.............................................    52
The Honorable Steven R. Rothman, a Representative in Congress 
  from the State of New Jersey
  Oral Testimony.................................................    53
  Prepared Statement.............................................    55
The Honorable Ron Klein, a Representative in Congress from the 
  State of Florida
  Oral Testimony.................................................    56
  Prepared Statement.............................................    58
Mr. Robert Blancato, National Coordinator, Elder Justice 
  Coalition, Washington, DC
  Oral Testimony.................................................    63
  Prepared Statement.............................................    65
Ms. Sherry Friedlander-Olsen, Founder and CEO, A Child Is Missing 
  Alert Program, Fort Lauderdale, FL
  Oral Testimony.................................................    80
  Prepared Statement.............................................    82
Mr. Vernon M. Keenan, Director, Georgia Bureau of Investigation, 
  Decatur, GA
  Oral Testimony.................................................    83
  Prepared Statement.............................................    85

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................    40
Prepared Statement of the Honorable Tammy Baldwin, a 
  Representative in Congress from the State of Wisconsin, and 
  Member, Subcommittee on Crime, Terrorism, and Homeland Security    44
Prepared Statement of the Honorable Peter T. King, a 
  Representative in Congress from the State of New York..........    47
Prepared Statement of Joseph D. O'Connor, Chair, American Bar 
  Association Commission on Law and Aging, the American Bar 
  Association (ABA)..............................................    99

                                APPENDIX

Material Submitted for the Hearing Record........................   101


  ELDER JUSTICE ACT, THE ELDER ABUSE VICTIMS ACT OF 2008, THE SCHOOL 
 SAFETY ENHANCEMENTS ACT OF 2007, AND THE A CHILD IS MISSING ALERT AND 
                          RECOVERY CENTER ACT

                              ----------                              


                        THURSDAY, APRIL 17, 2008

              House of Representatives,    
              Subcommittee on Crime, Terrorism,    
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
room 2141, Rayburn House Office Building, the Honorable Robert 
C. ``Bobby'' Scott (Chairman of the Subcommittee) presiding.
    Present: Representatives Conyers, Scott, Waters, Johnson, 
Jackson Lee, Baldwin, Gohmert, Coble, and Chabot.
    Staff present: Mario Dispenza, Fellow/ATF Detailee; Karen 
Wilkinson, Fellow/Federal Public Defender Office Detailee; 
Veronica Eligan, Majority Professional Staff Member; Caroline 
Lynch, Minority Counsel; and Kelsey Whitlock, Minority Staff 
Assistant.
    Mr. Scott. The Subcommittee will now come to order.
    I am pleased to welcome you to this hearing before the 
Subcommittee on Crime, Terrorism, and Homeland Security. Today, 
we will be considering four public safety bills pending before 
the House, H.R. 1783, the ``Elder Justice Act,'' H.R. 5352, the 
``Elder Abuse Victims Act of 2008,'' H.R. 2352, the ``School 
Enhancements Act of 2007,'' and H.R. 5464, the ``A Child Is 
Missing Alert and Recovery Center Act.''
    H.R. 1783, the ``Elder Justice Act,'' is sponsored by the 
gentleman from Illinois, Mr. Emanuel. H.R. 5352, the ``Elder 
Abuse Victims Act of 2008'' is sponsored by the gentleman from 
Pennsylvania, Mr. Sestak. They form a comprehensive plan for 
preventing and combating elder abuse, neglect and exploitation.
    [The text of the bill, H.R. 1783, follows:]

<bullet>HR 1783 IH  ___________________________________________________

                                                                      I
110th CONGRESS
    1st Session

                                H. R. 1783

To amend the Social Security Act to enhance the social security of the 
    Nation by ensuring adequate public-private infrastructure and to 
    resolve to prevent, detect, treat, intervene in, and prosecute 
    elder abuse, neglect, and exploitation, and for other purposes.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                             March 29, 2007
Mr. Emanuel (for himself and Mr. King of New York) introduced the 
    following bill; which was referred to the Committee on Ways and 
    Means, and in addition to the Committees on the Judiciary, Energy 
    and Commerce, and Education and Labor, for a period to be 
    subsequently determined by the Speaker, in each case for 
    consideration of such provisions as fall within the jurisdiction of 
    the committee concerned
                               __________

                                 A BILL

To amend the Social Security Act to enhance the social security of the 
    Nation by ensuring adequate public-private infrastructure and to 
    resolve to prevent, detect, treat, intervene in, and prosecute 
    elder abuse, neglect, and exploitation, and for other purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE; TABLE OF CONTENTS.

    (a) Short Title.--This Act may be cited as the ``Elder Justice 
Act''.
    (b) Table of Contents.--The table of contents of this Act is as 
follows:

    Sec. 1. Short title; table of contents.
    Sec. 2. Findings.
    Sec. 3. Purposes.

            TITLE I--DEPARTMENT OF HEALTH AND HUMAN SERVICES

    Sec. 101. Definitions.
    Sec. 102. Elder Justice.

          ``Part A--Block Grants to States for Social Services

                        ``Part B--Elder Justice

    ``Sec. 2011. Definitions.
    ``Sec. 2012. General provisions.

  ``Subpart 1--National Coordination of Elder Justice Activities and 
                                Research

 ``Chapter I--Elder Justice Coordinating Council and Advisory Board on 
                 Elder Abuse, Neglect, and Exploitation

    ``Sec. 2021. Elder Justice Coordinating Council.
    ``Sec. 2022. Advisory Board on Elder Abuse, Neglect, and 
Exploitation.
    ``Sec. 2023. Research protections.
    ``Sec. 2024. Authorization of appropriations.

 ``Chapter II--Elder Abuse, Neglect, and Exploitation Forensic Centers

    ``Sec. 2031. Establishment and support of elder abuse, neglect, and 
Exploitation forensic Centers.

             ``Subpart 2--Programs to Promote Elder Justice

    ``Sec. 2041. Enhancement of long-term care.
    ``Sec. 2042. Adult protective services functions and grant 
programs.
    ``Sec. 2043. Long-term care ombudsman program grants and training.
    ``Sec. 2044. Provision of information regarding, and evaluations 
of, elder justice programs.
    ``Sec. 2045. Report.
    ``Sec. 1150A. Reporting to law enforcement of crimes occurring in 
federally funded long-Term care facilities.
    ``Sec. 1150B. Ensuring safety of residents when federally funded 
Long-Term care facilities close.

                    TITLE II--DEPARTMENT OF JUSTICE

    Sec. 201. Model State laws and practices.
    Sec. 202. Elder justice plan and strategy.
    Sec. 203. Victim advocacy grants.
    Sec. 204. Supporting local prosecutors in elder justice matters.
    Sec. 205. Supporting State prosecutors in elder justice matters.
    Sec. 206. Increased support for Federal cases involving elder 
justice.
    Sec. 207. Supporting law enforcement in elder justice matters.
    Sec. 208. Evaluations.

                       TITLE III--TAX PROVISIONS

    Sec. 301. Long-Term care facility worker employment tax credit.

SEC. 2. FINDINGS.

    Congress finds the following:
            (1) The proportion of the United States population age 60 
        years or older will drastically increase in the next 30 years 
        as more than 76,000,000 baby boomers approach retirement and 
        old age.
            (2) Each year, anywhere between 500,000 and 5,000,000 
        elders in the United States are abused, neglected, or 
        exploited.
            (3) Elder abuse, neglect, and exploitation have no 
        boundaries, and cross all racial, social class, gender, and 
        geographic lines.
            (4) Victims of elder abuse, neglect, and exploitation are 
        not only subject to injury from mistreatment and neglect, they 
        are also 3.1 times more likely than elders who were not victims 
        of elder abuse, neglect, and exploitation to die at an earlier 
        age than expected.
            (5) There is a general dearth of data as to the nature and 
        scope of elder abuse, neglect, and exploitation. In recognition 
        of the need to improve data collection efforts with respect to 
        elder abuse, neglect, and exploitation, Congress required the 
        Secretary of Health and Human Services to conduct a study by 
        the end of 2008 on establishing a uniform national database on 
        elder abuse under section 405 of title IV of Division C of the 
        Tax Relief and Health Care Act of 2006 (Public Law 109-432).
            (6) Despite the dearth of data in the field, experts agree 
        that most cases of elder abuse, neglect, and exploitation are 
        never reported and that abuse, neglect, and exploitation 
        shorten a victim's life, often triggering a downward spiral of 
        an otherwise productive, self-sufficient elder's life. Programs 
        addressing other difficult issues such as domestic violence and 
        child abuse and neglect have demonstrated the need for a 
        multifaceted law, combining public health, social service, and 
        law enforcement approaches.
            (7) For over 20 years, Congress has been presented with 
        facts and testimony calling for a coordinated Federal effort to 
        combat elder abuse, neglect, and exploitation.
            (8) The Federal Government has been slow to respond to the 
        needs of victims of elder abuse, neglect, and exploitation or 
        to undertake prevention efforts.
            (9) No Federal law has been enacted that adequately and 
        comprehensively addresses the issues of elder abuse, neglect, 
        and exploitation and there are very limited resources available 
        to those in the field that directly deal with the issues.
            (10) Differences in State laws and practices in the areas 
        of elder abuse, neglect, and exploitation lead to significant 
        disparities in prevention, protective and social services, 
        treatment systems, and law enforcement, and lead to other 
        inequities.
            (11) The Federal Government has played an important role in 
        promoting research, training, public safety, and data 
        collection, and the identification, development, and 
        dissemination of promising health care, social, and protective 
        services, and law enforcement practices, relating to child 
        abuse and neglect, domestic violence, and violence against 
        women. The Federal Government should promote similar efforts 
        and protections relating to elder abuse, neglect, and 
        exploitation.
            (12) The Federal Government should provide leadership and 
        assist States and communities in their efforts to protect 
        elders in the United States by--
                    (A) promoting coordinated planning among all levels 
                of government;
                    (B) generating and sharing knowledge relevant to 
                protecting elders;
                    (C) providing leadership to combat the abuse, 
                neglect, and exploitation of the Nation's elders; and
                    (D) providing resources to States and communities 
                to promote elder justice.
            (13) The problem of elder abuse, neglect, and exploitation 
        requires a comprehensive approach that--
                    (A) integrates the work of health, legal, and 
                social service agencies and organizations;
                    (B) emphasizes the need for prevention, reporting, 
                investigation, assessment, treatment, and prosecution 
                of elder abuse, neglect, and exploitation at all levels 
                of government;
                    (C) ensures that sufficient numbers of properly 
                trained personnel with specialized knowledge are in 
                place to--
                            (i) treat, assess, and provide services 
                        relating to elder abuse, neglect, and 
                        exploitation; and
                            (ii) carry out elder protection duties;
                    (D) is sensitive to ethnic and cultural diversity;
                    (E) recognizes the role of mental health, 
                disability, dementia, substance abuse, medication 
                mismanagement, and family dysfunction problems in 
                increasing and exacerbating elder abuse, neglect, and 
                exploitation; and
                    (F) balances elders' right to self-determination 
                with society's responsibility to protect elders.
            (14) The human, social, and economic cost of elder abuse, 
        neglect, and exploitation is high and includes unnecessary 
        expenditures of funds from many public programs.
            (15) The failure to coordinate activities relating to, and 
        comprehensively prevent and treat, elder abuse, neglect, and 
        exploitation threatens the future and well-being of millions of 
        elders in the United States.
            (16) All elements of society in the United States have a 
        shared responsibility in responding to a national problem of 
        elder abuse, neglect, and exploitation.

SEC. 3. PURPOSES.

    The purposes of this Act are as follows:
            (1) To enhance the social security of the Nation by 
        ensuring adequate public-private infrastructure and resolving 
        to prevent, detect, treat, understand, and intervene in, and 
        where appropriate, aid in the prosecution of, elder abuse, 
        neglect, and exploitation.
            (2) To bring a comprehensive approach to preventing and 
        combating elder abuse, neglect, and exploitation, a long 
        invisible problem that afflicts the most vulnerable among the 
        aging population of the United States.
            (3) To raise the issue of elder abuse, neglect, and 
        exploitation to national attention, and to create the 
        infrastructure at the Federal, State, and local levels, to 
        ensure that individuals and organizations on the front lines, 
        who are fighting elder abuse, neglect, and exploitation with 
        scarce resources and fragmented systems, have the resources and 
        information needed to carry out their fight.
            (4) To bring a comprehensive multidisciplinary approach to 
        elder justice.
            (5) To set in motion research and data collection to fill 
        gaps in knowledge about elder abuse, neglect, and exploitation.
            (6) To supplement the activities of service providers and 
        programs, to enhance training, and to leverage scarce resources 
        efficiently, in order to ensure that elder justice receives the 
        attention it deserves as the Nation's population ages.
            (7) To recognize and address the role of mental health, 
        disability, dementia, substance abuse, medication 
        mismanagement, and family dysfunction problems in increasing 
        and exacerbating elder abuse, neglect, and exploitation.
            (8) To create short- and long-term strategic plans for the 
        development and coordination of elder justice research, 
        programs, studies, training, and other efforts nationwide.
            (9) To promote collaborative efforts and diminish overlap 
        and gaps in efforts in developing the important field of elder 
        justice.
            (10) To honor and respect the right of all individuals with 
        diminished capacity to decisionmaking autonomy, self-
        determination, and dignity of choice.
            (11) To respect the wishes of individuals with diminished 
        capacity and their family members in providing supportive 
        services and care plans intended to protect elders from abuse, 
        neglect (including self-neglect), and exploitation.

            TITLE I--DEPARTMENT OF HEALTH AND HUMAN SERVICES

SEC. 101. DEFINITIONS.

    Except as otherwise specifically provided, any term that is defined 
in section 2011 of the Social Security Act (as added by section 102(a)) 
and is used in this title has the meaning given such term by such 
section.

SEC. 102. ELDER JUSTICE.

    (a) Elder Justice.--
            (1) In general.--Title XX of the Social Security Act (42 
        U.S.C. 1397 et seq.) is amended--
                    (A) in the title heading, by inserting ``AND ELDER 
                JUSTICE'' after ``SOCIAL SERVICES'';
                    (B) by inserting before section 2001 the following:

        ``Part A--Block Grants to States for Social Services'';

                and
                    (C) by adding at the end the following:

                        ``Part B--Elder Justice

``SEC. 2011. DEFINITIONS.

    ``In this part:
            ``(1) Abuse.--The term `abuse' means the knowing infliction 
        of physical or psychological harm or the knowing deprivation of 
        goods or services that are necessary to meet essential needs or 
        to avoid physical or psychological harm.
            ``(2) Adult protective services.--The term `adult 
        protective services' means such services provided to adults as 
        the Secretary may specify and includes services such as--
                    ``(A) disseminating reports of adult abuse, 
                neglect, or exploitation;
                    ``(B) investigating the reports described in 
                subparagraph (A);
                    ``(C) case planning, monitoring, evaluation, and 
                other case work and services; and
                    ``(D) providing, arranging for, or facilitating the 
                provision of medical, social service, economic, legal, 
                housing, law enforcement, or other protective, 
                emergency, or support services.
            ``(3) Caregiver.--The term `caregiver' means an individual 
        who has the responsibility for the care of an elder, either 
        voluntarily, by contract, by receipt of payment for care, or as 
        a result of the operation of law, and means a family member or 
        other individual who provides (on behalf of such individual or 
        of a public or private agency, organization, or institution) 
        compensated or uncompensated care to an elder who needs 
        supportive services in any setting.
            ``(4) Direct care.--The term `direct care' means care by an 
        employee or contractor who provides assistance or long-term 
        care services to a recipient.
            ``(5) Elder.--The term `elder' means an individual age 60 
        or older.
            ``(6) Elder justice.--The term `elder justice' means--
                    ``(A) from a societal perspective, efforts to--
                            ``(i) prevent, detect, treat, intervene in, 
                        and prosecute elder abuse, neglect, and 
                        exploitation; and
                            ``(ii) protect elders with diminished 
                        capacity while maximizing their autonomy; and
                    ``(B) from an individual perspective, the 
                recognition of an elder's rights, including the right 
                to be free of abuse, neglect, and exploitation.
            ``(7) Eligible entity.--The term `eligible entity' means a 
        State or local government agency, Indian tribe or tribal 
        organization, or any other public or private entity that is 
        engaged in and has expertise in issues relating to elder 
        justice or in a field necessary to promote elder justice 
        efforts.
            ``(8) Exploitation.--The term `exploitation' means the 
        fraudulent or otherwise illegal, unauthorized, or improper act 
        or process of an individual, including a caregiver or 
        fiduciary, that uses the resources of an elder for monetary or 
        personal benefit, profit, or gain, or that results in depriving 
        an elder of rightful access to, or use of, benefits, resources, 
        belongings, or assets.
            ``(9) Fiduciary.--The term `fiduciary'--
                    ``(A) means a person or entity with the legal 
                responsibility--
                            ``(i) to make decisions on behalf of and 
                        for the benefit of another person; and
                            ``(ii) to act in good faith and with 
                        fairness; and
                    ``(B) includes a trustee, a guardian, a 
                conservator, an executor, an agent under a financial 
                power of attorney or health care power of attorney, or 
                a representative payee.
            ``(10) Grant.--The term `grant' includes a contract, 
        cooperative agreement, or other mechanism for providing 
        financial assistance.
            ``(11) Guardianship.--The term `guardianship' means--
                    ``(A) the process by which a State court determines 
                that an adult individual lacks capacity to make 
                decisions about self-care and property, and appoints 
                another individual or entity known as a guardian, as a 
                conservator, or by a similar term, as a surrogate 
                decisionmaker;
                    ``(B) the manner in which the court-appointed 
                surrogate decisionmaker carries out duties to the 
                individual and the court; or
                    ``(C) the manner in which the court exercises 
                oversight of the surrogate decisionmaker.
            ``(12) Indian tribe.--
                    ``(A) In general.--The term `Indian tribe' has the 
                meaning given such term in section 4 of the Indian 
                Self-Determination and Education Assistance Act (25 
                U.S.C. 450b).
                    ``(B) Inclusion of pueblo and rancheria.--The term 
                `Indian tribe' includes any Pueblo or Rancheria.
            ``(13) Law enforcement.--The term `law enforcement' means 
        the full range of potential responders to elder abuse, neglect, 
        and exploitation including--
                    ``(A) police, sheriffs, detectives, public safety 
                officers, and corrections personnel;
                    ``(B) prosecutors;
                    ``(C) medical examiners;
                    ``(D) investigators; and
                    ``(E) coroners.
            ``(14) Long-term care.--
                    ``(A) In general.--The term `long-term care' means 
                supportive and health services specified by the 
                Secretary for individuals who need assistance because 
                the individuals have a loss of capacity for self-care 
                due to illness, disability, or vulnerability.
                    ``(B) Loss of capacity for self-care.--For purposes 
                of subparagraph (A), the term `loss of capacity for 
                self-care' means an inability to engage in 1 or more 
                activities of daily living, including eating, dressing, 
                bathing, and management of one's financial affairs.
            ``(15) Long-term care facility.--The term `long-term care 
        facility' means a residential care provider that arranges for, 
        or directly provides, long-term care.
            ``(16) Neglect.--The term `neglect' means--
                    ``(A) the failure of a caregiver or fiduciary to 
                provide the goods or services that are necessary to 
                maintain the health or safety of an elder; or
                    ``(B) self-neglect.
            ``(17) Nursing facility.--
                    ``(A) In general.--The term `nursing facility' has 
                the meaning given such term under section 1919(a).
                    ``(B) Inclusion of skilled nursing facility.--The 
                term `nursing facility' includes a skilled nursing 
                facility (as defined in section 1819(a))
            ``(18) Self-neglect.--The term `self-neglect' means an 
        adult's inability, due to physical or mental impairment or 
        diminished capacity, to perform essential self-care tasks 
        including--
                    ``(A) obtaining essential food, clothing, shelter, 
                and medical care;
                    ``(B) obtaining goods and services necessary to 
                maintain physical health, mental health, or general 
                safety; or
                    ``(C) managing one's own financial affairs.
            ``(19) Serious bodily injury.--
                    ``(A) In general.--The term `serious bodily injury' 
                means an injury--
                            ``(i) involving extreme physical pain;
                            ``(ii) involving substantial risk of death;
                            ``(iii) involving protracted loss or 
                        impairment of the function of a bodily member, 
                        organ, or mental faculty; or
                            ``(iv) requiring medical intervention such 
                        as surgery, hospitalization, or physical 
                        rehabilitation.
                    ``(B) Criminal sexual abuse.--Serious bodily injury 
                shall be considered to have occurred if the conduct 
                causing the injury is conduct described in section 2241 
                (relating to aggravated sexual abuse) or 2242 (relating 
                to sexual abuse) of title 18, United States Code, or 
                any similar offense under State law.
            ``(20) Social.--The term `social', when used with respect 
        to a service, includes adult protective services.
            ``(21) State legal assistance developer.--The term `State 
        legal assistance developer' means an individual described in 
        section 731 of the Older Americans Act of 1965.
            ``(22) State long-term care ombudsman.--The term `State 
        Long-Term Care Ombudsman' means the State Long-Term Care 
        Ombudsman described in section 712(a)(2) of the Older Americans 
        Act of 1965.

``SEC. 2012. GENERAL PROVISIONS.

    ``(a) Protection of Privacy.--In pursuing activities under this 
part, the Secretary shall ensure the protection of individual health 
privacy consistent with the regulations promulgated under section 
264(c) of the Health Insurance Portability and Accountability Act of 
1996 and applicable State and local privacy regulations.
    ``(b) Rule of Construction.--Nothing in this part shall be 
construed to interfere with or abridge an elder's right to practice his 
or her religion through reliance on prayer alone for healing when this 
choice--
            ``(1) is contemporaneously expressed, either orally or in 
        writing, with respect to a specific illness or injury which the 
        elder has at the time of the decision by an elder who is 
        competent at the time of the decision;
            ``(2) is previously set forth in a living will, health care 
        proxy, or other advance directive document that is validly 
        executed and applied under State law; or
            ``(3) may be unambiguously deduced from the elder's life 
        history.

  ``Subpart 1--National Coordination of Elder Justice Activities and 
                                Research

 ``CHAPTER I--ELDER JUSTICE COORDINATING COUNCIL AND ADVISORY BOARD ON 
                 ELDER ABUSE, NEGLECT, AND EXPLOITATION

``SEC. 2021. ELDER JUSTICE COORDINATING COUNCIL.

    ``(a) Establishment.--There is established within the Office of the 
Secretary an Elder Justice Coordinating Council (in this section 
referred to as the `Council').
    ``(b) Membership.--
            ``(1) In general.--The Council shall be composed of the 
        following members:
                    ``(A) The Secretary (or the Secretary's designee).
                    ``(B) The Attorney General (or the Attorney 
                General's designee).
                    ``(C) The head of each Federal department or agency 
                or other governmental entity identified by the Chair 
                referred to in subsection (d) as having 
                responsibilities, or administering programs, relating 
                to elder abuse, neglect, and exploitation.
            ``(2) Requirement.--Each member of the Council shall be an 
        officer or employee of the Federal Government.
    ``(c) Vacancies.--Any vacancy in the Council shall not affect its 
powers, but shall be filled in the same manner as the original 
appointment was made.
    ``(d) Chair.--The member described in subsection (b)(1)(A) shall be 
Chair of the Council.
    ``(e) Meetings.--The Council shall meet at least 2 times per year, 
as determined by the Chair.
    ``(f) Duties.--
            ``(1) In general.--The Council shall make recommendations 
        to the Secretary for the coordination of activities of the 
        Department of Health and Human Services, the Department of 
        Justice, and other relevant Federal, State, local, and private 
        agencies and entities, relating to elder abuse, neglect, and 
        exploitation and other crimes against elders.
            ``(2) Report.--Not later than the date that is 2 years 
        after the date of enactment of the Elder Justice Act and every 
        2 years thereafter, the Council shall submit to the Committee 
        on Finance of the Senate and the Committee on Ways and Means 
        and the Committee on Energy and Commerce of the House of 
        Representatives a report that--
                    ``(A) describes the activities and accomplishments 
                of, and challenges faced by--
                            ``(i) the Council; and
                            ``(ii) the entities represented on the 
                        Council; and
                    ``(B) makes such recommendations for legislation, 
                model laws, or other action as the Council determines 
                to be appropriate.
    ``(g) Powers of the Council.--
            ``(1) Information from federal agencies.--Subject to the 
        requirements of section 2012(a), the Council may secure 
        directly from any Federal department or agency such information 
        as the Council considers necessary to carry out this section. 
        Upon request of the Chair of the Council, the head of such 
        department or agency shall furnish such information to the 
        Council.
            ``(2) Postal services.--The Council may use the United 
        States mails in the same manner and under the same conditions 
        as other departments and agencies of the Federal Government.
    ``(h) Travel Expenses.--The members of the Council shall not 
receive compensation for the performance of services for the Council. 
The members shall be allowed travel expenses, including per diem in 
lieu of subsistence, at rates authorized for employees of agencies 
under subchapter I of chapter 57 of title 5, United States Code, while 
away from their homes or regular places of business in the performance 
of services for the Council. Notwithstanding section 1342 of title 31, 
United States Code, the Secretary may accept the voluntary and 
uncompensated services of the members of the Council.
    ``(i) Detail of Government Employees.--Any Federal Government 
employee may be detailed to the Council without reimbursement, and such 
detail shall be without interruption or loss of civil service status or 
privilege.
    ``(j) Status as Permanent Council.--Section 14 of the Federal 
Advisory Committee Act (5 U.S.C. App.) shall not apply to the Council.

``SEC. 2022. ADVISORY BOARD ON ELDER ABUSE, NEGLECT, AND EXPLOITATION.

    ``(a) Establishment.--There is established a board to be known as 
the `Advisory Board on Elder Abuse, Neglect, and Exploitation' (in this 
section referred to as the `Advisory Board') to create short- and long-
term multidisciplinary strategic plans for the development of the field 
of elder justice and to make recommendations to the Elder Justice 
Coordinating Council established under section 2021.
    ``(b) Composition.--The Advisory Board shall be composed of 27 
members appointed by the Secretary from among members of the general 
public who are individuals with experience and expertise in elder 
abuse, neglect, and exploitation prevention, detection, treatment, 
intervention, or prosecution.
    ``(c) Solicitation of Nominations.--The Secretary shall publish a 
notice in the Federal Register soliciting nominations for the 
appointment of members of the Advisory Board under subsection (b).
    ``(d) Terms.--
            ``(1) In general.--Each member of the Advisory Board shall 
        be appointed for a term of 3 years, except that, of the members 
        first appointed--
                    ``(A) 9 shall be appointed for a term of 3 years;
                    ``(B) 9 shall be appointed for a term of 2 years; 
                and
                    ``(C) 9 shall be appointed for a term of 1 year.
            ``(2) Vacancies.--
                    ``(A) In general.--Any vacancy on the Advisory 
                Board shall not affect its powers, but shall be filled 
                in the same manner as the original appointment was 
                made.
                    ``(B) Filling unexpired term.--An individual chosen 
                to fill a vacancy shall be appointed for the unexpired 
                term of the member replaced.
            ``(3) Expiration of terms.--The term of any member shall 
        not expire before the date on which the member's successor 
        takes office.
    ``(e) Election of Officers.--The Advisory Board shall elect a Chair 
and Vice Chair from among its members. The Advisory Board shall elect 
its initial Chair and Vice Chair at its initial meeting.
    ``(f) Duties.--
            ``(1) Enhance communication on promoting quality of, and 
        preventing abuse and neglect in, long-term care.--The Advisory 
        Board shall develop collaborative and innovative approaches to 
        improve the quality of, including preventing abuse and neglect 
        in, long-term care.
            ``(2) Collaborative efforts to develop consensus around the 
        management of certain quality-related factors.--
                    ``(A) In general.--The Advisory Board shall 
                establish multidisciplinary panels to address, and 
                develop consensus on, subjects relating to improving 
                the quality of long-term care. At least 1 such panel 
                shall address, and develop consensus on, methods for 
                managing resident-to-resident abuse in long-term care.
                    ``(B) Activities conducted.--The multidisciplinary 
                panels established under subparagraph (A) shall examine 
                relevant research and data, identify best practices 
                with respect to the subject of the panel, determine the 
                best way to carry out those best practices in a 
                practical and feasible manner, and determine an 
                effective manner of distributing information on such 
                subject.
            ``(3) Report.--Not later than the date that is 18 months 
        after the date of enactment of the Elder Justice Act, and 
        annually thereafter, the Advisory Board shall prepare and 
        submit to the Elder Justice Coordinating Council, the Committee 
        on Finance of the Senate, and the Committee on Ways and Means 
        and the Committee on Energy and Commerce of the House of 
        Representatives a report containing--
                    ``(A) information on the status of Federal, State, 
                and local public and private elder justice activities;
                    ``(B) recommendations (including recommended 
                priorities) regarding--
                            ``(i) elder justice programs, research, 
                        training, services, practice, enforcement, and 
                        coordination;
                            ``(ii) coordination between entities 
                        pursuing elder justice efforts and those 
                        involved in related areas that may inform or 
                        overlap with elder justice efforts, such as 
                        activities to combat violence against women and 
                        child abuse and neglect; and
                            ``(iii) activities relating to adult 
                        fiduciary systems, including guardianship and 
                        other fiduciary arrangements;
                    ``(C) recommendations for specific modifications 
                needed in Federal and State laws (including 
                regulations) or for programs, research, and training to 
                enhance prevention, detection, and treatment (including 
                diagnosis) of, intervention in (including investigation 
                of), and prosecution of elder abuse, neglect, and 
                exploitation;
                    ``(D) recommendations on methods for the most 
                effective coordinated national data collection with 
                respect to elder justice, and elder abuse, neglect, and 
                exploitation; and
                    ``(E) recommendations for a multidisciplinary 
                strategic plan to guide the effective and efficient 
                development of the field of elder justice.
    ``(g) Powers of the Advisory Board.--
            ``(1) Information from federal agencies.--Subject to the 
        requirements of section 2012(a), the Advisory Board may secure 
        directly from any Federal department or agency such information 
        as the Advisory Board considers necessary to carry out this 
        section. Upon request of the Chair of the Advisory Board, the 
        head of such department or agency shall furnish such 
        information to the Advisory Board.
            ``(2) Sharing of data and reports.--The Advisory Board may 
        request from any entity pursuing elder justice activities under 
        the Elder Justice Act or an amendment made by that Act, any 
        data, reports, or recommendations generated in connection with 
        such activities.
            ``(3) Postal services.--The Advisory Board may use the 
        United States mails in the same manner and under the same 
        conditions as other departments and agencies of the Federal 
        Government.
    ``(h) Travel Expenses.--The members of the Advisory Board shall not 
receive compensation for the performance of services for the Advisory 
Board. The members shall be allowed travel expenses for up to 4 
meetings per year, including per diem in lieu of subsistence, at rates 
authorized for employees of agencies under subchapter I of chapter 57 
of title 5, United States Code, while away from their homes or regular 
places of business in the performance of services for the Advisory 
Board. Notwithstanding section 1342 of title 31, United States Code, 
the Secretary may accept the voluntary and uncompensated services of 
the members of the Advisory Board.
    ``(i) Detail of Government Employees.--Any Federal Government 
employee may be detailed to the Advisory Board without reimbursement, 
and such detail shall be without interruption or loss of civil service 
status or privilege.
    ``(j) Status as Permanent Advisory Committee.--Section 14 of the 
Federal Advisory Committee Act (5 U.S.C. App.) shall not apply to the 
advisory board.

``SEC. 2023. RESEARCH PROTECTIONS.

    ``(a) Guidelines.--The Secretary shall promulgate guidelines to 
assist researchers working in the area of elder abuse, neglect, and 
exploitation, with issues relating to human subject protections.
    ``(b) Definition of Legally Authorized Representative for 
Application of Regulations.--For purposes of the application of subpart 
A of part 46 of title 45, Code of Federal Regulations, to research 
conducted under this chapter the term `legally authorized 
representative' means, unless otherwise provided by law, the individual 
or judicial or other body authorized under the applicable law to 
consent to medical treatment on behalf of another person.

``SEC. 2024. AUTHORIZATION OF APPROPRIATIONS.

    ``There are authorized to be appropriated to carry out this 
chapter--
            ``(1) for fiscal year 2008, $6,500,000; and
            ``(2) for each of fiscal years 2009 through 2011, 
        $7,000,000.

 ``CHAPTER II--ELDER ABUSE, NEGLECT, AND EXPLOITATION FORENSIC CENTERS

``SEC. 2031. ESTABLISHMENT AND SUPPORT OF ELDER ABUSE, NEGLECT, AND 
                    EXPLOITATION FORENSIC CENTERS.

    ``(a) In General.--The Secretary, in consultation with the Attorney 
General, shall make grants to eligible entities to establish and 
operate stationary and mobile forensic centers, to develop forensic 
expertise regarding, and provide services relating to, elder abuse, 
neglect, and exploitation.
    ``(b) Stationary Forensic Centers.--The Secretary shall make 4 of 
the grants described in subsection (a) to institutions of higher 
education with demonstrated expertise in forensics or commitment to 
preventing or treating elder abuse, neglect, or exploitation, to 
establish and operate stationary forensic centers.
    ``(c) Mobile Centers.--The Secretary shall make 6 of the grants 
described in subsection (a) to appropriate entities to establish and 
operate mobile forensic centers.
    ``(d) Authorized Activities.--
            ``(1) Development of forensic markers and methodologies.--
        An eligible entity that receives a grant under this section 
        shall use funds made available through the grant to assist in 
        determining whether abuse, neglect, or exploitation occurred 
        and whether a crime was committed and to conduct research to 
        describe and disseminate information on--
                    ``(A) forensic markers that indicate a case in 
                which elder abuse, neglect, or exploitation may have 
                occurred; and
                    ``(B) methodologies for determining, in such a 
                case, when and how health care, emergency service, 
                social and protective services, and legal service 
                providers should intervene and when the providers 
                should report the case to law enforcement authorities.
            ``(2) Development of forensic expertise.--An eligible 
        entity that receives a grant under this section shall use funds 
        made available through the grant to develop forensic expertise 
        regarding elder abuse, neglect, and exploitation in order to 
        provide medical and forensic evaluation, therapeutic 
        intervention, victim support and advocacy, case review, and 
        case tracking.
            ``(3) Collection of evidence.--The Secretary, in 
        coordination with the Attorney General, shall use data made 
        available by grant recipients under this section to develop the 
        capacity of geriatric health care professionals and law 
        enforcement to collect forensic evidence, including collecting 
        forensic evidence relating to a potential determination of 
        elder abuse, neglect, or exploitation.
    ``(e) Application.--To be eligible to receive a grant under this 
section, an entity shall submit an application to the Secretary at such 
time, in such manner, and containing such information as the Secretary 
may require.
    ``(f) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            ``(1) for fiscal year 2008, $4,000,000;
            ``(2) for fiscal year 2009, $6,000,000; and
            ``(3) for each of fiscal years 2010 and 2011, $8,000,000.

             ``Subpart 2--Programs to Promote Elder Justice

``SEC. 2041. ENHANCEMENT OF LONG-TERM CARE.

    ``(a) Grants and Incentives for Long-Term Care Staffing.--
            ``(1) In general.--The Secretary shall carry out 
        activities, including activities described in paragraphs (2) 
        and (3), to provide incentives for individuals to train for, 
        seek, and maintain employment providing direct care in a long-
        term care facility.
            ``(2) Specific programs to enhance training, recruitment, 
        and retention of staff.--
                    ``(A) Coordination with secretary of labor to 
                recruit and train long-term care staff.--The Secretary 
                shall coordinate activities under this subsection with 
                the Secretary of Labor in order to provide incentives 
                for individuals to train for and seek employment 
                providing direct care in a long-term care facility.
                    ``(B) Career ladders and wage or benefit increases 
                to increase staffing in long-term care facilities.--
                            ``(i) In general.--The Secretary shall make 
                        grants to long-term care facilities to carry 
                        out programs through which the facilities--
                                    ``(I) offer, to employees who 
                                provide direct care to residents of a 
                                long-term care facility, continuing 
                                training and varying levels of 
                                certification, based on observed 
                                clinical care practices and the amount 
                                of time the employees spend providing 
                                direct care; and
                                    ``(II) provide, or make 
                                arrangements to provide, bonuses or 
                                other increased compensation or 
                                benefits to employees who achieve 
                                certification under such a program.
                            ``(ii) Application.--To be eligible to 
                        receive a grant under this subparagraph, a 
                        long-term care facility shall submit an 
                        application to the Secretary at such time, in 
                        such manner, and containing such information as 
                        the Secretary may require (which may include 
                        evidence of consultation with the State in 
                        which the long-term care facility is located 
                        with respect to carrying out activities funded 
                        under the grant).
                            ``(iii) Authority to limit number of 
                        applicants.--Nothing in this subparagraph shall 
                        be construed as prohibiting the Secretary from 
                        limiting the number of applicants for a grant 
                        under this subparagraph.
            ``(3) Specific programs to improve management practices.--
                    ``(A) In general.--The Secretary shall make grants 
                to long-term care facilities to enable the facilities 
                to provide training and technical assistance to 
                eligible employees.
                    ``(B) Authorized activities.--A long-term care 
                facility that receives a grant under subparagraph (A) 
                shall use funds made available through the grant to 
                provide training and technical assistance to eligible 
                employees regarding management practices using methods 
                that are demonstrated to promote retention of 
                individuals who provide direct care to residents of the 
                long-term care facility, such as--
                            ``(i) the establishment of standard human 
                        resource policies that reward high performance, 
                        including policies that provide for improved 
                        wages and benefits on the basis of job reviews;
                            ``(ii) the establishment of motivational 
                        and thoughtful work organization practices;
                            ``(iii) the creation of a workplace culture 
                        that respects and values caregivers and their 
                        needs;
                            ``(iv) the promotion of a workplace culture 
                        that respects the rights of residents of a 
                        long-term care facility and results in improved 
                        care for the residents; and
                            ``(v) the establishment of other programs 
                        that promote the provision of high quality 
                        care, such as a continuing education program 
                        that provides additional hours of training, 
                        including on-the-job training, for employees 
                        who are certified nurse aides.
                    ``(C) Application.--To be eligible to receive a 
                grant under this paragraph, a long-term care facility 
                shall submit an application to the Secretary at such 
                time, in such manner, and containing such information 
                as the Secretary may require (which may include 
                evidence of consultation with the State in which the 
                long-term care facility is located with respect to 
                carrying out activities funded under the grant).
                    ``(D) Authority to limit number of applicants.--
                Nothing in this paragraph shall be construed as 
                prohibiting the Secretary from limiting the number of 
                applicants for a grant under this paragraph.
                    ``(E) Eligible employee defined.--In this 
                paragraph, the term `eligible employee' means an 
                individual who establishes or implements management 
                practices applicable with respect to individuals who 
                provide direct care to residents of a long-term care 
                facility and includes administrators, directors of 
                nursing, staff developers, and charge nurses.
            ``(4) Accountability measures.--The Secretary shall develop 
        accountability measures to ensure that the activities conducted 
        using funds made available under this subsection benefit 
        eligible employees and increase the stability of the long-term 
        care workforce.
    ``(b) Informatics Systems Grant Program.--
            ``(1) Grants authorized.--The Secretary is authorized to 
        make grants to long-term care facilities for the purpose of 
        assisting such entities in offsetting the costs related to 
        purchasing, leasing, developing, and implementing standardized 
        clinical health care informatics systems designed to improve 
        patient safety and reduce adverse events and health care 
        complications resulting from medication errors.
            ``(2) Use of grant funds.--Funds provided under grants 
        under this subsection may be used for any of the following:
                    ``(A) Purchasing, leasing, and installing computer 
                software and hardware, including handheld computer 
                technologies.
                    ``(B) Making improvements to existing computer 
                software and hardware.
                    ``(C) Making upgrades and other improvements to 
                existing computer software and hardware to enable e-
                prescribing.
                    ``(D) Providing education and training to eligible 
                long-term care facility staff on the use of technology 
                to implement the electronic transmission of 
                prescription and patient information.
            ``(3) Application.--To be eligible to receive a grant under 
        this subsection, a long-term care facility shall submit an 
        application to the Secretary at such time, in such manner, and 
        containing such information as the Secretary may require (which 
        may include evidence of consultation with the State in which 
        the long-term care facility is located with respect to carrying 
        out activities funded under the grant).
            ``(4) Authority to limit number of applicants.--Nothing in 
        this subsection shall be construed as prohibiting the Secretary 
        from limiting the number of applicants for a grant under this 
        subsection.
            ``(5) Accountability measures.--The Secretary shall develop 
        accountability measures to ensure that the activities conducted 
        using funds made available under this subsection help improve 
        patient safety and reduce adverse events and health care 
        complications resulting from medication errors.
    ``(c) Inclusion of Adjudicated Crimes on Nursing Home Compare 
Website.--Not later than 1 year after the date of enactment of the 
Elder Justice Act, the Secretary shall ensure that the Department of 
Health and Human Services includes, as part of the information provided 
for comparison of nursing facilities on the official Internet website 
of the Federal Government for Medicare beneficiaries (commonly referred 
to as the `Nursing Home Compare' Medicare website), the number of 
adjudicated instances of criminal violations by a nursing facility or 
crimes committed by an employee of a nursing facility--
            ``(1) that were committed inside of the facility; and
            ``(2) with respect to such instances of violations or 
        crimes committed outside of the facility, that were the 
        violations or crimes of elder abuse, neglect, and exploitation, 
        criminal sexual abuse of an elder, or other violations or 
        crimes that resulted in the serious bodily injury of an elder.
    ``(d) Development of Consumer Rights Information Page on Nursing 
Home Compare Website.--Not later than 1 year after the date of 
enactment of the Elder Justice Act, the Secretary shall ensure that the 
Department of Health and Human Services, as part of the information 
provided for comparison of nursing facilities on the Nursing Home 
Compare Medicare website develops and includes a consumer rights 
information page that contains links to descriptions of, and 
information with respect to, the following:
            ``(1) The documentation on nursing facilities that is 
        available to the public.
            ``(2) General information and tips on choosing a nursing 
        facility that meets the needs of the individual.
            ``(3) General information on consumer rights with respect 
        to nursing facilities.
            ``(4) The nursing facility survey process (on a national 
        and State-specific basis).
            ``(5) On a State-specific basis, the services available 
        through the State long-term care ombudsman for such State.
    ``(e) Development and Adoption of Standards for Transactions 
Involving Clinical Data by Long-Term Care Facilities.--
            ``(1) Standards.--The Secretary shall develop and adopt 
        uniform open electronic standards for transactions involving 
        clinical data by long-term care facilities. Such standards 
        shall include messaging and nomenclature standards.
            ``(2) Compatibility with other standards.--The standards 
        developed and adopted under paragraph (1) shall be compatible 
        with standards established under part C of title XI, standards 
        established under subsections (b)(2)(B)(i) and (e)(4) of 
        section 1860D-4, and with general health information technology 
        standards.
            ``(3) Electronic submission of data to the secretary.--
                    ``(A) In general.--Not later than 10 years after 
                the date of enactment of the Elder Justice Act, the 
                Secretary shall have procedures in place to accept the 
                optional electronic submission of clinical data by 
                long-term care facilities pursuant to the standards 
                developed and adopted under paragraph (1).
                    ``(B) Rule of construction.--Nothing in this 
                subsection shall be construed to require a long-term 
                care facility to submit clinical data electronically to 
                the Secretary.
    ``(f) Regulations.--The Secretary shall promulgate regulations to 
carry out subsections (c), (d), and (e) of this section. Such 
regulations shall require a State, as a condition of the receipt of 
funds under this part, to conduct such data collection and reporting as 
the Secretary determines are necessary to satisfy the requirements of 
such subsections.
    ``(g) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            ``(1) for fiscal year 2008, $20,000,000;
            ``(2) for fiscal year 2009, $17,500,000; and
            ``(3) for each of fiscal years 2010 and 2011, $15,000,000.

``SEC. 2042. ADULT PROTECTIVE SERVICES FUNCTIONS AND GRANT PROGRAMS.

    ``(a) Secretarial Responsibilities.--
            ``(1) In general.--The Secretary shall ensure that the 
        Department of Health and Human Services--
                    ``(A) provides funding authorized by this subpart 
                to State and local adult protective services offices 
                that investigate reports of the abuse, neglect, and 
                exploitation of elders;
                    ``(B) collects and disseminates data annually 
                relating to the abuse, exploitation, and neglect of 
                elders in coordination with the Department of Justice;
                    ``(C) develops and disseminates information on best 
                practices regarding, and provides training on, carrying 
                out adult protective services;
                    ``(D) conducts research related to the provision of 
                adult protective services; and
                    ``(E) provides technical assistance to States and 
                other entities that provide or fund the provision of 
                adult protective services, including through grants 
                made under subsections (b) and (c).
            ``(2) Authorization of appropriations.--There are 
        authorized to be appropriated to carry out this subsection, 
        $3,000,000 for fiscal year 2008 and $4,000,000 for each of 
        fiscal years 2009 through 2011.
    ``(b) Grants to Enhance the Provision of Adult Protective 
Services.--
            ``(1) Establishment.--There is established an adult 
        protective services grant program under which the Secretary 
        shall annually award grants to States in the amounts calculated 
        under paragraph (2) for the purposes of enhancing adult 
        protective services provided by States and local units of 
        government.
            ``(2) Amount of payment.--
                    ``(A) In general.--Subject to the availability of 
                appropriations and subparagraphs (B) and (C), the 
                amount paid to a State for a fiscal year under the 
                program under this subsection shall equal the amount 
                appropriated for that year to carry out this subsection 
                multiplied by the percentage of the total number of 
                elders who reside in the United States who reside in 
                that State.
                    ``(B) Guaranteed minimum payment amount.--
                            ``(i) 50 states.--Subject to clause (ii), 
                        if the amount determined under subparagraph (A) 
                        for a State for a fiscal year is less than 0.75 
                        percent of the amount appropriated for such 
                        year, the Secretary shall increase such 
                        determined amount so that the total amount paid 
                        under this subsection to the State for the year 
                        is equal to 0.75 percent of the amount so 
                        appropriated.
                            ``(ii) Territories.--In the case of a State 
                        other than 1 of the 50 States, clause (i) shall 
                        be applied as if each reference to `0.75' were 
                        a reference to `0.1'.
                    ``(C) Pro rata reductions.--The Secretary shall 
                make such pro rata reductions to the amounts described 
                in subparagraph (A) as are necessary to comply with the 
                requirements of subparagraph (B).
            ``(3) Authorized activities.--
                    ``(A) Adult protective services.--Funds made 
                available pursuant to this subsection may only be used 
                by States and local units of government to provide 
                adult protective services and may not be used for any 
                other purpose.
                    ``(B) Use by agency.--Each State receiving funds 
                pursuant to this subsection shall provide such funds to 
                the agency or unit of State government having legal 
                responsibility for providing adult protective services 
                within the State.
                    ``(C) Supplement not supplant.--Each State or local 
                unit of government shall use funds made available 
                pursuant to this subsection to supplement and not 
                supplant other Federal, State, and local public funds 
                expended to provide adult protective services in the 
                State.
            ``(4) State reports.--Each State receiving funds under this 
        subsection shall submit to the Secretary, at such time and in 
        such manner as the Secretary may require, a report on the 
        number of elders served by the grants awarded under this 
        subsection.
            ``(5) Authorization of appropriations.--There are 
        authorized to be appropriated to carry out this subsection, 
        $100,000,000 for each of fiscal years 2008 through 2011.
    ``(c) State Demonstration Programs.--
            ``(1) Establishment.--The Secretary shall award grants to 
        States for the purposes of conducting demonstration programs in 
        accordance with paragraph (2).
            ``(2) Demonstration programs.--Funds made available 
        pursuant to this subsection may be used by States and local 
        units of government to conduct demonstration programs that 
        test--
                    ``(A) training modules developed for the purpose of 
                detecting or preventing elder abuse;
                    ``(B) methods to detect or prevent financial 
                exploitation of elders;
                    ``(C) methods to detect elder abuse;
                    ``(D) whether training on elder abuse forensics 
                enhances the detection of elder abuse by employees of 
                the State or local unit of government; or
                    ``(E) other matters relating to the detection or 
                prevention of elder abuse.
            ``(3) Application.--To be eligible to receive a grant under 
        this subsection, a State shall submit an application to the 
        Secretary at such time, in such manner, and containing such 
        information as the Secretary may require.
            ``(4) State reports.--Each State that receives funds under 
        this subsection shall submit a report to the Secretary at such 
        time, in such manner, and containing such information as the 
        Secretary may require on the results of the demonstration 
        program conducted by the State using funds made available under 
        this subsection.
            ``(5) Authorization of appropriations.--There are 
        authorized to be appropriated to carry out this subsection, 
        $25,000,000 for each of fiscal years 2008 through 2011.

``SEC. 2043. LONG-TERM CARE OMBUDSMAN PROGRAM GRANTS AND TRAINING.

    ``(a) Grants to Support the Long-Term Care Ombudsman Program.--
            ``(1) In general.--The Secretary shall make grants to 
        eligible entities with relevant expertise and experience in 
        abuse and neglect in long-term care facilities or long-term 
        care ombudsman programs and responsibilities, for the purpose 
        of--
                    ``(A) improving the capacity of State long-term 
                care ombudsman programs to respond to and resolve 
                complaints about abuse and neglect;
                    ``(B) conducting pilot programs with State long-
                term care ombudsman offices or local ombudsman 
                entities; and
                    ``(C) providing support for such State long-term 
                care ombudsman programs and such pilot programs (such 
                as through the establishment of a national long-term 
                care ombudsman resource center).
            ``(2) Authorization of appropriations.--There are 
        authorized to be appropriated to carry out this subsection--
                    ``(A) for fiscal year 2008, $5,000,000;
                    ``(B) for fiscal year 2009, $7,500,000; and
                    ``(C) for each of fiscal years 2010 and 2011, 
                $10,000,000.
    ``(b) Ombudsman Training Programs.--
            ``(1) In general.--The Secretary shall establish programs 
        to provide and improve ombudsman training with respect to elder 
        abuse, neglect, and exploitation for national organizations and 
        State long-term care ombudsman programs.
            ``(2) Authorization of appropriations.--There are 
        authorized to be appropriated to carry out this subsection, for 
        each of fiscal years 2008 through 2011, $10,000,000.

``SEC. 2044. PROVISION OF INFORMATION REGARDING, AND EVALUATIONS OF, 
                    ELDER JUSTICE PROGRAMS.

    ``(a) Provision of Information.--To be eligible to receive a grant 
under this part, an applicant shall agree--
            ``(1) except as provided in paragraph (2), to provide the 
        eligible entity conducting an evaluation under subsection (b) 
        of the activities funded through the grant with such 
        information as the eligible entity may require in order to 
        conduct such evaluation; or
            ``(2) in the case of an applicant for a grant under section 
        2041(b), to provide the Secretary with such information as the 
        Secretary may require to conduct an evaluation or audit under 
        subsection (c).
    ``(b) Use of Eligible Entities To Conduct Evaluations.--
            ``(1) Evaluations required.--Except as provided in 
        paragraph (2), the Secretary shall--
                    ``(A) reserve a portion (not less than 2 percent) 
                of the funds appropriated with respect to each program 
                carried out under this part; and
                    ``(B) use the funds reserved under subparagraph (A) 
                to provide assistance to eligible entities to conduct 
                evaluations of the activities funded under each program 
                carried out under this part.
            ``(2) Informatics systems grant program not included.--The 
        provisions of this subsection shall not apply to the 
        informatics systems grant program under section 2041(b).
            ``(3) Authorized activities.--A recipient of assistance 
        described in paragraph (1)(B) shall use the funds made 
        available through the assistance to conduct a validated 
        evaluation of the effectiveness of the activities funded under 
        a program carried out under this part.
            ``(4) Applications.--To be eligible to receive assistance 
        under paragraph (1)(B), an entity shall submit an application 
        to the Secretary at such time, in such manner, and containing 
        such information as the Secretary may require, including a 
        proposal for the evaluation.
            ``(5) Reports.--Not later than a date specified by the 
        Secretary, an eligible entity receiving assistance under 
        paragraph (1)(B) shall submit to the Secretary, the Committee 
        on Ways and Means and the Committee on Energy and Commerce of 
        the House of Representatives, and the Committee on Finance of 
        the Senate a report containing the results of the evaluation 
        conducted using such assistance together with such 
        recommendations as the entity determines to be appropriate.
    ``(c) Evaluations and Audits of Informatics Systems Grant Program 
by the Secretary.--
            ``(1) Evaluations.--The Secretary shall conduct an 
        evaluation of the activities funded under the informatics 
        systems grant program under section 2041(b). Such evaluation 
        shall include an evaluation of whether the funding provided 
        under the grant is expended only for the purposes for which it 
        is made.
            ``(2) Audits.--The Secretary shall conduct appropriate 
        audits of grants made under section 2041(b).

``SEC. 2045. REPORT.

    ``Not later than October 1, 2011, the Secretary shall submit to the 
Elder Justice Coordinating Council, the Committee on Ways and Means and 
the Committee on Energy and Commerce of the House of Representatives, 
and the Committee on Finance of the Senate a report--
            ``(1) compiling, summarizing, and analyzing the information 
        contained in the State reports submitted under subsections 
        (b)(4) and (c)(4) of section 2042; and
            ``(2) containing such recommendations for legislative or 
        administrative action as the Secretary determines to be 
        appropriate.''.
            (2) Option for state plan under program for temporary 
        assistance for needy families.--
                    (A) In general.--Section 402(a)(1)(B) of the Social 
                Security Act (42 U.S.C. 602(a)(1)(B)) is amended by 
                adding at the end the following new clause:
                            ``(v) The document shall indicate whether 
                        the State intends to assist individuals to 
                        train for, seek, and maintain employment--
                                    ``(I) providing direct care in a 
                                long-term care facility (as such terms 
                                are defined under section 2011); or
                                    ``(II) in other occupations related 
                                to elder care determined appropriate by 
                                the State for which the State 
                                identifies an unmet need for service 
                                personnel,
                        and, if so, shall include an overview of such 
                        assistance.''.
                    (B) Effective date.--The amendment made by 
                subparagraph (A) shall take effect on October 1, 2008.
    (b) Protecting Residents of Long-Term Care Facilities.--
            (1) National training institute for surveyors.--
                    (A) In general.--The Secretary of Health and Human 
                Services shall enter into a contract with an entity for 
                the purpose of establishing and operating a National 
                Training Institute for Federal and State surveyors. 
                Such Institute shall provide and improve the training 
                of surveyors with respect to investigating allegations 
                of abuse, neglect, and misappropriation of property in 
                programs and long-term care facilities that receive 
                payments under title XVIII or XIX of the Social 
                Security Act.
                    (B) Activities carried out by the institute.--The 
                contract entered into under subparagraph (A) shall 
                require the Institute established and operated under 
                such contract to carry out the following activities:
                            (i) Assess the extent to which State 
                        agencies use specialized surveyors for the 
                        investigation of reported allegations of abuse, 
                        neglect, and misappropriation of property in 
                        such programs and long-term care facilities.
                            (ii) Evaluate how the competencies of 
                        surveyors may be improved to more effectively 
                        investigate reported allegations of such abuse, 
                        neglect, and misappropriation of property, and 
                        provide feedback to Federal and State agencies 
                        on the evaluations conducted.
                            (iii) Provide a national program of 
                        training, tools, and technical assistance to 
                        Federal and State surveyors on investigating 
                        reports of such abuse, neglect, and 
                        misappropriation of property.
                            (iv) Develop and disseminate information on 
                        best practices for the investigation of such 
                        abuse, neglect, and misappropriation of 
                        property.
                            (v) Assess the performance of State 
                        complaint intake systems, in order to ensure 
                        that the intake of complaints occurs 24 hours 
                        per day, 7 days a week (including holidays).
                            (vi) To the extent approved by the 
                        Secretary of Health and Human Services, provide 
                        a national 24 hours per day, 7 days a week 
                        (including holidays), back-up system to State 
                        complaint intake systems in order to ensure 
                        optimum national responsiveness to complaints 
                        of such abuse, neglect, and misappropriation of 
                        property.
                            (vii) Analyze and report annually on the 
                        following:
                                    (I) The total number and sources of 
                                complaints of such abuse, neglect, and 
                                misappropriation of property.
                                    (II) The extent to which such 
                                complaints are referred to law 
                                enforcement agencies.
                                    (III) General results of Federal 
                                and State investigations of such 
                                complaints.
                            (viii) Conduct a national study of the cost 
                        to State agencies of conducting complaint 
                        investigations of skilled nursing facilities 
                        and nursing facilities under sections 1819 and 
                        1919, respectively, of the Social Security Act 
                        (42 U.S.C. 1395i-3; 1396r), and making 
                        recommendations to the Secretary of Health and 
                        Human Services with respect to options to 
                        increase the efficiency and cost-effectiveness 
                        of such investigations.
                    (C) Authorization.--There are authorized to be 
                appropriated to carry out this paragraph, for the 
                period of fiscal years 2008 through 2011, $12,000,000.
            (2) Grants to state survey agencies.--
                    (A) In general.--The Secretary of Health and Human 
                Services shall make grants to State agencies that 
                perform surveys of skilled nursing facilities or 
                nursing facilities under sections 1819 or 1919, 
                respectively, of the Social Security Act (42 U.S.C. 
                1395i-3; 1395r).
                    (B) Use of funds.--A grant awarded under 
                subparagraph (A) shall be used for the purpose of 
                designing and implementing complaint investigations 
                systems that--
                            (i) promptly prioritize complaints in order 
                        to ensure a rapid response to the most serious 
                        and urgent complaints;
                            (ii) respond to complaints with optimum 
                        effectiveness and timeliness; and
                            (iii) optimize the collaboration between 
                        local authorities, consumers, and providers, 
                        including--
                                    (I) such State agency;
                                    (II) the State Long-Term Care 
                                Ombudsman;
                                    (III) local law enforcement 
                                agencies;
                                    (IV) advocacy and consumer 
                                organizations;
                                    (V) State aging units;
                                    (VI) Area Agencies on Aging; and
                                    (VII) other appropriate entities.
                    (C) Authorization.--There are authorized to be 
                appropriated to carry out this paragraph, for each of 
                fiscal years 2008 through 2011, $5,000,000.
            (3) Reporting of crimes and ensuring safety of residents 
        when federally funded long-term care facilities close.--Part A 
        of title XI of the Social Security Act (42 U.S.C. 1301 et seq.) 
        is amended by adding at the end the following new sections:
``reporting to law enforcement of crimes occurring in federally funded 
                       long-term care facilities
    ``Sec. 1150A.  (a) Determination and Notification.--
            ``(1) Determination.--The owner or operator of each long-
        term care facility that receives Federal funds under this Act 
        shall annually determine whether the facility received at least 
        $10,000 in such Federal funds during the preceding year.
            ``(2) Notification.--If the owner or operator determines 
        under paragraph (1) that the facility received at least $10,000 
        in such Federal funds during the preceding year, such owner or 
        operator shall annually notify each covered individual (as 
        defined in paragraph (3)) of that individual's obligation to 
        comply with the reporting requirements described in subsection 
        (b).
            ``(3) Covered individual defined.--In this section, the 
        term `covered individual' means each individual who is an 
        owner, operator, employee, manager, agent, or contractor of a 
        long-term care facility that is the subject of a determination 
        described in paragraph (1).
    ``(b) Reporting Requirements.--
            ``(1) In general.--Each covered individual shall report to 
        the Secretary and 1 or more law enforcement entities for the 
        political subdivision in which the facility is located any 
        reasonable suspicion of a crime (as defined by the law of the 
        applicable political subdivision) against any individual who is 
        a resident of, or is receiving care from, the facility.
            ``(2) Timing.--If the events that cause the suspicion--
                    ``(A) result in serious bodily injury, the 
                individual shall report the suspicion immediately, but 
                not later than 2 hours after forming the suspicion; and
                    ``(B) do not result in serious bodily injury, the 
                individual shall report the suspicion not later than 24 
                hours after forming the suspicion.
    ``(c) Penalties.--
            ``(1) In general.--If a covered individual violates 
        subsection (b)--
                    ``(A) the covered individual shall be subject to a 
                civil money penalty of not more than $200,000; or
                    ``(B) the Secretary shall classify the covered 
                individual as an excluded individual, for a period of 
                not more than 3 years.
            ``(2) Increased harm.--If a covered individual violates 
        subsection (b) and the violation exacerbates the harm to the 
        victim of the crime or results in harm to another individual--
                    ``(A) the covered individual shall be subject to a 
                civil money penalty of not more than $300,000; and
                    ``(B) the Secretary shall classify the covered 
                individual as an excluded individual, for a period of 
                not more than 3 years.
            ``(3) Excluded individual.--During any period for which a 
        covered individual is classified as an excluded individual 
        under paragraph (1)(B) or (2)(B), a long-term care facility 
        that employs such individual shall be ineligible to receive 
        Federal funds under this Act.
            ``(4) Extenuating circumstances.--
                    ``(A) In general.--The Secretary may take into 
                account the financial burden on providers with 
                underserved populations in determining any penalty to 
                be imposed under this subsection.
                    ``(B) Underserved population defined.--In this 
                paragraph, the term `underserved population' means the 
                population of an area designated by the Secretary as an 
                area with a shortage of elder justice programs or a 
                population group designated by the Secretary as having 
                a shortage of such programs. Such areas or groups 
                designated by the Secretary may include--
                            ``(i) areas or groups that are 
                        geographically isolated (such as isolated in a 
                        rural area);
                            ``(ii) racial and ethnic minority 
                        populations; and
                            ``(iii) populations underserved because of 
                        special needs (such as language barriers, 
                        disabilities, alien status, or age).
    ``(d) Additional Penalties for Retaliation.--
            ``(1) In general.--A long-term care facility may not--
                    ``(A) discharge, demote, suspend, threaten, harass, 
                or deny a promotion or other employment-related benefit 
                to an employee, or in any other manner discriminate 
                against an employee in the terms and conditions of 
                employment because of lawful acts done by the employee; 
                or
                    ``(B) file a complaint or a report against a nurse 
                or other employee with the appropriate State 
                professional disciplinary agency because of lawful acts 
                done by the nurse or employee,
        for making a report, causing a report to be made, or for taking 
        steps in furtherance of making a report pursuant to subsection 
        (b)(1).
            ``(2) Penalties for retaliation.--If a long-term care 
        facility violates subparagraph (A) or (B) of paragraph (1) the 
        facility shall be subject to a civil money penalty of not more 
        than $200,000 or the Secretary may classify the entity as an 
        excluded entity for a period of 2 years pursuant to section 
        1128(b), or both.
            ``(3) Requirement to post notice.--Each long-term care 
        facility shall post conspicuously in an appropriate location a 
        sign (in a form specified by the Secretary) specifying the 
        rights of employees under this section. Such sign shall include 
        a statement that an employee may file a complaint with the 
        Secretary against a long-term care facility that violates the 
        provisions of this subsection and information with respect to 
        the manner of filing such a complaint.
    ``(e) Procedure.--The provisions of section 1128A (other than 
subsections (a) and (b) and the second sentence of subsection (f)) 
shall apply to a civil money penalty under this section in the same 
manner as such provisions apply to a penalty or proceeding under 
section 1128A(a).
    ``(f) Definitions.--In this section, the terms `elder justice', 
`long-term care facility', and `law enforcement' have the meanings 
given those terms in section 2011.
  ``ensuring safety of residents when federally funded long-term care 
                            facilities close
    ``Sec. 1150B.  (a) In General.--
            ``(1) Notification of facility closure.--Subject to 
        paragraph (2), if the owner or operator determines under 
        section 1150A(a)(1) that a long-term care facility received at 
        least $10,000 in Federal funds under this Act during the 
        preceding year, the owner or operator of the facility shall--
                    ``(A) submit to the Secretary and the appropriate 
                State regulatory agency written notification of an 
                impending closure not later than the date that is 60 
                days prior to the date of such closure;
                    ``(B) include in the notice a plan for the transfer 
                and adequate relocation of the residents of the 
                facility prior to closure, including assurances that 
                the residents will be transferred to the most 
                appropriate facility in terms of quality, services, and 
                location; and
                    ``(C) not later than 10 days after the facility 
                closure, submit to the Secretary and the appropriate 
                State agency information identifying where residents of 
                the closed facility were transferred and on what date.
            ``(2) Exception where the secretary has issued a 
        termination notice.--In the case of a long-term care facility 
        described in paragraph (1) for which the Secretary has issued a 
        termination notice for the facility to close by not later than 
        15 days after the issuance of such notice, the Secretary shall 
        establish requirements for the notification, transfer, and 
        adequate relocation of residents within an appropriate 
        timeframe.
    ``(b) Sanctions.--Any person owning or operating a long-term care 
facility that fails to comply with the requirements of subsection (a) 
shall be subject to--
            ``(1) a civil monetary penalty of up to $1,000,000;
            ``(2) exclusion from participation in the programs under 
        this Act (in accordance with the procedures of section 1128); 
        and
            ``(3) any other applicable civil monetary penalties and 
        assessments.
    ``(c) Procedure.--The provisions of section 1128A (other than 
subsections (a) and (b) and the second sentence of subsection (f)) 
shall apply to a civil money penalty or assessment under this section 
in the same manner as such provisions apply to a penalty or proceeding 
under section 1128A(a).
    ``(d) Definition.--In this section, the term `long-term care 
facility' has the meaning given that term in section 2011.''.
            (4) Report to congress on pilot program for national and 
        state background checks on direct patient access employees of 
        long-term care facilities or providers.--Not later than the 
        date that is 6 months after the completion of the pilot program 
        for national and State background checks on direct patient 
        access employees of long-term care facilities or providers 
        established under section 307 of the Medicare Prescription 
        Drug, Improvement, and Modernization Act of 2003 (42 U.S.C. 
        1395aa note), the Secretary shall submit to the Committee on 
        Finance of the Senate and the Committee on Ways and Means and 
        the Committee on Energy and Commerce of the House of 
        Representatives a report containing the results of the 
        evaluation required under subsection (e) of such section of 
        such Act, together with recommendations for such legislation 
        and administrative action as the Secretary determines 
        appropriate.
    (c) National Nurse Aide Registry.--
            (1) Definition of nurse aide.--In this subsection, the term 
        ``nurse aide'' has the meaning given that term in sections 
        1819(b)(5)(F) and 1919(b)(5)(F) of the Social Security Act (42 
        U.S.C. 1395i-3(b)(5)(F); 1396r(b)(5)(F)).
            (2) Study and report.--
                    (A) In general.--The Secretary, in consultation 
                with appropriate government agencies and private sector 
                organizations, shall conduct a study on establishing a 
                national nurse aide registry.
                    (B) Areas evaluated.--The study conducted under 
                this subsection shall include an evaluation of--
                            (i) who should be included in the registry;
                            (ii) how such a registry would comply with 
                        Federal and State privacy laws and regulations;
                            (iii) how data would be collected for the 
                        registry;
                            (iv) what entities and individuals would 
                        have access to the data collected;
                            (v) how the registry would provide 
                        appropriate information regarding violations of 
                        Federal and State law by individuals included 
                        in the registry;
                            (vi) how the functions of a national nurse 
                        aide registry would be coordinated with the 
                        pilot program for national and State background 
                        checks on direct patient access employees of 
                        long-term care facilities or providers 
                        established under section 307 of the Medicare 
                        Prescription Drug, Improvement, and 
                        Modernization Act of 2003 (Public Law 108-173); 
                        and
                            (vii) how the information included in State 
                        nurse aide registries developed and maintained 
                        under sections 1819(e)(2) and 1919(e)(2) of the 
                        Social Security Act (42 U.S.C. 1395i-3(e)(2); 
                        1396r(e)(2)(2)) would be provided as part of a 
                        national nurse aide registry.
                    (C) Considerations.--In conducting the study and 
                preparing the report required under this subsection, 
                the Secretary shall take into consideration the 
                findings and conclusions of relevant reports and other 
                relevant resources, including the following:
                            (i) The Department of Health and Human 
                        Services Office of Inspector General Report, 
                        Nurse Aide Registries: State Compliance and 
                        Practices (February 2005).
                            (ii) The General Accounting Office (now 
                        known as the Government Accountability Office) 
                        Report, Nursing Homes: More Can Be Done to 
                        Protect Residents from Abuse (March 2002).
                            (iii) The Department of Health and Human 
                        Services Office of the Inspector General 
                        Report, Nurse Aide Registries: Long-Term Care 
                        Facility Compliance and Practices (July 2005).
                            (iv) The Department of Health and Human 
                        Services Health Resources and Services 
                        Administration Report, Nursing Aides, Home 
                        Health Aides, and Related Health Care 
                        Occupations--National and Local Workforce 
                        Shortages and Associated Data Needs (2004)(in 
                        particular with respect to chapter 7 and 
                        appendix F).
                            (v) The 2001 Report to CMS from the School 
                        of Rural Public Health, Texas A&M University, 
                        Preventing Abuse and Neglect in Nursing Homes: 
                        The Role of Nurse Aide Registries.
                            (vi) Information included in State nurse 
                        aide registries developed and maintained under 
                        sections 1819(e)(2) and 1919(e)(2) of the 
                        Social Security Act (42 U.S.C. 1395i-3(e)(2); 
                        1396r(e)(2)(2)).
                    (D) Report.--Not later than 18 months after the 
                date of enactment of this Act, the Secretary shall 
                submit a report to the Elder Justice Coordinating 
                Council, the Committee on Finance of the Senate, and 
                the Committee on Ways and Means and the Committee on 
                Energy and Commerce of the House of Representatives 
                containing the findings and recommendations of the 
                study conducted under this paragraph.
                    (E) Funding limitation.--Funding for the study 
                conducted under this subsection shall not exceed 
                $500,000.
            (3) Congressional action.--After receiving the report 
        submitted by the Secretary under paragraph (2)(D), the 
        Committee on Finance of the Senate and the Committee on Ways 
        and Means and the Committee on Energy and Commerce of the House 
        of Representatives shall, as they deem appropriate, take action 
        based on the recommendations contained in the report.
            (4) Authorization of appropriations.--There are authorized 
        to be appropriated such sums as are necessary for the purpose 
        of carrying out this subsection.
    (d) Conforming Amendments.--
            (1) Title xx.--Title XX of the Social Security Act (42 
        U.S.C. 1397 et seq.), as amended by section 102(a), is 
        amended--
                    (A) in the heading of section 2001, by striking 
                ``title'' and inserting ``part''; and
                    (B) in part A, by striking ``this title'' each 
                place it appears and inserting ``this part''.
            (2) Title iv.--Title IV of the Social Security Act (42 
        U.S.C. 601 et seq.) is amended--
                    (A) in section 404(d)--
                            (i) in paragraph (1)(A), by striking 
                        ``Title'' and inserting ``Part A of title'';
                            (ii) in paragraphs (2)(A) and (3)(B), by 
                        inserting ``part A of'' before ``title XX'' 
                        each place it appears;
                            (iii) in the heading of paragraph (2), by 
                        inserting ``part a of'' before ``title xx''; 
                        and
                            (iv) in the heading of paragraph (3)(B), by 
                        inserting ``part a of'' before ``title xx''; 
                        and
                    (B) in sections 422(b), 471(a)(4), 472(h)(1), and 
                473(b)(2), by inserting ``part A of'' before ``title 
                XX'' each place it appears.
            (3) Title xi.--Title XI of the Social Security Act (42 
        U.S.C. 1301 et seq.) is amended--
                    (A) in section 1128(h)(3)--
                            (i) by inserting ``part A of'' before 
                        ``title XX''; and
                            (ii) by striking ``such title'' and 
                        inserting ``such part''; and
                    (B) in section 1128A(i)(1), by inserting ``part A 
                of'' before ``title XX''.

                    TITLE II--DEPARTMENT OF JUSTICE

SEC. 201. MODEL STATE LAWS AND PRACTICES.

    (a) In General.--The Attorney General, after consultation with the 
Secretary of Health and Human Services, shall carry out the following 
duties:
            (1) Study.--Conduct a study of State laws and practices 
        relating to elder abuse, neglect, and exploitation.
            (2) Report to elder justice resource center.--Prepare and 
        submit a report or periodic reports containing the findings of 
        the study conducted under paragraph (1) to the Elder Justice 
        Coordinating Council and the Advisory Board of Elder Abuse, 
        Neglect, and Exploitation (established under Title XX of the 
        Social Security Act (42 U.S.C. 1397 et seq.), as amended by 
        this Act). Such report or reports shall be made available to 
        the public.
            (3) Report to congress.--Not later than 2 years after the 
        date of enactment of this Act, submit to the Chairman and 
        Ranking Member of the Special Committee on Aging of the Senate, 
        and the Speaker and Minority leader of the House of 
        Representatives, a report that contains--
                    (A) a comprehensive description of State laws and 
                practices relating to elder abuse, neglect, and 
                exploitation;
                    (B) a comprehensive analysis of the effectiveness 
                of such State laws and practices; and
                    (C) recommendations--
                            (i) for model State laws and practices 
                        relating to elder abuse, neglect, and 
                        exploitation; and
                            (ii) with respect to the definitions 
                        referred to in subsection (b)(1).
    (b) State Laws and Practices.--In conducting the study under 
subsection (a), the Attorney General shall examine State laws and 
practices on issues including--
            (1) the definition of--
                    (A) ``elder'';
                    (B) ``abuse'';
                    (C) ``neglect'';
                    (D) ``exploitation''; and
                    (E) such related terms the Attorney General 
                determines to be appropriate;
            (2) mandatory reporting laws, with respect to--
                    (A) who is a mandated reporter;
                    (B) to whom must they report and within what time 
                frame; and
                    (C) any consequences for not reporting;
            (3) evidentiary, procedural, sentencing, choice of 
        remedies, and data retention issues relating to pursuing cases 
        relating to elder abuse, neglect, and exploitation;
            (4) laws requiring immediate reporting of all nursing home 
        deaths to the county coroner or to some other individual or 
        entity;
            (5) fiduciary laws, including guardianship and power of 
        attorney laws;
            (6) laws that permit or encourage banks and bank employees 
        to prevent and report suspected elder abuse, neglect, and 
        exploitation;
            (7) laws that may impede research on elder abuse, neglect, 
        and exploitation;
            (8) practices relating to the enforcement of laws relating 
        to elder abuse, neglect, and exploitation; and
            (9) practices relating to other aspects of elder justice.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $1,000,000 for fiscal year 2008; and
            (2) $2,000,000 for each of the fiscal years 2009 through 
        2014.

SEC. 202. ELDER JUSTICE PLAN AND STRATEGY.

    (a) Duties of the Attorney General.--The Attorney General shall--
            (1) develop objectives, priorities, policies, and a long-
        term plan for elder justice programs and activities relating to 
        prevention, detection, training, treatment, evaluation, 
        intervention, research, and improvement of the elder justice 
        system in the United States;
            (2) implement the overall policies and a strategy to carry 
        out the plan described in paragraph (1);
            (3) hire personnel to assist in carrying out the policies, 
        programs, and administrative activities related to the duties 
        under paragraphs (1) and (2); and
            (4) coordinate activities with the Elder Justice 
        Coordinating Council and the Advisory Board of Elder Abuse, 
        Neglect, and Exploitation (established under Title XX of the 
        Social Security Act (42 U.S.C. 1397 et seq.), as amended by 
        this Act).
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $3,000,000 for each of the 
fiscal years 2008 through 2014.

SEC. 203. VICTIM ADVOCACY GRANTS.

    (a) Grants Authorized.--The Attorney General, after consultation 
with the Secretary of Health and Human Services, may award grants to 
eligible entities to study the special needs of victims of elder abuse, 
neglect, and exploitation.
    (b) Authorized Activities.--Funds awarded pursuant to subsection 
(a) shall be used for pilot programs that--
            (1) develop programs, provide training to health care, 
        social, and protective services providers, law enforcement, 
        fiduciaries (including guardians), judges and court personnel, 
        and victim advocates; and
            (2) examine special approaches designed to meet the needs 
        of victims of elder abuse, neglect, and exploitation.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $2,500,000 for fiscal year 2008; and
            (2) $3,000,000 for each of the fiscal years 2009 through 
        2014.

SEC. 204. SUPPORTING LOCAL PROSECUTORS IN ELDER JUSTICE MATTERS.

    (a) Grants Authorized.--The Attorney General, after consultation 
with the Secretary of Health and Human Services, shall award grants to 
provide training, technical assistance, policy development, 
multidisciplinary coordination, and other types of support to local 
prosecutors handling elder justice-related cases, including--
            (1) funding specially designated elder justice positions or 
        units; or
            (2) funding the creation of a Center for the Prosecution of 
        Elder Abuse, Neglect, and Exploitation by the American 
        Prosecutor Research Institute of the National District 
        Attorneys Association, or any other similarly situated entity, 
        to advise and support local prosecutors nationwide in their 
        pursuit of cases involving elder abuse, neglect, and 
        exploitation.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $3,000,000 for fiscal year 2008; and
            (2) $4,00,000 for each of the fiscal years 2009 through 
        2014.

SEC. 205. SUPPORTING STATE PROSECUTORS IN ELDER JUSTICE MATTERS.

    (a) In General.--The Attorney General shall, after consultation 
with the Secretary of Health and Human Services, award grants to 
provide training, technical assistance, multidisciplinary coordination, 
policy development, and other types of support to State prosecutors, 
including employees of State Attorneys General and Medicaid Fraud 
Control Units handling elder justice-related matters.
    (b) Creating Specialized Positions.--Grants under this section may 
be made for--
            (1) the establishment of specially designated elder justice 
        positions or units; or
            (2) the creation of a position to coordinate elder justice-
        related cases, training, technical assistance, and policy 
        development for State prosecutors, by the National Association 
        of Attorneys General or any other similarly situated entity.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $3,000,000 for fiscal year 2008; and
            (2) $4,000,000 for each of the fiscal years 2009 through 
        2014.

SEC. 206. INCREASED SUPPORT FOR FEDERAL CASES INVOLVING ELDER JUSTICE.

    (a) Support and Assistance.--
            (1) In general.--The Attorney General shall establish 
        procedures to ensure that the Department of Justice dedicates 
        resources to investigating and prosecuting cases relating to 
        elder justice.
            (2) Additional staff.--The Attorney General shall hire 
        additional Federal prosecutors and make funding available to 
        Federal prosecutors to hire nurse-investigators or other 
        experts needed to identify, assist with, or pursue cases 
        relating to elder justice.
            (3) Resource group.--The Attorney General may fund, through 
        the Executive Office of United States Attorneys, a Resource 
        Group to assist prosecutors throughout the Nation in 
        investigating and prosecuting failure of care and other cases 
        relating to elder justice matters.
    (b) Office of Inspector General.--The Office of Inspector General 
of the Department of Health and Human Services shall hire nurse-
investigators and other experts to investigate and pursue failure of 
care allegations.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $3,000,000 for fiscal year 2008; and
            (2) $4,000,000 for each of the fiscal years 2009 through 
        2014.

SEC. 207. SUPPORTING LAW ENFORCEMENT IN ELDER JUSTICE MATTERS.

    (a) In General.--The Attorney General shall, after consultation 
with the Secretary of Health and Human Services, award grants to 
provide training, technical assistance, multidisciplinary coordination, 
policy development, and other types of support to police, sheriffs, 
detectives, public safety officers, corrections personnel, and other 
front line law enforcement responders who handle elder justice-related 
matters, to fund specially designated elder justice positions or units 
designed to support front line law enforcement in elder justice 
matters.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $6,000,000 for fiscal year 2008; and
            (2) $8,000,000 for each of the fiscal years 2009 through 
        2014.

SEC. 208. EVALUATIONS.

    (a) Grants Under This Title.--
            (1) In general.--In carrying out the grant programs under 
        this title, the Attorney General shall--
                    (A) require each recipient of a grant to use a 
                portion of the funds made available through the grant 
                to conduct a validated evaluation of the effectiveness 
                of the activities carried out through the grant by such 
                recipient; or
                    (B) as the Attorney General considers appropriate, 
                use a portion of the funds available under this title 
                for a grant program under this title to provide 
                assistance to an eligible entity to conduct a validated 
                evaluation of the effectiveness of the activities 
                carried out through such grant program by each of the 
                grant recipients.
            (2) Applications.--
                    (A) Submission.--To be eligible to receive a grant 
                under this title, an entity shall submit an application 
                to the Attorney General at such time, in such manner, 
                and containing such information as the Attorney General 
                may require, which shall include--
                            (i) a proposal for the evaluation required 
                        in accordance with paragraph (1)(A); and
                            (ii) the amount of assistance under 
                        paragraph (1)(B) the entity is requesting, if 
                        any.
                    (B) Review and assistance.--
                            (i) In general.--An employee of the 
                        Department of Justice, after consultation with 
                        an employee of the Department of Health and 
                        Human Services and a nongovernmental member of 
                        the Advisory Board of Elder Abuse, Neglect, and 
                        Exploitation (established under Title XX of the 
                        Social Security Act (42 U.S.C. 1397 et seq.), 
                        as amended by this Act) with expertise in 
                        evaluation methodology, shall review each 
                        application described in subparagraph (A) and 
                        determine whether the methodology described in 
                        the proposal under subparagraph (A)(i) is 
                        adequate to gather meaningful information.
                            (ii) Denial.--If the reviewing employee 
                        determines the methodology described in such 
                        proposal is inadequate, the reviewing employee 
                        shall recommend that the Attorney General deny 
                        the application for the grant, or make 
                        recommendations for how the application should 
                        be amended.
                            (iii) Notice to applicant.--If the Attorney 
                        General denies the application on the basis of 
                        such proposal, the Attorney General shall 
                        inform the applicant of the reasons the 
                        application was denied, and offer assistance to 
                        the applicant in modifying the proposal.
    (b) Other Grants.--The Attorney General shall make grants to 
appropriate entities to conduct validated evaluations of grant 
activities to reduce elder abuse, neglect, and exploitation that are 
funded by Federal funds not provided under this title.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $7,000,000 for each of the 
fiscal years 2008 through 2014.

                       TITLE III--TAX PROVISIONS

SEC. 301. LONG-TERM CARE FACILITY WORKER EMPLOYMENT TAX CREDIT.

    (a) Work Opportunity Tax Credit.--
            (1) In general.--Section 51(d)(1) of the Internal Revenue 
        Code of 1986 (relating to members of targeted groups) is 
        amended by striking ``or'' at the end of subparagraph (H), by 
        striking the period at the end of subparagraph (I) and 
        inserting ``or'', and by adding at the end the following:
                    ``(J) a qualified long-term care facility 
                worker.''.
            (2) Qualified long-term care facility worker.--Section 
        51(d) of such Code is amended by redesignating paragraphs (11) 
        through (13) as paragraphs (12) through (15), respectively, and 
        by inserting after paragraph (10) the following:
            ``(11) Qualified long-term care facility worker.--The term 
        `qualified long-term care facility worker' means any individual 
        who--
                    ``(A) is hired by a long-term care facility (as 
                defined in paragraph (18) of section 2201 of the Social 
                Security Act); and
                    ``(B) is certified by the designated local agency 
                as being qualified to provide long-term care (as 
                defined in paragraph (17) of such section 2201).''.
    (b) Effective Date.--The amendments made by subsection (a) shall 
apply to individuals who begin work for an employer after the date of 
the enactment of this Act.
                                 <all>



    Mr. Scott. Each year in the United States, between 500,000 
to 5 million elders are abused, neglected or exploited. And 
experts agree that most cases are never reported. Data 
collected on the problem is minimal, and there has been no 
comprehensive national approach to solving many of the 
problems.
    These problems likely will increase in the next 30 years, 
as 76 million baby boomers approach retirement. Yet despite the 
disturbing trend, funding to combat elder abuse is minimal and 
diminishing. The Elder Justice Coalition reports that of all 
the Federal funds spent on abuse prevention, less than 2 
percent is spent on elder abuse.
    Funding of the State Adult Protective Services varies from 
state to state and from year to year and is inadequate to 
address the problem of elder abuse. The Social Services Block 
Grant from which states can choose to fund Adult Protective 
Services has suffered more than $1 billion in funding cuts over 
the last few years.
    Investigating elder abuse is not easy, and some of the 
solutions must be in the nature of legislation. In 1986, when I 
was a member of the Virginia State Senate, the state of 
Virginia passed a bill that addressed the problem of denial of 
access to elderly people who were suspected victims of abuse.
    The Virginia state law required a protective services 
employee to visit any person who was reported to be a victim of 
abuse. Adult Protective Service employees would attempt to 
visit the person, only to be denied entry to the home and 
access to the suspected victim often by the very abuser.
    The bill established a process in allowing the Adult 
Protective Service worker to petition a circuit court for an 
order allowing access, entry or both, based on the standard of 
good cause, which is significantly lower than the traditional 
probable cause standard.
    Today, we seek to do our part in addressing the serious 
problem of elder abuse. The Elder Justice Act provides a 
comprehensive, multi-disciplinary approach to preventing and 
combating elder abuse, neglect and exploitation, while enabling 
states and communities to run programs that best serve their 
needs.
    It establishes a national Elder Justice Coordinating 
Council, an advisory board on elder abuse, neglect and 
exploitation. It starts the critically needed process of 
researching state practices and collecting national data on the 
problem.
    The act authorizes grant monies in all areas of elder 
abuse, beginning with the prevention of abuse. It provides 
critically needed money to state and local Adult Protective 
Services and helps long-term care facilities to recruit, train 
and retain competent employees. It provides grants to assist in 
investigation and prosecution of elder abuse.
    H.R. 5352, sponsored by the gentleman from Pennsylvania, 
Mr. Sestak, shares the goals of H.R. 1783, but focuses on the 
enforcement mechanisms to prosecute abuse and attain justice 
for victims. It requires the attorney general to study and 
report to Congress on state laws and practices relating to 
elder abuse, neglect and exploitation.
    [The text of the bill, H.R. 5352, follows:]

<bullet>HR 5352 IH  ___________________________________________________

                                                                      I
110th CONGRESS
    2d Session

                                H. R. 5352

To protect seniors in the United States from elder abuse by 
    establishing specialized elder abuse prosecution and research 
    programs and activities to aid victims of elder abuse, to provide 
    training to prosecutors and other law enforcement related to elder 
    abuse prevention and protection, and for other purposes.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                           February 12, 2008
Mr. Sestak introduced the following bill; which was referred to the 
    Committee on the Judiciary, and in addition to the Committee on 
    Ways and Means, for a period to be subsequently determined by the 
    Speaker, in each case for consideration of such provisions as fall 
    within the jurisdiction of the committee concerned
                               __________

                                 A BILL

To protect seniors in the United States from elder abuse by 
    establishing specialized elder abuse prosecution and research 
    programs and activities to aid victims of elder abuse, to provide 
    training to prosecutors and other law enforcement related to elder 
    abuse prevention and protection, and for other purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``Elder Abuse Victims Act of 2008''.

SEC. 2. MODEL STATE LAWS AND PRACTICES.

    (a) In General.--Subject to the availability of appropriations to 
carry out this section, the Attorney General, after consultation with 
the Secretary of Health and Human Services, shall carry out the 
following duties:
            (1) Study.--Conduct a study of State laws and practices 
        relating to elder abuse, neglect, and exploitation.
            (2) Report to elder justice coordinating council and the 
        advisory board of elder abuse, neglect, and exploitation.--
        Prepare and submit a report or periodic reports containing the 
        findings of the study conducted under paragraph (1) to the 
        Elder Justice Coordinating Council and the Advisory Board of 
        Elder Abuse, Neglect, and Exploitation (established under title 
        XX of the Social Security Act (42 U.S.C. 1397 et seq.), as 
        amended by this Act). Such report or reports shall be made 
        available to the public.
            (3) Report to congress.--Not later than 2 years after the 
        date of enactment of this Act, submit to the chairman and 
        ranking member of the Special Committee on Aging of the Senate, 
        and the Speaker and minority leader of the House of 
        Representatives, a report that contains--
                    (A) a comprehensive description of State laws and 
                practices relating to elder abuse, neglect, and 
                exploitation;
                    (B) a comprehensive analysis of the effectiveness 
                of such State laws and practices; and
                    (C) recommendations--
                            (i) for model State laws and practices 
                        relating to elder abuse, neglect, and 
                        exploitation; and
                            (ii) with respect to the definitions 
                        referred to in subsection (b)(1).
    (b) State Laws and Practices.--In conducting the study under 
subsection (a)(1), the Attorney General shall examine State laws and 
practices on issues including--
            (1) the definition of--
                    (A) ``elder'';
                    (B) ``abuse'';
                    (C) ``neglect'';
                    (D) ``exploitation''; and
                    (E) any related terms the Attorney General 
                determines to be appropriate;
            (2) mandatory reporting laws with respect to elder abuse, 
        neglect, and exploitation, including--
                    (A) who is a mandated reporter;
                    (B) to whom must a mandated reporter report, and 
                within what time frame; and
                    (C) any consequences for not reporting;
            (3) evidentiary, procedural, sentencing, choice of 
        remedies, and data retention issues relating to pursuing cases 
        relating to elder abuse, neglect, and exploitation;
            (4) laws requiring immediate reporting of all nursing home 
        deaths to the county coroner or to one or more other 
        individuals or entities;
            (5) fiduciary laws, including guardianship and power of 
        attorney laws;
            (6) laws that permit or encourage banks and bank employees 
        to prevent and report suspected elder abuse, neglect, and 
        exploitation;
            (7) laws that may impede research on elder abuse, neglect, 
        and exploitation;
            (8) practices relating to the enforcement of laws relating 
        to elder abuse, neglect, and exploitation; and
            (9) practices relating to other aspects of elder justice.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $1,000,000 for fiscal year 2009; and
            (2) $2,000,000 for each of the fiscal years 2010 through 
        2015.

SEC. 3. ELDER JUSTICE PLAN AND STRATEGY.

    (a) Duties of the Attorney General.--Subject to the availability of 
appropriations under this section, the Attorney General shall--
            (1) develop objectives, priorities, policies, and a long-
        term plan for elder justice programs and activities relating to 
        prevention, detection, training, treatment, evaluation, 
        intervention, research, and improvement of the elder justice 
        system in the United States;
            (2) implement the overall policies and a strategy to carry 
        out the plan described in paragraph (1);
            (3) hire personnel to assist in carrying out the policies, 
        programs, and administrative activities related to the duties 
        under paragraphs (1) and (2); and
            (4) coordinate activities with the Elder Justice 
        Coordinating Council and the Advisory Board of Elder Abuse, 
        Neglect, and Exploitation (established under title XX of the 
        Social Security Act (42 U.S.C. 1397 et seq.), as amended by 
        this Act).
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $3,000,000 for each of the 
fiscal years 2009 through 2015.

SEC. 4. VICTIM ADVOCACY GRANTS.

    (a) Grants Authorized.--The Attorney General, after consultation 
with the Secretary of Health and Human Services, may award grants to 
eligible entities to study the special needs of victims of elder abuse, 
neglect, and exploitation.
    (b) Authorized Activities.--Funds awarded pursuant to subsection 
(a) shall be used for pilot programs that--
            (1) develop programs, provide training to health care, 
        social, and protective services providers, law enforcement, 
        fiduciaries (including guardians), judges and court personnel, 
        and victim advocates; and
            (2) examine special approaches designed to meet the needs 
        of victims of elder abuse, neglect, and exploitation.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $2,500,000 for fiscal year 2009; and
            (2) $3,000,000 for each of the fiscal years 2010 through 
        2015.

SEC. 5. SUPPORTING LOCAL PROSECUTORS IN ELDER JUSTICE MATTERS.

    (a) Grants Authorized.--Subject to the availability of 
appropriations under this section, the Attorney General, after 
consultation with the Secretary of Health and Human Services, shall 
award grants to provide training, technical assistance, policy 
development, multidisciplinary coordination, and other types of support 
to local prosecutors handling elder justice-related cases, including--
            (1) funding specially designated elder justice positions or 
        units; or
            (2) funding the creation of a Center for the Prosecution of 
        Elder Abuse, Neglect, and Exploitation by the American 
        Prosecutor Research Institute of the National District 
        Attorneys Association, or any other similarly situated entity, 
        to advise and support local prosecutors nationwide in their 
        pursuit of cases involving elder abuse, neglect, and 
        exploitation.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $3,000,000 for fiscal year 2009; and
            (2) $4,000,000 for each of the fiscal years 2010 through 
        2015.

SEC. 6. SUPPORTING STATE PROSECUTORS IN ELDER JUSTICE MATTERS.

    (a) In General.--Subject to the availability of appropriations 
under this section, the Attorney General, after consultation with the 
Secretary of Health and Human Services, shall award grants to provide 
training, technical assistance, multidisciplinary coordination, policy 
development, and other types of support to State prosecutors, including 
employees of State Attorneys General and Medicaid Fraud Control Units 
handling elder justice-related matters.
    (b) Creating Specialized Positions.--Grants under this section may 
be made for--
            (1) the establishment of specially designated elder justice 
        positions or units; or
            (2) the creation of a position to coordinate elder justice-
        related cases, training, technical assistance, and policy 
        development for State prosecutors, by the National Association 
        of Attorneys General or any other similarly situated entity.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $3,000,000 for fiscal year 2009; and
            (2) $4,000,000 for each of the fiscal years 2010 through 
        2015.

SEC. 7. INCREASED SUPPORT FOR FEDERAL CASES INVOLVING ELDER JUSTICE.

    (a) Support and Assistance.--
            (1) In general.--The Attorney General shall establish 
        procedures to ensure that the Department of Justice dedicates 
        resources to investigating and prosecuting cases relating to 
        elder justice.
            (2) Additional staff.--Subject to the availability of 
        appropriations under this section, the Attorney General shall 
        hire additional Federal prosecutors and make funding available 
        to Federal prosecutors to hire nurse-investigators or other 
        experts needed to identify, assist with, or pursue cases 
        relating to elder justice.
            (3) Resource group.--The Attorney General may fund, through 
        the Executive Office of United States Attorneys, a resource 
        group to assist prosecutors throughout the Nation in 
        investigating and prosecuting cases relating to failure of care 
        and other elder justice matters.
    (b) Office of Inspector General.--Subject to the availability of 
appropriations under this section, the Office of Inspector General of 
the Department of Health and Human Services shall hire nurse-
investigators and other experts to investigate and pursue failure of 
care allegations.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $3,000,000 for fiscal year 2009; and
            (2) $4,000,000 for each of the fiscal years 2010 through 
        2015.

SEC. 8. SUPPORTING LAW ENFORCEMENT IN ELDER JUSTICE MATTERS.

    (a) In General.--Subject to the availability of appropriations 
under this section, the Attorney General, after consultation with the 
Secretary of Health and Human Services, shall award grants to provide 
training, technical assistance, multidisciplinary coordination, policy 
development, and other types of support to police, sheriffs, 
detectives, public safety officers, corrections personnel, and other 
first responders who handle elder justice-related matters, to fund 
specially designated elder justice positions or units designed to 
support first responders in elder justice matters.
    (b) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section--
            (1) $6,000,000 for fiscal year 2009; and
            (2) $8,000,000 for each of the fiscal years 2010 through 
        2015.

SEC. 9. EVALUATIONS.

    (a) Grants Under This Act.--
            (1) In general.--In carrying out the grant programs under 
        this Act, the Attorney General shall--
                    (A) require each recipient of a grant to use a 
                portion of the funds made available through the grant 
                to conduct a validated evaluation of the effectiveness 
                of the activities carried out through the grant by such 
                recipient; or
                    (B) as the Attorney General considers appropriate, 
                use a portion of the funds available under this Act for 
                a grant program under this Act to provide assistance to 
                an eligible entity to conduct a validated evaluation of 
                the effectiveness of the activities carried out through 
                such grant program by each of the grant recipients.
            (2) Applications.--
                    (A) Submission.--To be eligible to receive a grant 
                under this Act, an entity shall submit an application 
                to the Attorney General at such time, in such manner, 
                and containing such information as the Attorney General 
                may require, which shall include--
                            (i) a proposal for the evaluation required 
                        in accordance with paragraph (1)(A); and
                            (ii) the amount of assistance under 
                        paragraph (1)(B) the entity is requesting, if 
                        any.
                    (B) Review and assistance.--
                            (i) In general.--An employee of the 
                        Department of Justice, after consultation with 
                        an employee of the Department of Health and 
                        Human Services and a nongovernmental member of 
                        the Advisory Board of Elder Abuse, Neglect, and 
                        Exploitation (established under title XX of the 
                        Social Security Act (42 U.S.C. 1397 et seq.), 
                        as amended by this Act) with expertise in 
                        evaluation methodology, shall review each 
                        application described in subparagraph (A) and 
                        determine whether the methodology described in 
                        the proposal under subparagraph (A)(I) is 
                        adequate to gather meaningful information.
                            (ii) Denial.--If the reviewing employee 
                        determines the methodology described in such 
                        proposal is inadequate, the reviewing employee 
                        shall recommend that the Attorney General deny 
                        the application for the grant, or make 
                        recommendations for how the application should 
                        be amended.
                            (iii) Notice to applicant.--If the Attorney 
                        General denies the application on the basis of 
                        such proposal, the Attorney General shall 
                        inform the applicant of the reasons the 
                        application was denied, and offer assistance to 
                        the applicant in modifying the proposal.
    (b) Other Grants.--Subject to the availability of appropriations 
under this section, the Attorney General shall award grants to 
appropriate entities to conduct validated evaluations of grant 
activities that are funded by Federal funds not provided under this Act 
to reduce elder abuse, neglect, and exploitation.
    (c) Authorization of Appropriations.--There are authorized to be 
appropriated to carry out this section $7,000,000 for each of the 
fiscal years 2009 through 2015.

SEC. 10. ELDER JUSTICE.

    (a) Elder Justice.--
            (1) In general.--Title XX of the Social Security Act (42 
        U.S.C. 1397 et seq.) is amended--
                    (A) in the title heading, by inserting ``AND ELDER 
                JUSTICE'' after ``SOCIAL SERVICES'';
                    (B) by inserting before section 2001 the following:

        ``PART A--BLOCK GRANTS TO STATES FOR SOCIAL SERVICES'';

                and
                    (C) by adding at the end the following:

                        ``PART B--ELDER JUSTICE

``SEC. 2011. DEFINITIONS.

    ``In this part:
            ``(1) Abuse.--The term `abuse' means the knowing infliction 
        of physical or psychological harm or the knowing deprivation of 
        goods or services that are necessary to meet essential needs or 
        to avoid physical or psychological harm.
            ``(2) Caregiver.--The term `caregiver' means an individual 
        who has the responsibility for the care of an elder, either 
        voluntarily, by contract, by receipt of payment for care, or as 
        a result of the operation of law, and means a family member or 
        other individual who provides (on behalf of such individual or 
        of a public or private agency, organization, or institution) 
        compensated or uncompensated care to an elder who needs 
        supportive services in any setting.
            ``(3) Elder.--The term `elder' means an individual age 60 
        or older.
            ``(4) Elder justice.--The term `elder justice' means--
                    ``(A) from a societal perspective, efforts to--
                            ``(i) prevent, detect, treat, intervene in, 
                        and prosecute elder abuse, neglect, and 
                        exploitation; and
                            ``(ii) protect elders with diminished 
                        capacity while maximizing their autonomy; and
                    ``(B) from an individual perspective, the 
                recognition of an elder's rights, including the right 
                to be free of abuse, neglect, and exploitation.
            ``(5) Exploitation.--The term `exploitation' means the 
        fraudulent or otherwise illegal, unauthorized, or improper act 
        or process of an individual, including a caregiver or 
        fiduciary, that uses the resources of an elder for monetary or 
        personal benefit, profit, or gain, or that results in depriving 
        an elder of rightful access to, or use of, benefits, resources, 
        belongings, or assets.
            ``(6) Fiduciary.--The term `fiduciary'--
                    ``(A) means a person or entity with the legal 
                responsibility--
                            ``(i) to make decisions on behalf of and 
                        for the benefit of another person; and
                            ``(ii) to act in good faith and with 
                        fairness; and
                    ``(B) includes a trustee, a guardian, a 
                conservator, an executor, an agent under a financial 
                power of attorney or health care power of attorney, or 
                a representative payee.
            ``(7) Guardianship.--The term `guardianship' means--
                    ``(A) the process by which a State court determines 
                that an adult individual lacks capacity to make 
                decisions about self-care and property, and appoints 
                another individual or entity known as a guardian, as a 
                conservator, or by a similar term, as a surrogate 
                decisionmaker;
                    ``(B) the manner in which the court-appointed 
                surrogate decisionmaker carries out duties to the 
                individual and the court; or
                    ``(C) the manner in which the court exercises 
                oversight of the surrogate decisionmaker.
            ``(8) Long-term care.--
                    ``(A) In general.--The term `long-term care' means 
                supportive and health services specified by the 
                Secretary for individuals who need assistance because 
                the individuals have a loss of capacity for self-care 
                due to illness, disability, or vulnerability.
                    ``(B) Loss of capacity for self-care.--For purposes 
                of subparagraph (A), the term `loss of capacity for 
                self-care' means an inability to engage in 1 or more 
                activities of daily living, including eating, dressing, 
                bathing, and management of one's financial affairs.
            ``(9) Neglect.--The term `neglect' means--
                    ``(A) the failure of a caregiver or fiduciary to 
                provide the goods or services that are necessary to 
                maintain the health or safety of an elder; or
                    ``(B) self-neglect.
            ``(10) Self-neglect.--The term `self-neglect' means an 
        adult's inability, due to physical or mental impairment or 
        diminished capacity, to perform essential self-care tasks 
        including--
                    ``(A) obtaining essential food, clothing, shelter, 
                and medical care;
                    ``(B) obtaining goods and services necessary to 
                maintain physical health, mental health, or general 
                safety; or
                    ``(C) managing one's own financial affairs.

``SEC. 2012. GENERAL PROVISIONS.

    ``(a) Protection of Privacy.--In pursuing activities under this 
part, the Secretary shall ensure the protection of individual health 
privacy consistent with the regulations promulgated under section 
264(c) of the Health Insurance Portability and Accountability Act of 
1996 and applicable State and local privacy regulations.
    ``(b) Rule of Construction.--Nothing in this part shall be 
construed to interfere with or abridge an elder's right to practice his 
or her religion through reliance on prayer alone for healing when this 
choice--
            ``(1) is contemporaneously expressed, either orally or in 
        writing, with respect to a specific illness or injury which the 
        elder has at the time of the decision by an elder who is 
        competent at the time of the decision;
            ``(2) is previously set forth in a living will, health care 
        proxy, or other advance directive document that is validly 
        executed and applied under State law; or
            ``(3) may be unambiguously deduced from the elder's life 
        history.

``SEC. 2013. ELDER JUSTICE COORDINATING COUNCIL.

    ``(a) Establishment.--There is established within the Office of the 
Secretary an Elder Justice Coordinating Council (in this section 
referred to as the `Council').
    ``(b) Membership.--
            ``(1) In general.--The Council shall be composed of the 
        following members:
                    ``(A) The Secretary (or the Secretary's designee).
                    ``(B) The Attorney General (or the Attorney 
                General's designee).
                    ``(C) The head of each Federal department or agency 
                or other governmental entity identified by the Chair 
                referred to in subsection (d) as having 
                responsibilities, or administering programs, relating 
                to elder abuse, neglect, and exploitation.
            ``(2) Requirement.--Each member of the Council shall be an 
        officer or employee of the Federal Government.
    ``(c) Vacancies.--Any vacancy in the Council shall not affect its 
powers, but shall be filled in the same manner as the original 
appointment was made.
    ``(d) Chair.--The member described in subsection (b)(1)(A) shall be 
Chair of the Council.
    ``(e) Meetings.--The Council shall meet at least 2 times per year, 
as determined by the Chair.
    ``(f) Duties.--
            ``(1) In general.--The Council shall make recommendations 
        to the Secretary for the coordination of activities of the 
        Department of Health and Human Services, the Department of 
        Justice, and other relevant Federal, State, local, and private 
        agencies and entities, relating to elder abuse, neglect, and 
        exploitation and other crimes against elders.
            ``(2) Report.--Not later than the date that is 2 years 
        after the date of enactment of the Elder Abuse Victims Act of 
        2008 and every 2 years thereafter, the Council shall submit to 
        the Committee on Finance of the Senate and the Committee on 
        Ways and Means and the Committee on Energy and Commerce of the 
        House of Representatives a report that--
                    ``(A) describes the activities and accomplishments 
                of, and challenges faced by--
                            ``(i) the Council; and
                            ``(ii) the entities represented on the 
                        Council; and
                    ``(B) makes such recommendations for legislation, 
                model laws, or other action as the Council determines 
                to be appropriate.
    ``(g) Powers of the Council.--
            ``(1) Information from federal agencies.--Subject to the 
        requirements of section 2012(a), the Council may secure 
        directly from any Federal department or agency such information 
        as the Council considers necessary to carry out this section. 
        Upon request of the Chair of the Council, the head of such 
        department or agency shall furnish such information to the 
        Council.
            ``(2) Postal services.--The Council may use the United 
        States mails in the same manner and under the same conditions 
        as other departments and agencies of the Federal Government.
    ``(h) Travel Expenses.--The members of the Council shall not 
receive compensation for the performance of services for the Council. 
The members shall be allowed travel expenses, including per diem in 
lieu of subsistence, at rates authorized for employees of agencies 
under subchapter I of chapter 57 of title 5, United States Code, while 
away from their homes or regular places of business in the performance 
of services for the Council. Notwithstanding section 1342 of title 31, 
United States Code, the Secretary may accept the voluntary and 
uncompensated services of the members of the Council.
    ``(i) Detail of Government Employees.--Any Federal Government 
employee may be detailed to the Council without reimbursement, and such 
detail shall be without interruption or loss of civil service status or 
privilege.
    ``(j) Status as Permanent Council.--Section 14 of the Federal 
Advisory Committee Act (5 U.S.C. App.) shall not apply to the Council.

``SEC. 2014. ADVISORY BOARD ON ELDER ABUSE, NEGLECT, AND EXPLOITATION.

    ``(a) Establishment.--There is established a board to be known as 
the `Advisory Board on Elder Abuse, Neglect, and Exploitation' (in this 
section referred to as the `Advisory Board') to create short- and long-
term multidisciplinary strategic plans for the development of the field 
of elder justice and to make recommendations to the Elder Justice 
Coordinating Council established under section 2013.
    ``(b) Composition.--The Advisory Board shall be composed of 27 
members appointed by the Secretary from among members of the general 
public who are individuals with experience and expertise in elder 
abuse, neglect, and exploitation prevention, detection, treatment, 
intervention, or prosecution.
    ``(c) Solicitation of Nominations.--The Secretary shall publish a 
notice in the Federal Register soliciting nominations for the 
appointment of members of the Advisory Board under subsection (b).
    ``(d) Terms.--
            ``(1) In general.--Each member of the Advisory Board shall 
        be appointed for a term of 3 years, except that, of the members 
        first appointed--
                    ``(A) 9 shall be appointed for a term of 3 years;
                    ``(B) 9 shall be appointed for a term of 2 years; 
                and
                    ``(C) 9 shall be appointed for a term of 1 year.
            ``(2) Vacancies.--
                    ``(A) In general.--Any vacancy on the Advisory 
                Board shall not affect its powers, but shall be filled 
                in the same manner as the original appointment was 
                made.
                    ``(B) Filling unexpired term.--An individual chosen 
                to fill a vacancy shall be appointed for the unexpired 
                term of the member replaced.
            ``(3) Expiration of terms.--The term of any member shall 
        not expire before the date on which the member's successor 
        takes office.
    ``(e) Election of Officers.--The Advisory Board shall elect a Chair 
and Vice Chair from among its members. The Advisory Board shall elect 
its initial Chair and Vice Chair at its initial meeting.
    ``(f) Duties.--
            ``(1) Enhance communication on promoting quality of, and 
        preventing abuse and neglect in, long-term care.--The Advisory 
        Board shall develop collaborative and innovative approaches to 
        improve the quality of, including preventing abuse and neglect 
        in, long-term care.
            ``(2) Collaborative efforts to develop consensus around the 
        management of certain quality-related factors.--
                    ``(A) In general.--The Advisory Board shall 
                establish multidisciplinary panels to address, and 
                develop consensus on, subjects relating to improving 
                the quality of long-term care. At least 1 such panel 
                shall address, and develop consensus on, methods for 
                managing resident-to-resident abuse in long-term care.
                    ``(B) Activities conducted.--The multidisciplinary 
                panels established under subparagraph (A) shall examine 
                relevant research and data, identify best practices 
                with respect to the subject of the panel, determine the 
                best way to carry out those best practices in a 
                practical and feasible manner, and determine an 
                effective manner of distributing information on such 
                subject.
            ``(3) Report.--Not later than the date that is 18 months 
        after the date of enactment of the Elder Abuse Victims Act of 
        2008, and annually thereafter, the Advisory Board shall prepare 
        and submit to the Elder Justice Coordinating Council, the 
        Committee on Finance of the Senate, and the Committee on Ways 
        and Means and the Committee on Energy and Commerce of the House 
        of Representatives a report containing--
                    ``(A) information on the status of Federal, State, 
                and local public and private elder justice activities;
                    ``(B) recommendations (including recommended 
                priorities) regarding--
                            ``(i) elder justice programs, research, 
                        training, services, practice, enforcement, and 
                        coordination;
                            ``(ii) coordination between entities 
                        pursuing elder justice efforts and those 
                        involved in related areas that may inform or 
                        overlap with elder justice efforts, such as 
                        activities to combat violence against women and 
                        child abuse and neglect; and
                            ``(iii) activities relating to adult 
                        fiduciary systems, including guardianship and 
                        other fiduciary arrangements;
                    ``(C) recommendations for specific modifications 
                needed in Federal and State laws (including 
                regulations) or for programs, research, and training to 
                enhance prevention, detection, and treatment (including 
                diagnosis) of, intervention in (including investigation 
                of), and prosecution of elder abuse, neglect, and 
                exploitation;
                    ``(D) recommendations on methods for the most 
                effective coordinated national data collection with 
                respect to elder justice, and elder abuse, neglect, and 
                exploitation; and
                    ``(E) recommendations for a multidisciplinary 
                strategic plan to guide the effective and efficient 
                development of the field of elder justice.
    ``(g) Powers of the Advisory Board.--
            ``(1) Information from federal agencies.--Subject to the 
        requirements of section 2012(a), the Advisory Board may secure 
        directly from any Federal department or agency such information 
        as the Advisory Board considers necessary to carry out this 
        section. Upon request of the Chair of the Advisory Board, the 
        head of such department or agency shall furnish such 
        information to the Advisory Board.
            ``(2) Sharing of data and reports.--The Advisory Board may 
        request from any entity pursuing elder justice activities under 
        the Elder Abuse Victims Act of 2008 or an amendment made by 
        such Act, any data, reports, or recommendations generated in 
        connection with such activities.
            ``(3) Postal services.--The Advisory Board may use the 
        United States mails in the same manner and under the same 
        conditions as other departments and agencies of the Federal 
        Government.
    ``(h) Travel Expenses.--The members of the Advisory Board shall not 
receive compensation for the performance of services for the Advisory 
Board. The members shall be allowed travel expenses for up to 4 
meetings per year, including per diem in lieu of subsistence, at rates 
authorized for employees of agencies under subchapter I of chapter 57 
of title 5, United States Code, while away from their homes or regular 
places of business in the performance of services for the Advisory 
Board. Notwithstanding section 1342 of title 31, United States Code, 
the Secretary may accept the voluntary and uncompensated services of 
the members of the Advisory Board.
    ``(i) Detail of Government Employees.--Any Federal Government 
employee may be detailed to the Advisory Board without reimbursement, 
and such detail shall be without interruption or loss of civil service 
status or privilege.
    ``(j) Status as Permanent Advisory Committee.--Section 14 of the 
Federal Advisory Committee Act (5 U.S.C. App.) shall not apply to the 
advisory board.

``SEC. 2015. RESEARCH PROTECTIONS.

    ``(a) Guidelines.--The Secretary shall promulgate guidelines to 
assist researchers working in the area of elder abuse, neglect, and 
exploitation, with issues relating to human subject protections.
    ``(b) Definition of Legally Authorized Representative for 
Application of Regulations.--For purposes of the application of subpart 
A of part 46 of title 45, Code of Federal Regulations, to research 
conducted under this chapter the term `legally authorized 
representative' means, unless otherwise provided by law, the individual 
or judicial or other body authorized under the applicable law to 
consent to medical treatment on behalf of another person.

``SEC. 2016. AUTHORIZATION OF APPROPRIATIONS.

    ``There are authorized to be appropriated to carry out this 
chapter--
            ``(1) for fiscal year 2009, $6,500,000; and
            ``(2) for each of fiscal years 2010 through 2012, 
        $7,000,000.''.

SEC. 11. DEFINITIONS.

    In this Act:
            (1) Elder.--The term ``elder'' means an individual age 60 
        or older.
            (2) Elder justice.--The term ``elder justice'' means--
                    (A) from a societal perspective, efforts to--
                            (i) prevent, detect, treat, intervene in, 
                        and prosecute elder abuse, neglect, and 
                        exploitation; and
                            (ii) protect elders with diminished 
                        capacity while maximizing their autonomy; and
                    (B) from an individual perspective, the recognition 
                of an elder's rights, including the right to be free of 
                abuse, neglect, and exploitation.
                                 <all>



    Mr. Scott. The act authorizes grants to support local and 
state law enforcement and prosecutors in elder justice matters 
and establishes procedures to ensure that the Department of 
Justice dedicates resources to investigating and prosecuting 
elder justice cases.
    H.R. 2352, the School Safety Enhancements Act of 2007, is a 
vital bill aimed at ensuring the safety of students at our 
nation's educational institutions.
    Incidents of violence in our schools continued. Over the 
last decade, we have seen horrific school shootings and 
violence in--well, I have a list of states. The states where 
they did not have violence is shorter than the list where they 
did have violence: 27 states have reported school shootings.
    Ensuring the safety of our students and teachers at all 
levels of education must be paramount. H.R. 2352, sponsored by 
the gentleman from New Jersey, Mr. Rothman, seeks to enhance 
school safety by increasing the amount of money available and 
making money more accessible to poor communities.
    The bill raises the authorization level of Federal grants 
from $30 million to $50 million for fiscal year 2008-2009. It 
also amends the eligibility requirements so that schools in the 
most need have a better opportunity to receive funding.
    Presently, grant recipients must match Federal grant 
dollars dollar for dollar with non-Federal funds in order to 
qualify for Federal funding. This ironic requirement has 
undermined the objective of the program, because the poorer 
states, who have the most need, receive the least benefit 
because they can least afford to provide the matching grants.
    H.R. 2352 corrects the problem by changing the mandatory 
matching non-Federal funds percentage from 50 percent to 20 
percent.
    H.R. 2352 also amends the Higher Education Act and requires 
participating institutions to conduct annual campus assessments 
and develop and implement a campus emergency response plan.
    [The text of the bill, H.R. 2352, follows:]

<bullet>HR 2352 IH  ___________________________________________________

                                                                      I
110th CONGRESS
    1st Session

                                H. R. 2352

To enhance the safety of elementary schools, secondary schools, and 
    institutions of higher education.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                              May 16, 2007
Mr. Rothman (for himself, Mr. Pascrell, Mr. Davis of Illinois, Mr. Neal 
    of Massachusetts, Mr. Delahunt, Ms. Berkley, Mr. Payne, Mr. Meeks 
    of New York, Mr. Frank of Massachusetts, Ms. Corrine Brown of 
    Florida, Ms. Clarke, Mr. Towns, Mr. Weiner, Ms. Waters, Ms. 
    DeGette, Mr. Andrews, Mr. Ackerman, Mr. Wu, Ms. Baldwin, Mr. 
    Yarmuth, Mr. Hall of New York, Mr. Higgins, Mr. Hinchey, Mr. Watt, 
    Mr. Wynn, Mr. Bishop of Georgia, Ms. Kilpatrick, Ms. Lee, Mr. 
    Emanuel, Mr. Holt, Ms. Jackson-Lee of Texas, Mr. Hare, Mr. Sires, 
    Mr. Kind, Mr. Scott of Georgia, Mr. Gene Green of Texas, Mr. 
    Patrick J. Murphy of Pennsylvania, Ms. Matsui, Mr. Kucinich, Ms. 
    Sutton, and Mr. Scott of Virginia) introduced the following bill; 
    which was referred to the Committee on the Judiciary, and in 
    addition to the Committee on Education and Labor, for a period to 
    be subsequently determined by the Speaker, in each case for 
    consideration of such provisions as fall within the jurisdiction of 
    the committee concerned
                               __________

                                 A BILL

To enhance the safety of elementary schools, secondary schools, and 
    institutions of higher education.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``School Safety Enhancements Act of 
2007''.

    TITLE I--ELEMENTARY AND SECONDARY EDUCATION SAFETY ENHANCEMENTS

SEC. 101. GRANT PROGRAM FOR SCHOOL SECURITY.

    Section 2701 of the Omnibus Crime Control and Safe Streets Act of 
1968 (42 U.S.C. 3797a) is amended--
            (1) in subsection (b)--
                    (A) in paragraph (1), by inserting ``surveillance 
                equipment,'' after ``detectors,'';
                    (B) by striking paragraph (2) and inserting the 
                following:
            ``(2) Establishment of hotlines or tiplines for the 
        reporting of potentially dangerous students and situations.'';
                    (C) by redesignating paragraph (5) as paragraph 
                (6); and
                    (D) by inserting after paragraph (4) the following:
            ``(5) Capital improvements to make school facilities more 
        secure.'';
            (2) by striking subsection (d)(1) and inserting the 
        following:
            ``(1) The Federal share of the costs of a program provided 
        by a grant under subsection (a) shall be 80 percent of the 
        total of such costs. The non-Federal share of such costs shall 
        be 20 percent of such costs.''; and
            (3) by adding at the end the following:
    ``(g) Interagency Task Force.--Not later than 60 days after the 
date of enactment of the School Safety Enhancements Act of 2007, the 
Director and the Secretary of Education, or the designee of the 
Secretary, shall establish an interagency task force to develop and 
promulgate a set of advisory school safety guidelines. The advisory 
school safety guidelines shall be published in the Federal Register by 
not later than June 1, 2008.''.

SEC. 102. APPLICATIONS.

    Section 2702(a)(2) of the Omnibus Crime Control and Safe Streets 
Act of 1968 (42 U.S.C. 3797b(a)(2)) is amended to read as follows:
            ``(2) be accompanied by a report, signed by the chief 
        education officer and the attorney general or other chief legal 
        officer of the State, unit of local government, or Indian 
        tribe, demonstrating that each proposed use of the grant funds 
        will be--
                    ``(A) an effective means for improving the safety 
                of one or more schools;
                    ``(B) consistent with a comprehensive approach to 
                preventing school violence; and
                    ``(C) individualized to the needs of each school at 
                which those improvements are to be made.''.

SEC. 103. AUTHORIZATION OF APPROPRIATIONS.

    Section 2705 of the Omnibus Crime Control and Safe Streets Act of 
1968 (42 U.S.C. 3797e) is amended by striking ``$30,000,000 for each of 
fiscal years 2001 through 2009'' and inserting ``$50,000,000 for each 
of the fiscal years 2008 and 2009''.

            TITLE II--HIGHER EDUCATION SECURITY ENHANCEMENT

SEC. 201. REQUIREMENT FOR CAMPUS SAFETY ASSESSMENTS.

    Section 485 of the Higher Education Act of 1965 (20 U.S.C. 1092) is 
amended by adding at the end the following:
    ``(h) Campus Safety Assessment.--Each eligible institution 
participating in any program under this title shall conduct an annual 
campus safety assessment that shall be prepared through consultation 
between the institution's staff, including safety and security 
personnel, and local law enforcement officials.''.

SEC. 202. REQUIREMENT FOR CAMPUS EMERGENCY RESPONSE PLANS.

    Section 485 of the Higher Education Act of 1965, as amended in 
section 201 (20 U.S.C. 1092), is further amended by adding at the end 
the following:
    ``(i) Campus Emergency Response Plan.--Each eligible institution 
participating in any program under this title shall develop and 
implement a campus emergency response plan to address a comprehensive 
set of emergency situations, including the following:
            ``(1) Natural disasters.
            ``(2) Active shooter situations.
            ``(3) Terrorist attacks.''.
                                 <all>



    Mr. Scott. H.R. 5464, the ``A Child Is Missing Alert and 
Recovery Center Act,'' authorizes grants to the Child Is 
Missing Center. A child goes missing every 40 seconds in the 
United States. A successful recovery of that child often 
requires a quick police and community response, which the 
center has facilitated since 1997.
    [The text of the bill, H.R. 5464, follows:]

<bullet>HR 5464 IH  ___________________________________________________

                                                                      I
110th CONGRESS
    2d Session

                                H. R. 5464

To direct the Attorney General to make an annual grant to the A Child 
    Is Missing Alert and Recovery Center to assist law enforcement 
    agencies in the rapid recovery of missing children, and for other 
    purposes.
                               __________
                    IN THE HOUSE OF REPRESENTATIVES
                           February 14, 2008
Mr. Klein of Florida (for himself, Mr. Sensenbrenner, Mr. Nadler, Mr. 
    Chabot, Mr. Wexler, Mr. Cohen, Mr. Johnson of Georgia, Ms. Sutton, 
    Ms. Wasserman Schultz, Ms. Granger, Mr. Chandler, Mr. Burton of 
    Indiana, Mr. Hastings of Florida, Mr. Mahoney of Florida, Mr. 
    Ruppersberger, Mr. Meek of Florida, and Mr. Scott of Virginia) 
    introduced the following bill; which was referred to the Committee 
    on the Judiciary
                               __________

                                 A BILL

To direct the Attorney General to make an annual grant to the A Child 
    Is Missing Alert and Recovery Center to assist law enforcement 
    agencies in the rapid recovery of missing children, and for other 
    purposes.

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled,

SECTION 1. SHORT TITLE.

    This Act may be cited as the ``A Child Is Missing Alert and 
Recovery Center Act''.

SEC. 2. DIRECTING THE ATTORNEY GENERAL TO MAKE ANNUAL GRANTS TO A CHILD 
                    IS MISSING ALERT AND RECOVERY CENTER TO ASSIST LAW 
                    ENFORCEMENT AGENCIES IN RECOVERING MISSING 
                    CHILDREN.

    (a) In General.--The Attorney General, acting through the 
Administrator of the Office of Juvenile Justice and Delinquency 
Prevention, shall annually make a grant to the A Child Is Missing Alert 
and Recovery Center.
    (b) Specified Use of Funds for Recovery Activities, Regional 
Centers, Education, and Information Sharing.--A Child Is Missing Alert 
and Recovery Center shall use the funds made available under this Act--
            (1) to operate and expand the A Child Is Missing Alert and 
        Recovery Center to provide services to Federal, State, and 
        local law enforcement agencies to promote the quick recovery of 
        a missing child in response to a request from such agencies for 
        assistance by utilizing rapid alert telephone calls, text 
        messaging, and satellite mapping technology;
            (2) to maintain and expand technologies and techniques to 
        ensure the highest level of performance of such services;
            (3) to establish and maintain regional centers to provide 
        both centralized and on-site training and to distribute 
        information to Federal, State, and local law enforcement agency 
        officials about how to best utilize the services provided by 
        the A Child Is Missing Alert and Recovery Center;
            (4) to share appropriate information with the National 
        Center for Missing and Exploited Children, the AMBER Alert 
        Coordinator, and appropriate Federal, State, and local law 
        enforcement agencies; and
            (5) to assist the National Center for Missing and Exploited 
        Children, the AMBER Alert Coordinator, and appropriate Federal, 
        State, and local law enforcement agencies with education 
        programs.

SEC. 3. DEFINITION OF MISSING CHILD.

    For purposes of this Act, the term ``missing child'' means an 
individual whose whereabouts are unknown to a Federal, State, or local 
law enforcement agency.

SEC. 4. AUTHORIZATION OF APPROPRIATIONS.

    For grants under section 2, there are authorized to be appropriated 
to the Attorney General $5,000,000 for each fiscal year from fiscal 
year 2009 through fiscal year 2014.
                                 <all>



    Mr. Scott. Recognizing a need, Sherry Friedlander, who is 
with us today, founded A Child Is Missing program. That program 
is a national nonprofit organization that offers free 
assistance to law enforcement 365 days a year, 24 hours a day.
    The program is not limited to children, but extends to all 
at-risk members of our society, including the elderly, mentally 
challenged, and the disabled. When law enforcement receives the 
call that a person has gone missing, the responding officer can 
immediately call ACIM.
    The organization prepares a recording that includes the 
description of the person and the last known location. Using a 
comprehensive telephone database and computer satellite 
technology, this recording is sent by phone to thousands of 
locations within the radius of the person's last sighting.
    Sponsored by the gentleman from Florida, Mr. Klein, H.R. 
5464 authorizes $5 million in annual grants for 2009 to 2014 to 
expand A Child Is Missing Alert and Recovery Center to assist 
more law enforcement agencies in the rapid recovery of missing 
children and other at-risk individuals.
    I believe all of these measures before us today will make 
significant improvements to public safety, particularly to 
children and vulnerable adults.
    It is now my pleasure to recognize the Ranking Member of 
the Subcommittee, the gentleman from Texas, Judge Gohmert.
    Mr. Gohmert. Thank you, Chairman Scott.
    And thank you to the witnesses. I know your time is 
extremely valuable. It is great to have such well-respected 
colleagues here going to testify and educate us.
    You all know how it goes, though. I need to get some things 
into the record.
    A child goes missing every 40 seconds in the U.S., over 
2,100 per day. We have been told that at least 800,000 children 
are reported missing each year and another 500,000 go missing 
without ever being reported.
    Annually, figures we have been given indicate approximately 
58,000 children in the U.S. are kidnapped by someone they do 
not know or by slight acquaintance. The data also says that as 
many as 200,000 children are victims of family abductions each 
year.
    The Amber Alert system is activated when there is evidence 
that a missing child has been abducted and the police have 
sufficient evidence or information about the abductor or 
vehicle description to warrant use of the system. But if there 
is no evidence of an abduction or no information about the 
abductor, law enforcement cannot issue an Amber Alert.
    This is the reality in thousands of missing children cases, 
and this is where A Child Is Missing steps in. Launched in 
1997, A Child Is Missing assists police in the first crucial 
hours of searches for missing children, elderly and disabled.
    To date, more than 2.5 million calls have been made on 
cases at law enforcement request. A Child Is Missing's high-
tech system can launch 1,000 calls in 60 seconds. This 
technology is particularly useful to smaller, rural law 
enforcement agencies that simply do not have the manpower to 
launch a large-scale search for a missing child.
    The system's ability to notify thousands of area residents 
within minutes that a child has gone missing in their area is 
crucial when every minute counts. For instance, in my home 
State of Texas, A Child Is Missing alert produced a tip to the 
Everman Police Department that led to the recovery of an 11-
year-old girl. She had been abducted by her father, who it was 
believed was headed across the border to Mexico with his 
daughter.
    Twenty-two hundred law enforcement agencies across the 
country use this alert system. H.R. 5464, the A Child Is 
Missing Alert and Recovery Center Act, authorizes $5 million 
for fiscal years 2009 through 2014 for grants to increase the 
use of this alert system.
    This is a valuable system and an important tool for law 
enforcement that Congress should support.
    Yesterday, teachers and students at Virginia Tech gathered 
to mark the 1-year anniversary of a campus shooting that killed 
27 students and five faculty. We now know that Cho Seung-Hui 
was a mentally disturbed young man who was able to purchase two 
handguns, which he brought onto campus and began a shooting 
spree that spanned several hours and spread through both dorms 
and classrooms across the campus.
    Sadly, in February of this year, a gunman stormed a 
classroom in Northern Illinois University, opened fire, killing 
five students and wounding 16 others in a matter of seconds 
before killing himself.
    School and college campuses should be safe environments for 
students to learn. And to date, campus security requires much 
more than ever before, including campus police, emergency alert 
systems, and emergency response plans.
    H.R. 2352, the School Safety Enhancements Act of 2007, 
provides grants for the placement and use of surveillance 
equipment in schools and hotlines for tips for reporting 
dangerous students or situations.
    The bill increases the Secure Our Schools program 
authorization from $30 million a year to $50 million a year and 
requires each college or university to conduct an annual campus 
safety assessment, in consultation with law enforcement 
officials, and develop and implement a campus emergency 
response plan.
    We all hope that improvements to campus security will 
prevent any further and future tragedies like Virginia Tech or 
Northern Illinois.
    Now, on the issue of elder abuse, every year an estimated 
2.1 million older Americans are the victims of physical, 
psychological and other forms of abuse and neglect.
    And for every case of elder abuse and neglect reported to 
authorities, experts estimate that as many as five cases are 
not reported. I saw a significant problem with this during my 
days as a judge.
    Ninety percent of elder abuse and neglect incidents are by 
known perpetrators, usually family members, and 42 percent of 
murder victims over 60 were killed by their own offspring. 
Spouses were the perpetrators in 24 percent of family murders 
of persons over 60.
    H.R. 1783 and H.R. 5352 address the growing problem of 
elder abuse. Both bills provide grants to State and local 
prosecutors and law enforcement for elder abuse cases.
    Both bills also direct the attorney general to study and 
report the Elder Justice Coordinating Council, the advisory 
board of elder abuse, neglect and exploitation, and Congress on 
State laws and practices relating to elder abuse, neglect and 
exploitation, and development and implement a long-term plan 
for elder justice programs and related activities.
    While I appreciate the desire to establish a national plan 
for an issue that reaches into every State in America, I do 
have concerns that imposing these requirements on the 
Department of Justice may not be the most effective approach.
    We have heard the phrase ``crime is local,'' and it is. I 
expect the majority of elder abuse cases are investigated by 
local police, prosecuted by local and State prosecutors. That 
is certainly what I saw in my court.
    It occurs to me that these individuals are the real experts 
on the types of evidence or tools needed to try these cases. 
The bills require the department to develop objectives, 
priorities, policies, and a long-term plan for elder justice 
programs and activities relating to prevention, detection, 
training, treatment, evaluation, intervention, research and 
improvement of the elder justice system in the U.S.
    I will be interested to hear from our witnesses what 
expertise they believe the DOJ possesses that surpasses, for 
instance, the White House Conference on Aging or the National 
Committee for the Prevention of Elder Abuse, but particularly 
the State or local law enforcement entities that have been 
dealing with this issue for so long.
    I look forward to hearing from our witnesses today and 
yield back the balance of my time.
    Mr. Scott. Thank you.
    We have the Chairman of the full Committee with us today, 
Mr. Conyers.
    Mr. Conyers. Mr. Chairman, I ask unanimous consent to have 
my statement put in the record, because time is so short.
    And look at the significance of the witnesses on the panel 
before us. I mean, Rahm Emanuel normally deals in international 
issues, certainly national, and has been a close adviser of 
mine.
    And we have one little thing to work out with Judge Gohmert 
and you and him. The judge will be bringing this to your 
attention later.
    And then to have an Admiral before us and a distinguished 
lawyer, former Member of the Committee, Steve Rothman--you 
know, Ron Klein, you are the luckiest guy to be on a panel like 
this. What did you do to get on a panel like this? I mean, wow, 
just got here. Short straw. So we welcome them all. Thank you 
very much.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Scott. Thank you.
    Gentleman from North Carolina?
    Mr. Coble. Thank you, Mr. Chairman, for conducting the 
hearing.
    And no opening statement. Good to have our colleagues here, 
especially the distinguished gentleman from New Jersey who has 
come back home to where he belongs. Good to have you all with 
us.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    The gentleman from Georgia?
    Mr. Johnson. Thank you, Mr. Chairman. I commend you for 
having this hearing today, the first time in, what, 16 years 
there has been a hearing on elder abuse.
    For my colleagues that sit before us, I am in awe. Thank 
you very much for being here.
    Mr. Scott. Thank you.
    And the gentlelady from Wisconsin?
    Ms. Baldwin. Thank you, Mr. Chairman.
    I will submit my longer opening statement for the record, 
but I did want to commend you and Ranking Member Gohmert for 
this really important hearing. The range of issues that you 
have described in you respective opening statements are truly 
important.
    I am interested in all of them, but particularly pleased, 
as Mr. Johnson just said, that for the first time in, I think, 
16 years there has been--this is a hearing that is going to 
focus on elder abuse and exploitation of senior citizens.
    And, certainly, as we are in a period of time when the baby 
boom generation is beginning to retire, we know that the number 
of Americans over 60 is going to drastically increase over the 
next few decades and that these protections are particularly 
important.
    I just wanted to note what may be a little bit of a tangent 
to the major focus of the elder abuse and Elder Justice Act 
legislation. But as a person who was raised by my grandparents 
and had the opportunity late in my grandmother's life to be her 
primary caregiver, that experience sort of opened my eyes to an 
area that I hope that we can also have dialogue around, and 
that is exploitation of seniors by mail fraud or telephone 
fraud and that sort of thing.
    I remember a time right around when my grandmother turned 
90 that she asked me to start taking over her mail and her 
checkbook and her accounting. And I realized how many sort of 
fly-by-night or fraudulent charities--sounded like the real 
thing, but not really the real thing--were writing her monthly.
    And wanting to make sure that seniors have the tools they 
need to see who is credible and who is not and fend for 
themselves became something that was very important to me. So I 
hope we can add that to the larger dialogue about protecting 
our senior citizens.
    And with that, Mr. Chairman, I yield back.
    [The prepared statement of Ms. Baldwin follows:]
Prepared Statement of the Honorable Tammy Baldwin, a Representative in 
   Congress from the State of Wisconsin, and Member, Subcommittee on 
                Crime, Terrorism, and Homeland Security
    Thank you Chairman Scott and Ranking Member Gohmert for holding 
this hearing on four important bills under our Subcommittee's 
jurisdiction. I also want to extend my thanks to the witnesses who have 
come to testify before us today. Thank you all for being here.
    After learning more about the work ``A Child Is Missing'' is doing 
in my state of Wisconsin, I must say that I am impressed. The 
organization has trained over 100 local law enforcement officers and 
since 2005, they have made almost 127,000 calls on behalf of missing 
children, elderly, and disabled Wisconsonites.
    At least a handful of those calls went out in my district when the 
Waterloo Police Department were alerted to an infant found alone on the 
street one evening last June. Coordinating with A Child Is Missing, 
almost 2,000 calls went out and Waterloo Police immediately fielded 
response calls from alert citizens who provided information to 
investigators. In less than two hours, as a result of information 
provided by citizens responding to these alert calls, police located 
the mother and reunited her with her baby. With successes like this, I 
look forward to learning more about the A Child Is Missing Alert and 
Recovery Center Act.
    I am also eager to hear more about H.R. 2352, the School Safety 
Enhancements Act of 2007. As a proud cosponsor of this legislation, I 
wholeheartedly support efforts to enhance safety in our schools--
particularly in light of the tragic string of hate-motivated violence 
across the country that has played out in our children's schools.
    Mr. Chairman, I am particularly pleased to see our Subcommittee 
take up two bills addressing elder abuse: the Elder Abuse Victims Act 
and the Elder Justice Act. I want add a sincere note of thanks for your 
leadership in holding the first House hearing on elder abuse in 16 
years.
    Particularly with the population of Americans over 60 set to 
drastically increase in the next few decades, the vitally important 
issue of elder abuse, neglect, and exploitation will only become more 
so. Despite the dearth of data on the prevalence of these crimes, we 
know that elder abuse, neglect, and exploitation cross all racial, 
class, gender, and geographic boundaries. As my colleague Mr. Emanuel 
describes in his written testimony, the push to keep elder abuse, 
neglect, and exploitation quiet and ``in the family'' is way too 
reminiscent of our struggles twenty years ago to shed light on domestic 
violence.
    My own experiences as the primary caregiver for my grandmother who 
raised me opened my eyes to some troubling exploitative tactics 
targeted to seniors. When my grandmother was about 90-years-old, she 
asked if I would help her with her mail, balancing her checkbook, etc. 
I was disturbed by the number of frequent solicitations she received 
from what appeared to me to be bogus or fly-by-night charities--
designed more to line the pockets of the solicitors than to serve their 
purported charitable missions.
    I was also disturbed by the amount of money my grandmother had been 
giving to these entities. She believed that those able to do so, ought 
to be as generous as possible to those in need, but she had no way of 
determining the legitimacy of the entities that were contacting her. I 
still keep a collection of my grandmother's mail as a reminder that it 
is not just the isolated and lonely who may fall prey to these scams.
    I recognize that protecting the physical and mental health and 
security of seniors is the central focus of the Elder Justice Act, as 
it should be. I am hopeful that our consideration of this bill might 
open a discussion of elder exploitation concerns to include criminals 
who target seniors using phones and mail as their weapons.
    I very much look forward to the testimony of my colleagues, as well 
as our expert panel of witnesses.
    Thank you, Mr. Chairman.

    Mr. Scott. Thank you very much. Thank you.
    Our first witness today will be the gentleman from 
Illinois, the honorable Rahm Emanuel, sponsor of H.R. 1783. He 
is Chairman of the Democratic Caucus and serving his third term 
in Congress.
    He is committed to addressing the challenges facing 
families across the Nation. He has a bachelor's degree from 
Sarah Lawrence College and a master's degree from Northwestern 
University.
    Our next witness will be the gentleman from Pennsylvania, 
the honorable Joe Sestak, sponsor of H.R. 5352. He is serving 
his first term in Congress after 31 years serving our Nation in 
the United States Navy, rising to the rank of three-star 
admiral.
    He is a graduate of the U.S. Naval Academy and has a 
master's and PhD in political economy and government from 
Harvard University.
    Our next witness is the gentleman from New Jersey, the 
honorable Steve Rothman, sponsor of H.R. 2352. He is serving 
his sixth term in Congress and throughout his tenure has fought 
to improve the quality of education, both by modernizing 
schools and classrooms, and hiring skilled teachers.
    He has a bachelor's degree from Syracuse University and 
juris doctorate from Washington University in St. Louis School 
of Law.
    And our final witness for the first panel will be the 
gentleman from Florida, the honorable Ron Klein, sponsor of 
H.R. 5464. He is serving his first term in Congress and has 
worked to find commonsense solutions that will improve the 
lives of American families.
    He has a bachelor's degree from Ohio State University and 
his juris doctorate from Case Western Reserve University Law 
School.
    Gentlemen, you all know the drill, so we will--your full 
testimony will be placed in the record. A little timing device 
is on the desk.
    And we will first hear from the Chairman of the Democratic 
Caucus, Rahm Emanuel.

 TESTIMONY OF THE HONORABLE RAHM EMANUEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Emanuel. First of all, I want to thank all the Members 
of the Committee for holding this hearing, specifically 
Chairman Scott, the Chairman of the full Committee, Chairman 
Conyers, and the Ranking Member, Gohmert.
    A number of you have all touched on different aspects of 
what I was going to say, to the point--starting off with the 
very fact that this is the first hearing by any House Committee 
on elder abuse in 17 years. The Senate has had a series of 
hearings, but no House Committee has ever held a hearing in 17 
years of elder abuse.
    And it touches on the fact that, as we are about to have, 
what, 77 million Americans, baby boomers, set to retire, it is 
only fitting that this hearing begin now, as we always talk 
about Social Security or Medicare, that this is an issue that 
touches a growing population, piece of the overall population, 
and a community that has particular interest.
    I do want to add just a couple of points to some little--to 
things that each of you have brought up. This issue came to 
mind as I do my office hours at grocery stores, just meeting 
constituents.
    In about 2003, a woman met me at the grocery store, just 
happened to be shopping, Rosemary--I am going to mispronounce 
it--Pulikche, who talked about her father, who has Alzheimer's, 
a World War II veteran, who was in a nursing home who she 
started to notice was having scars and black-and-blue marks, et 
cetera.
    And as she tried to deal with the nursing home, they all 
said, ``It is just little things he is bumping into,'' et 
cetera, and they pushed her off.
    And then she went to the law enforcement community. And the 
law enforcement community said, ``This is a family matter,'' 
which I note to you was, prior to the Federal Government being 
involved in domestic abuse, was exactly how they referred to 
domestic abuse either for children or for a partner.
    And so the same response that still exists today for 
elderly was a response until we dealt on a Federal level with 
either child abuse or domestic violence, that this was a family 
issue and not really one for the law enforcement community.
    And so it is fitting that we deal with this at this time 
and deal with it from a Federal level.
    Second, as has been noted, there is $8 billion on the 
Federal level spent on abuse, be that child or domestic. Of 
that, less than 2 percent goes to elderly; $8 billion, but less 
than 2 percent goes toward elderly. We noted that 77 million 
Americans are baby boomers about to retire.
    Third statistic, this was a recent report the other day in 
the Chicago Tribune, because of Illinois' own laws, and 
Chairman Scott noted that his own days in the State 
legislature, that different laws, different regs, different 
reporting requirements.
    Because 1997 and 2005, the increase in violence among 
elders had increased by 48 percent in the State of Illinois. 
Now, part of that is because the population is getting bigger; 
part of that is because we put in place a series of laws for 
better reporting by our attorney general.
    We happen to have good laws in Illinois and good 
enforcement. What is missing in all this effort is national 
standards, national helping on enforcement, and national 
resources.
    You can see clearly by what happened both with domestic 
violence, when the government set some standards and resources 
were put there, and child abuse and those types of crimes, that 
what happened there had a clear impact and a positive impact, 
in the sense of reducing that violence and also bringing it 
from the sidelines to the center, so you can't dismiss those 
crimes as merely a family issue.
    Lastly--or two points I would like to close with--I want to 
make sure all my colleagues have appropriate time--is bringing 
up what Congresswoman Baldwin mentioned and that is that, when 
it comes to fraud, abuse, be that telephone solicitation, mail, 
other types of--kind of victims of crimes, as a population 
sector, seniors are the--I don't want to say a statistic, 
because I may be wrong, but the most amount of crimes against 
any population sector for fraud, vis-a-vis phone or mail, is 
among seniors.
    And so that has to be a part of anything we do, besides the 
physical piece, and meaning abuse at nursing homes, et cetera, 
that seniors are the single greatest population segment for 
being the victims of fraud, be it bank, electronic, telephone, 
et cetera. And that has to be a part of this.
    I am submitting, as all you mentioned that you are 
submitting testimony, besides my full testimony, my partner in 
this and working on this is Congressman Peter King. And I am 
submitting for the record his testimony here. He asked me to do 
that. I would.
    [The prepared statement of Mr. King follows:]
Prepared Statement of the Honorable Peter T. King, a Representative in 
                  Congress from the State of New York
    I want to thank the Committee for holding this hearing today. Elder 
abuse is, unfortunately, an issue that has dwelled among the shadows of 
many American families for generations. From incidences in nursing 
facilities to neglect and abuse at the hands of those they know, the 
elderly have been subject to horrible crimes that, until now, have 
received little or no public attention. I commend the Chairman Scott 
and Ranking Member Gohmert for helping my colleagues and I bring the 
issue of elder abuse to light.
    Almost daily, there are reports of instances in which the elderly 
have been abused. Unspeakable acts of physical abuse and downright 
neglect have led to the deaths of seniors across the country--many of 
whom had to die in slow agonizing ways. Earlier this week I read a 
disturbing account of a man who died shortly after being removed from a 
nursing facility where he was suffering from malnourishment, 
dehydration, sores, bed bugs and black and swollen toes. According to 
the local reporters, when emergency room personnel removed the socks 
that had not been changed for quite some time, portions of his skin 
were pulled off as well.
    To spite this harrowing story of abuse, and the many others that 
exist in each state, there is not one full-time federal employee 
working on elder abuse issues. That is why I have been working with 
Rep. Rahm Emanuel and Senators John Breaux, Orrin Hatch and Blanche 
Lincoln to pass the Elder Justice Act (H.R. 1783). I have had the 
privilege of working with these Members of Congress and the Elder 
Justice Coalition in order to develop the first comprehensive federal 
effort to address and prevent elder abuse, neglect and exploitation.
    This bipartisan legislation dedicates federal resources to the 
prevention of elder abuse. In addition, it will protect seniors by 
providing services such as victim assistance, improved long-term care 
and support for at-risk elders. We have included research, training and 
forensics and consumer information provisions which will help 
practitioners detect, treat and prevent elder abuse in the most 
effective ways.
    I sincerely hope the Committee will take the issues surrounding 
elder abuse to heart and join with us to pass strong legislation to 
combat these tragedies. I thank the Committee for holding this hearing 
and stand ready to work with you.

    Mr. Emanuel. This is my first legislation I introduced when 
I first got to Congress. Since that time, Senator Hatch, 
Senator Breaux, Senator Blanche Lincoln, Peter King and I have 
worked on this.
    I cannot thank each and every one of you enough that, after 
17 years of not having literally a time this issue having any 
daylight, that your Committee has decided to have a hearing on 
this legislation and even on this subject.
    And I hope it bodes well for our ability to bring this 
legislation or some aspects finally to the floor for a full 
vote.
    Mr. Scott. Thank you. That statement will be entered 
without objection.
    Mr. Emanuel. Okay, thank you.
    [The prepared statement of Mr. Emanuel follows:]
 Prepared Statement of the Honorable Rahm Emanuel, a Representative in 
                  Congress from the State of Illinois
    Before I begin, I want to sincerely thank Chairman Scott, Ranking 
Member Gohmert, and the members of the Subcommittee for holding this 
hearing.
    As you may know, the issue of elder abuse, neglect and exploitation 
is unfortunately, nothing new. What you may not know though, is that 
the first hearing on elder abuse was in 1979 in the House Select 
Committee on Aging. The Senate has held over 20 hearings on the issue 
of elder abuse dating back to 1991. However, the House has only held 
one hearing in 1991 since those early hearings on the now defunct 
Select Committee on Aging. Today is the first time in 17 years that a 
House Committee will look at the issue of elder abuse. I sincerely 
applaud the Committee for taking this action and I thank you for giving 
me the opportunity to discuss this very important issue here today.
    Reports reveal that 500,000 to 5 million senior American's will be 
victims of some form of abuse every year, causing illness, suffering, 
and premature death. In my home state of Illinois, reports to the 
Illinois Elder Abuse and Neglect Program increased by 48% between 1997 
and 2005. Additionally, 186 nursing home residents actually died of 
starvation, dehydration or infected wounds in 1999 alone.
    I would like to briefly share with you one story of a former 
constituent of mine that I met in 2003. Her name is Rosemary Pulice and 
her father was abused and neglected in a nursing home. Before 
Alzheimer's stripped him of his strength and clarity, her father was a 
strong and independent man: a World War II veteran who fought for his 
country, a loving husband and a caring father who meant the world to 
his family. His illnesses robbed him of both his physical and mental 
abilities--he could neither fend for himself physically nor sort 
through mentally what was happening. During his time at a nursing home, 
Rosemary started to notice bruises, cuts and contusions and when she 
asked staff about them, they claimed ``Nothing happened on our watch.'' 
No one was concerned about the injuries--no one attended to his pain. 
When Rosemary tried to address the abuse and neglect with aides, 
administrators, and finally with the police, she was treated as though 
she were crazy. The situation was treated as a ``family problem''--much 
like domestic violence was 20 years ago.
    Since my election to Congress, I have been working with my 
colleagues Rep. Peter King and Senators John Breaux, Orrin Hatch and 
Blanche Lincoln to pass the Elder Justice Act to protect vulnerable 
seniors, just like Rosemary's father from an increasing number of cases 
of physical and psychological abuse, neglect and financial 
exploitation. The bill enjoys wide bipartisan support and currently has 
105 cosponsors in the House and 24 cosponsors in the Senate.
    The Elder Justice Act has been endorsed by the Elder Justice 
Coalition, a national membership organization comprised of 525 groups 
and individuals dedicated to eliminating elder abuse, neglect and 
exploitation in America. Members include the National Committee for the 
Prevention of Elder Abuse, National Association of Adult Protective 
Service Administrators, National Academy of Elder Law Attorneys, AARP, 
National Association of State Ombudsman Programs and the National 
Association of State Units on Aging.
    Few pressing social issues have been as systematically ignored as 
elder abuse. Over the past 25 years, Congress passed comprehensive 
bills to address child abuse and crimes against women, yet there is not 
one full-time Federal employee working on elder abuse in the entire 
Federal Government. A comparison of federal money spent to fight abuse 
and neglect shows that $6.7 billion is spent on child abuse, $520 
million on domestic abuse, and only $135.5 million on elder abuse--less 
than 2 percent of federal dollars spent on abuse and neglect goes 
toward elder abuse. This lack of resources has staggering consequences. 
By addressing law enforcement, social service and public health 
concerns, the Elder Justice Act uses the proven, cost effective 
approaches that Congress has adopted to combat child abuse and violence 
against women.
    The Elder Justice Act is the first comprehensive federal effort to 
address and prevent elder abuse, neglect and exploitation. This 
legislation, would, for the first time, provide much needed support to 
state and local entities, which are on the front lines in combating 
this largely unreported, but growing problem. This bipartisan 
legislation will protect seniors by providing victim assistance, 
improved long-term care and support for at-risk elders, as well as 
providing resources to states for abuse prevention and improved 
prosecution. It will also make our communities safer for older people 
by developing new strategies and requiring prompt reporting of crimes 
in nursing homes.
    The Elder Justice Act also contains important research, training, 
forensics, and consumer information provisions which will help 
practitioners to detect, treat and prevent it in the most effective and 
cost-effective ways.
    The National Sheriff's Association has also endorsed the Elder 
Justice Act because they believe it is an effective approach which will 
give local law enforcement officials the tools they need to prevent the 
abuse, neglect and exploitation of seniors in their communities. The 
Elder Justice Act authorizes funding for efforts like the Triad 
program, which has been used by law enforcement agencies throughout the 
United States to develop effective local programs serving almost 18 
million seniors nationwide. My hometown of Chicago currently has 25 
active Triad programs in operation.
    There are a few additional key provisions in the bill that I would 
like to briefly mention:

        <bullet>  Increases Prosecution: The bill increases 
        prosecutions by providing technical, investigative, 
        coordination, and victim assistance resources to law 
        enforcement to support elder justice cases.

        <bullet>  Provides Grants to Support Local Prosecutors: 
        Provides grants for training, technical assistance, policy 
        development, multidisciplinary coordination and other types of 
        support to local prosecutor handling elder justice-related.

        <bullet>  Creates New Forensic Centers: The legislation creates 
        new forensic expertise (similar to that in child abuse) to 
        promote detection and increase expertise of elder abuse, 
        neglect and exploitation.

        <bullet>  Requires Immediate Reporting of Crimes to Law-
        Enforcement: The bill requires the immediate reporting of 
        crimes in long-term care settings to law enforcement.

        <bullet>  Provides Grant Funding for Adult Protective Services: 
        The bill also provides dedicated funding for Adult Protective 
        Services (APS) to assist victims.

        <bullet>  Establishes Elder Justice Coordinating Council: The 
        bill elevates elder justice issues to a national by creating a 
        public-private Coordinating Council to coordinate activities of 
        all relevant federal agencies, States, communities and private 
        and not-for-profit entities.

    To date, no federal law has been enacted that adequately and 
comprehensively addresses the issues of elder abuse, neglect, and 
exploitation. The Elder Justice Act is the first step toward laying the 
groundwork to develop a knowledge basis about elder abuse, neglect and 
exploitation, where there is no knowledge. This bill is an attempt to 
stimulate research and the development of an understanding of abuse so 
that strategies to combat it can be developed. With 77 million baby 
boomers aging, the country is simply not prepared to address the 
growing tide of elder abuse.
    After almost three decades of inaction on this critical issue since 
the first House hearings, the time for the House to act is now.
    Thank you.

    Mr. Scott. Thank you.
    Mr. Sestak?

  TESTIMONY OF THE HONORABLE JOE SESTAK, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF PENNSYLVANIA

    Mr. Sestak. Thanks, Mr. Chairman and Ranking Member 
Gohmert.
    I visit senior facilities almost every weekend in my 
district. And in a lot of them, you find, as you do, that you 
find the seniors bursting with pride with the support they 
receive.
    And in a few of them, though, your heart aches from the 
cockroaches to the neglect.
    You mentioned my 31 years in the military. And I remember 
most well the lack of care and support for our troops as they 
return from Iraq at Walter Reed last year. This is worse.
    If passed into law, I honestly believe the Elder Abuse 
Victims Act I introduced will actually change the way that our 
Nation's justice system begins to protect our seniors from 
abuse, neglect and exploitation.
    Hubert Humphrey said it well. It is not only how well we 
take care of those in the dawn of life, the children, and those 
in the shadows of life, the sick, the disabled, the 
handicapped, but also those in the twilight of life, the 
seniors.
    I think it is important because seniors not only represent 
the history of our Nation, but they are vital to our 
communities, particularly so as the baby boomers, as my 
distinguished colleague mentioned, begin to retire and have so 
much more to offer our society as they live longer.
    Sadly, however, the incidence of elderly abuse appears to 
becoming almost an epidemic.
    One study said last year between 1 million and 2 million 
Americans age 65 or older has become victims of abuse. And this 
number is expected to rise significantly.
    The fact of the matter is our current approach is not 
working, nor will it be able to handle the influx of seniors. 
My colleague already mentioned the amount of money we wisely 
spend on child abuse and also the Violence Against Women Act of 
$500 million for that alone, both measures I support well.
    But when the total amount is so small for seniors, then it 
is time for this issue to be addressed.
    I like this Elder Abuse Victims Act because it provides a 
needed strategic approach to providing a foundation that 
inquires and identifies the best State practices and laws that 
are designed to protect our seniors from neglect, abuse or 
exploitation, overseen by the U.S. attorney general.
    It does this comprehensive review and study that is so much 
needed and looks at the various variations--different 
variations and definition standards, again, what my 
distinguished colleague mentions, that prevent the FBI from 
categorizing elder abuse in the national uniform crime 
reporting system.
    These variations are the result of the lack of one Federal 
body dedicated to this type of abuse to coordinate and oversee 
it.
    Having established within this bill two centralized bodies 
that can be in place, then we can have a uniform policy that 
States can align themselves with in order to have standard 
definitions and remove the confusion that I think leads to 
incidences of abuse going unreported. In fact, estimates are 
now that 84 percent of elder abuse cases go unreported.
    In my State of Pennsylvania last year, this decade over 
last decade, there has been a 20 percent increase in 
substantiated reports of elder abuse.
    Putting a face on it, take Louis Long, near my district, 
who died in March 2006 after a couple drained $84,000 from his 
bank account, purportedly, as he slipped into dementia. He 
became one of the 40 percent of elder abuse victims who suffer 
financial exploitation, never mind other times of exploitation, 
including sexual abuse.
    I believe we have also, by failing to act, have failed an 
elderly Alzheimer's patient in my district who was struck six 
times with a belt buckle by an aide in an assisted living 
facility.
    This leaves more than just bruises. Those who are abused 
are three times more likely to die within 10 years than those 
who are not.
    Most important is the emphasis in this bill on prosecution 
as the deterrent that we want and we need so badly to prevent 
this from happening. It will do so by establishing funding for 
elder abuse prosecutorial departments at the local, State and 
Federal level, training law enforcement officers in appropriate 
action in these cases, and fund nurse investigators to become 
experts in identifying elder abuse, under a comprehensive study 
that has provided definitions and best practices to look toward 
and align these States and localities towards.
    This is the reason I have introduced this focused 
legislation, the Elder Abuse Victims Act, and want to continue 
to fight during my time in Congress to help victims of abuse, 
the elderly of which we will all become.
    Again, as Hubert Humphrey said, part of the moral test of 
government is how well it treats the elderly, those in the 
twilight of life.
    Thank you for this opportunity.
    [The prepared statement of Mr. Sestak follows:]
  Prepared Statement of the Honorable Joe Sestak, a Representative in 
                Congress from the State of Pennsylvania
    Before I begin, I would like to thank Chairman Scott and Ranking 
Member Gohmert for inviting me to speak on a piece of legislation about 
which I feel so strongly. If passed into law, the Elder Abuse Victims 
Act will strengthen the way our justice system prosecutes perpetrators 
of elder abuse and protect its victims.
    Seniors represent this country's history and national memory. They 
are vital to our families and communities; however, the elderly are 
also vulnerable to physical, mental, financial, and sexual abuse. 
Sadly, the incidence of elder abuse in this country is a growing 
epidemic. Every year, according to one study, between one and two 
million Americans age 65 or older become victims of abuse. This number 
is expected to rise rapidly as the population of Americans age 65 and 
older grows from 35 million today to 60 million by 2030.
    However, the current approach to elder abuse will not be able to 
handle these changes. Last year, the federal government spent 
approximately $153 million on programs addressing elder abuse. The 
Department of Health and Human Services (HHS) spent approximately $143 
million and the Department of Justice spent $10 million. These funding 
levels pale in comparison to the $6.7 billion spent on child abuse and 
the $520 million mandated by the Violence Against Women Act (VAWA), 
both measures which I strongly support.
    The greatest failure of our nation's approach to elder abuse, 
however, is the prosecution of perpetrators of abuse. The Elder Abuse 
Victims Act addresses this failure by focusing on enforcement.
    This legislation requires a comprehensive review and study of 
states' elder justice systems, because state-to-state variations in the 
definitions and standards vary so widely that the FBI is unable to 
categorize elder abuse in the national Uniform Crime Reporting System.
    These variations are the result of a lack of one federal body 
dedicated to this type of abuse. Therefore, the Elder Abuse Victims 
Act, establishes the Center for the Prosecution of Elder Abuse, 
Neglect, and Exploitation at the American Prosecutor Research Institute 
and secondly, the Elder Justice Coordinating Council, whose membership 
would include the Secretary of Health and Human Services (HHS) and the 
Attorney General, among others.
    With two centralized bodies in place, we can then direct a uniform 
policy that aligns the wide spectrum of state and federal agencies that 
have jurisdiction over elder abuse cases, and reduce the confusion that 
leads to cases of abuse going unreported. This is significant because 
estimates suggest that as many as 84% of elder abuse cases go 
unreported.
    With 2 million senior citizens, the third largest elderly 
population in the country, this legislation is particularly important 
to the Commonwealth of Pennsylvania, my home state. According to the 
Pennsylvania Department of Aging, between 2006 and 2007 there were 
2,484 substantiated reports of elder abuse in Pennsylvania. That is a 
39.2% increase from the 2005-2006 level of 1,784 and a 19.7% increase 
from the previous decade. Considering that the fastest growing segment 
of Pennsylvania's population is those who are 85 years of age or older, 
this trend will worsen.
    As I meet the people behind these statistics at senior groups, I am 
troubled that we are failing victims like Louis V. Long, an elderly 
resident of Pottsville, Pennsylvania, who died in March 2006 after a 
couple purportedly drained $84,000 from his bank accounts as he slipped 
into dementia. He became one of the 40% of elder abuse victims who 
suffer financial exploitation and will continue to as the elderly are 
expected to control $10 trillion in assets within the next 10 years.
    I also believe we have failed an elderly Alzheimer patient that was 
struck at least six times with a belt buckle by an aide at an assisted 
living facility in King of Prussia, Pennsylvania, in my district. These 
acts leave more than just bruises; older adults who are abused are 3 
times more likely to die within 10 years than those who are not.
    In Pennsylvania we have a qualified Elder Abuse Unit at the State 
Attorney General's office that investigates and prosecutes individuals 
who deceive, cheat or abuse the elderly; the 26 prosecutors, agents and 
support staff of this unit, however, can not solve this growing 
epidemic alone. Federal legislation is needed immediately.
    According to a recent study by the National Academy of Sciences, 
HHS and the National Institutes of Health, the occurrence and severity 
of elder abuse is likely to increase in coming years. If we do not act 
now, a growing number millions of seniors will suffer from unabated 
physical, financial, and emotional abuse and neglect.
    The need for prosecution in this arena is so great that we can not 
risk losing the language of enforcement in the Elder Justice Act for 
political reasons. That is why I have introduced this more focused 
legislation, the Elder Abuse Victims Act, and will continue to fight 
for victims of abuse. As Hubert Humphrey once said, ``the moral test of 
government is how that government treats those who are in the dawn of 
life, the children; those who are in the twilight of life, the elderly; 
and those who are in the shadows of life, the sick, the needy and the 
handicapped.''
    Again, thank you for the opportunity to testify before this 
subcommittee.

    Mr. Scott. Thank you.
    Mr. Rothman?

TESTIMONY OF THE HONORABLE STEVEN R. ROTHMAN, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Rothman. Thank you, Chairman Scott.
    First, let me say what a delight it is to be here before my 
former Committee and for you, Mr. Chairman, and Ranking Member 
Gohmert, and my other distinguished colleagues who are here.
    Thank you for your kind words, Howard.
    I am here this morning to talk about a success story that 
emanated from this Committee, but has now generated an even 
greater or, rather, made aware, made many of us aware of the 
greater needs that we need to address.
    I am here to ask your support for H.R. 2352, the ``School 
Safety Enhancements Act of 2007.''
    Back in 2000, when Chairman Hyde was the Chairman of this 
Committee, I got a letter from two middle-school girls, two 
separate letters, two different girls, two different middle 
schools in my district, working-class, middle-class schools.
    And it was shortly after Columbine and other incidents. And 
they wrote me and they said, ``Congressman Rothman, I don't 
feel safe in my school. There have gangs that have come in, 
kids bringing knives, some bringing guns. I am always afraid. I 
am always looking over my shoulder. I thought school was 
supposed to be a place I felt same in. It is not. You are our 
congressman. Can't you help me?"
    We had just finished the impeachment hearings and that 
whole saga. And nonetheless, the Judiciary Committee 
unanimously, Bob Barr included, from the far right to the far 
left, unanimously passed this bill, the original bill, which 
said we are not going to have a Federal mandate, but we will 
allow a 50-50 matching grant program so that if a school system 
has identified a need in their school for a metal detector, 
security cameras, locks on doors, training programs for school 
personnel on how to deal with intruders or to prevent 
intruders, there is a 50-50 matching grant, not a government 
mandate.
    If they want to put up half the money, the Federal 
Government will match it. We got it through the Committee 
unanimously and got it passed in the Republican House and 
Republican Senate and signed by the President.
    And it started out a $5 million program. And it was a huge 
success. In a sense, sadly it was a huge success, because of 
the need.
    And it was well over-subscribed. Then we got it up to $10 
million. That was over-subscribed. After all, there are 95,000 
schools, K-12, in the 50 States and U.S. territories.
    And the last appropriation we got was up to $15 million, 
again, over-subscribed. We have only been able to cover 2,400 
of the 95,000 schools, less than 1 in 40.
    And law enforcement has begged us to try to get more money, 
and we have every year. We have made some improvements in this, 
so we are asking for an increase. It was authorized for $30 
million. We have only been able to get $15 million.
    We would like to increase the authorization to $50 million, 
and maybe we will get closer to $50 million than we got to $30 
million.
    We have made some improvements in the bill. As the Chairman 
noted, while there was a provision in there that said, if it is 
a poor school that can't afford any match and can meet certain 
criteria, the Federal Government will pay for 100 percent of 
the costs, but there was so little money, in essence, so many 
poor schools got pushed to the side in order to get more 
schools outfitted than otherwise would have been the case.
    So we now have made it an 80-20 program, 80 percent Federal 
grant, with a 20 percent match by the locality. Again, it is 
not a Federal mandate. It is purely voluntary. So whatever the 
mores or the threshold of pain or threat or fear that a school 
district wants to live with, it is up to them.
    But if they come to the Federal Government, especially in 
these tough times, and say, ``We are willing to put up 20 
percent. Please bring us the money and your expertise to have 
security cameras, walkthrough metal detectors, wand metal 
detectors, security cameras, new locks on doors that cannot be 
broken into, et cetera,'' we are going to provide it, 
especially after a Virginia Tech, all of incidents.
    And, again, the Chairman was on the money. How many 
States--the majority of States have had these incidences in 
schools K-12, as well as colleges and universities.
    Another technical improvement that we added was funding for 
hotlines. It turns out that when kids know there is a hotline 
that they can call, that we have reduced the number--the 
incidences of violence and been able to stop before they happen 
some terrible, terrible tragedies. Simple solution, but it 
requires some funding, and that is in the bill, as well.
    Finally, we have added a public safety and I believe a 
homeland security component, which requires that each college 
and university at that level provide an annual campus safety 
assessment and show a plan that implements an emergency 
response plan that will address natural disasters, active 
shooter situations, as well as terrorist attacks.
    I don't need to tell you that it has been well 
demonstrated, unfortunately, that we need to have schools 
prepared with a plan. Again, they make up their own plan. We 
just say, ``You have to have a plan.''
    Finally, just to remind my distinguished friends and 
colleagues what those two young ladies said to me--and, by the 
way, you should have seen the looks on their faces after we 
outfitted their schools. It just doesn't get--as a father of 
five, it doesn't get better when kids come up to you and say, 
``Thank you. I feel safe now. I don't have to worry that 
somebody is going to kill me.''
    Schools should be a place where kids feel safe. This is a 
voluntary program, not a Federal mandate. I hope you 
distinguished ladies and gentlemen will support this program.
    Thank you.
    [The prepared statement of Mr. Rothman follows:]
Prepared Statement of the Honorable Steven R. Rothman, a Representative 
                in Congress from the State of New Jersey
    I would like to thank Chairman Scott, Ranking Member Gohmert, and 
the Members of the Subcommittee for this opportunity to testify before 
you in support of H.R. 2352, the School Safety Enhancements Act of 
2007.
    Far too often, Americans turn on the television or open up the 
newspaper and learn about yet another school shooting or fight. It has 
become a tragic reality that guns and other weapons are being brought 
into schools all across America. Children are forced to wonder whether 
they are safe in school--a place once thought to be a guaranteed safe 
haven.
    Whether it is fighting terrorism or working to keep our schools 
free of violence, I have always believed that the government's first 
responsibility is to protect the people. Our government must help to 
ensure that our children are safe and protected from violence of any 
kind in school. School violence is a real danger, from New Jersey to 
California and everywhere in between, and in my view the federal 
government has an obligation to help local municipalities and property 
taxpayers cover the cost of implementing new school safety initiatives.
    That is why in 2000, as a member of the House Judiciary Committee, 
I, along with then Judiciary Chairman Henry Hyde (R-IL), started the 
Secure Our Schools program. Secure Our Schools is a matching federal 
grant program administered by the Community Oriented Policing Services 
(COPS) Office, of the Department of Justice. Under this program, 
specific security measures are not mandated by the federal government. 
Rather, the funds assist local school districts with the costs of those 
measures they choose to enact. Secure Our Schools gives grantees the 
opportunity to establish and enhance a variety of school safety 
equipment and/or programs to continue to improve school safety efforts 
within their communities.
    Secure Our Schools grants may be used to install metal detectors, 
locks, improved lighting, and other deterrent measures that will help 
keep students safe. With walkthrough metal detectors available for 
$1,750 and handheld wand metal detectors available for $145, just to 
name a few of the security measures that can be taken, significant 
progress can be made in preventing weapons from being brought into our 
schools, while saving local property taxpayers from bearing the full 
cost of these security initiatives. Secure Our Schools addresses a 
variety of existing and emerging problems relating to school security 
through responses that range from traditional to innovative and rely on 
both new technology and the experience of school administrators and law 
enforcement professionals.
    In response to the tragic events that took place at Virginia Tech 
one year ago yesterday, I introduced H.R. 2352, the School Safety 
Enhancements Act of 2007. The School Safety Enhancements Act would make 
several changes to the Secure Our Schools Program. Most notably it 
would:

        <bullet>  Increase the federal share of elementary and 
        secondary school security upgrades to 80% and lower the local 
        responsibility to 20%. This will ensure that even those 
        localities that are cash strapped can afford to protect their 
        children without raising property taxes.

        <bullet>  Allow for the funding to be used for the creation of 
        hotlines for the reporting of dangerous situations, which have 
        proven effective throughout many school districts across the 
        nation.

        <bullet>  Increase the authorization level of this critical 
        program to $50 million annually which, if appropriated, would 
        allow a large number of additional schools to obtain grants.

        <bullet>  Require all institutions of higher education to 
        develop, on an annual basis, a campus safety assessment and 
        implement of a campus emergency response plan to address a 
        number of emergency situations such as natural disasters, 
        active shooter situations, and terrorist attacks.

    Since 2002, Secure Our Schools grants have been awarded to a total 
of 572 law enforcement agencies that have partnered with more than an 
estimated 2,400 schools in 50 states and territories. In the past year 
alone, 152 law enforcement agencies received grants to improve their 
school safety and security measures.
    With over 14,000 law enforcement agencies in the U.S. and 95,615 
public K-12 schools in the nation, increased funding would clearly 
allow us to reach a larger number of children and communities.
    A secure school environment provides young people with an 
educational environment free from unnecessary distractions, and full of 
opportunities to learn. When children know they are safe at school, 
they can focus on what is being taught in class, and thus excel with 
their schoolwork. I developed the Secure Our Schools Act in direct 
response to concerns over school safety expressed to me by children, 
parents, and teachers from my Congressional District. They wrote to me 
asking for my help to keep students safe in their schools. As the 
father of two public school children myself, these letters touched me 
deeply and I felt compelled to take action. I hope you will also join 
me in this fight to ensure that each and every one of our 
schoolchildren is kept safe from harm.
    Thank you for your time and consideration and I look forward to 
working with you to pass the School Safety Enhancements Act of 2007.

    Mr. Scott. Thank you.
    Mr. Klein?

   TESTIMONY OF THE HONORABLE RON KLEIN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Klein. Thank you, Chairman Scott, for allowing me to 
participate. And as Chairman Conyers said, I am along here with 
a very distinguished panel and privileged to be part of this to 
discuss elder abuse, senior safety and security, school safety.
    And the issue which we are going to talk about in this 
resolution is A Child Is Missing Alert and Recovery Center Act.
    Ranking Member Gohmert, you very well stated all the good 
reasons why we need to do this.
    And, Chairman Scott, thank you for taking the time to 
discuss this with me and provide your leadership in bringing 
this forward.
    H.R. 5464 is called the ``A Child Is Missing Alert and 
Recovery Center Act.'' And it would expand the widely praised A 
Child Is Missing not-for-profit organization into a national 
program with regional centers under the Department of Justice.
    It would accomplish this expansion through annual grants 
from the attorney general in the amount of $5 million from 2009 
through 2014.
    The funds would allow for the purchase of future 
technologies and techniques, centralized and on-site training, 
and for the distribution of information to Federal, State, and 
local law enforcement agency officials on the best ways to 
utilize the around-the-clock services provided by the A Child 
Is Missing Alert and Recovery Center.
    Currently, A Child Is Missing is the only program of its 
kind that assists in all missing cases, including abduction, 
children who are lost, wander or run away, or adults with 
special needs, such as the elderly who suffer with Alzheimer's, 
which is a major problem in my district in South Florida and 
other places around the country, with dementia and other 
reasons why people would wander from a facility or a home.
    When a person is reported missing to the police, A Child Is 
Missing utilizes the latest technology to place 1,000 emergency 
telephone calls every 60 seconds to residents and businesses in 
the local area where the person was last seen.
    It works in concert with the Amber Alert and all child 
safety programs and has the support of law enforcement agencies 
all across the United States.
    A Child Is Missing also fills a critical gap in time in the 
most dangerous cases. Although the Amber Alert has been an 
extremely successful program, there is still a crucial void 
from when a child is first reported missing and when an Amber 
Alert, which is activated only in cases of criminal abduction, 
can be issued, which is approximately 3 to 5 hours.
    This critical period of time can be the difference between 
whether a child lives or dies. A Washington state attorney 
general's office study showed that among cases involving 
children abducted and murdered 74 percent were slain in the 
first 3 hours. So this time element is essential.
    Adding to the problem is the resource and manpower 
limitations facing many local law enforcement agencies. Roughly 
half of these offices in the United States have 25 or fewer 
officers. And an average 12-hour search for a missing child can 
cost as much as $400,000.
    A Child Is Missing helps to fill this critical gap in time, 
as well as complement the Amber Alert during its ongoing 
search. We know this for a fact because we have heard it from 
countless law enforcement agencies and officers all across our 
country, and you will hear it again during the next panel.
    So this issue isn't whether A Child Is Missing works or 
not; the real issue is that not enough local communities have 
access to the program.
    As you will learn from the founder and President of A Child 
Is Missing, Sherry Friedlander, who is a remarkable woman who 
came up with this idea and has fully implemented it in Fort 
Lauderdale, the program has been a remarkable success in 
spreading the program and its success to all over the country.
    But if we are going to bring this program to every 
community in America, then we will need to leverage the 
resources of the Federal Government, and that is what my 
legislation attempts to do.
    H.R. 5464 has broad bipartisan support in Congress. And we 
count co-sponsors from all over the country, including Ohio, 
Kentucky, Texas, Indiana and New York.
    On the Senate side, companion legislation was introduced by 
Senator Menendez and is co-sponsored by Senator Hatch, the 
distinguished former Chairman of the Senate Judiciary 
Committee.
    We have such support because A Child Is Missing provides a 
service that transcends politics. Our children are not 
partisan; they are not Democrats or Republicans. They all our 
children.
    And all of us require that responsibility and their 
protection requires our cooperation and working together, just 
like this Subcommittee is going to do today.
    I want to thank the Chairman, again, and Ranking Member for 
inviting me to testify today, and I hope that I will have the 
support of this Subcommittee as we move forward with H.R. 5464, 
the ``A Child Is Missing Alert and Recovery Center Act.''
    Thank you very much, Mr. Chairman. I yield back the time.
    [The prepared statement of Mr. Klein follows:]
  Prepared Statement of the Honorable Ron Klein, a Representative in 
                   Congress from the State of Florida
    Thank you, Chairman Scott and Ranking Member Gohmert, for holding 
this important hearing today and for allowing me to testify in support 
my legislation, H.R. 5464, the ``A Child Is Missing Alert and Recovery 
Center Act.''
    H.R. 5464 would expand the widely-praised A Child Is Missing non-
profit organization into a national program with regional centers under 
the Department of Justice. It would accomplish this expansion through 
annual grants from the Attorney General in the amount of $5 million 
from 2009 through 2014.
    The funds would also allow for the purchase of future technologies 
and techniques, centralized and on-site training, and for the 
distribution of information to Federal, State, and local law 
enforcement agency officials on the best ways to utilize the round-the-
clock services provided by the A Child Is Missing Alert and Recovery 
Center Act.
    Currently, A Child Is Missing is the only program of its kind that 
assists in all missing cases involving abduction, children who are 
lost, wander or run away, or adults with special needs such as the 
elderly who suffer with Alzheimer's, which is a major problem in my 
district in South Florida.
    When a person is reported missing to the police, A Child Is Missing 
utilizes the latest technology to place 1,000 emergency telephone calls 
every 60 seconds to residents and businesses in the area where the 
person was last seen. It works in concert with the AMBER Alert and all 
child safety programs, and has the support of law enforcement agencies 
all across the country.
    A Child Is Missing also fills a critical gap in time in the most 
dangerous cases. Although the AMBER Alert has been an extremely 
successful program, there is still a crucial void from when a child is 
first reported missing and when an AMBER Alert, which is activated only 
in cases of criminal abduction, can be issued, which is approximately 
three to five hours.
    This critical period of time can be the difference between whether 
a child lives or dies. A Washington State Attorney General's office 
study showed that among cases involving children abducted and murdered, 
74 percent were slain in the first 3 hours.
    Adding to the problem is the resource and manpower limitations 
facing many local law enforcement agencies. Roughly half of these 
offices in the United States have 25 or fewer officers, and an average 
twelve-hour search for a missing child can cost as much as $400,000.
    A Child Is Missing helps to fill this critical gap in time as well 
as complement the AMBER Alert during its ongoing search. We know this 
for a fact because we've heard it from countless law enforcement 
officers all across America, and you will hear again during the next 
panel.
    So the issue isn't whether A Child Is Missing works or not. The 
real issue is that not enough local communities have access to the 
program. As you will learn from the founder and President of A Child Is 
Missing, Sherry Friedlander has done a remarkable job spreading the 
program to all 50 states. But if we're going to bring the program to 
every community in America, then we'll need to leverage the resources 
of the federal government, and that's what my legislation attempts to 
do.
    H.R. 5464 has broad bipartisan support in Congress. I count 
cosponsors from all across the country, including Ohio, Kentucky, 
Texas, Indiana and New York. On the Senate side, companion legislation 
was introduced by Senator Menendez and is cosponsored by Senator Hatch, 
the distinguished former chairman of the Senate Judiciary Committee.
    We have such support because A Child Is Missing provides a service 
that transcends politics. Our children are not Democrats or 
Republicans. They are all our children and all our responsibility, and 
their protection requires us to work together, much like this 
subcommittee is doing today, to do what's best for their continued 
safety.
    I want to thank the Chairman and Ranking Member for inviting me to 
testify today, and I hope that I will have the support of this 
subcommittee as we move forward with H.R. 5464.
    Thank you.

    Mr. Scott. Thank you very much. I thank all of our 
witnesses.
    Do any of the Members have compelling questions that have 
to be asked?
    The gentleman from--Ranking Member Johnson, Mr. Johnson, 
the gentleman from Georgia?
    Mr. Johnson. Thank you, Mr. Chairman.
    I would just point out the fact that, with the exploding 
foreclosure crisis that exists now, and the fact that many 
school systems are dependent on property taxes to fund the 
schools, and the fact that we have had so many unfunded 
mandates passed down from State and Federal Government to the 
local governments, local governments need help, in terms of 
providing for school safety.
    And so I am glad that we are considering increasing the 
amount of money that is available for school safety and to make 
that money more accessible to communities that don't have the 
funds to provide for security.
    And as far as elder abuse cases go, many cases take place 
in nursing homes. Of course, we have great nursing homes, but 
we also find some that are challenged. And these nursing homes 
oftentimes are not held accountable for what goes on inside.
    And so oftentimes, when the criminal justice system is 
unprepared to act, the relatives and next of kin of elderly who 
have been subjected to abusive practices often have only to 
turn to the civil courts to get justice.
    And when they go to the civil court, they are often 
confronted with the fact that their nursing home contract that 
they signed when they committed their elderly relative to the 
nursing home contains the pre-dispute mandatory binding 
arbitration clause, which are held to be enforceable by the 
courts, and they prevent the parties from getting justice in 
court.
    And so this is why we need to protect our elderly through 
the criminal processes and make sure that we provide the 
resources that are needed to take care of this problem, which 
is only going to get worse as more and more people become 
elderly and live longer.
    Thank you.
    Mr. Scott. Thank you.
    The gentleman from Ohio?
    Mr. Chabot. Thank you, Mr. Chairman. I will be very brief.
    I want to thank Mr. Klein especially for his leadership in 
this particular piece of legislation, H.R. 5464, the ``Child Is 
Missing Alert and Recovery Center Act.''
    I also want to recognize and thank one of the witnesses 
that will be testifying here shortly, Sherry Friedlander, who 
is originally from Cincinnati, even though she is down in Fort 
Lauderdale now. I want to thank her for making this program 
happen.
    And the program, of course, would authorize $5 million in 
grants. And it fills a void between the initial reports to law 
enforcement of a missing child or adult and before the Amber 
Alert comes out.
    And I know that there has been some issue relative to some 
interpreting as perhaps a hoax call. And I would--I know that 
is one of the areas that we are particularly interested in to 
make sure that that is not an issue.
    And a number of the law enforcement agencies in both my 
district, including the Hamilton County sheriff's department, 
the Norwood Police Department, and Forest Park, and in the 
district next to mine, in Deer Park, have vouched for the 
benefits of this program.
    So I again want to thank Mr. Klein for his leadership in 
this. I am the lead Republican on it.
    Unfortunately, I am not going to be able to stick around, 
because I am the Ranking Member of the Small Business 
Committee, and we have a hearing going on over there, and I 
have to go back or Ms. Velazquez will be very upset with me. So 
I have to get back and deal with her.
    But thank you very much for holding this hearing, and I 
yield back my time.
    Mr. Scott. Thank you.
    The gentlelady from Wisconsin?
    Ms. Baldwin. No questions of this panel. Thank you.
    Mr. Scott. Thank you very much. We thank all of our 
witnesses, Mr. Chairman, for testifying--just a minute.
    Ranking Member, Mr. Gohmert?
    Mr. Gohmert. Thank you, Chairman Scott. And I do appreciate 
the work for children and schools.
    I would like to ask, I guess, Congressman Emanuel, on the 
issue of the Elder Justice Act, Chairman Conyers alluded to it, 
and I do appreciate my friend, Mr. Johnson, indicating the 
problem is only going to get worse.
    You are so right. It seems, as technology improves, 
medicine improves, we are able to keep the bodies alive longer 
than we are able to keep the mind as active. And as my friend, 
Ms. Baldwin, indicated, those who have dealt closely with 
elderly family members, most of us have been surprised how much 
they get inundated by mail, by phone calls, and sometimes in 
person, at times when they are often less able to discern what 
is a fraud.
    In the old days, I think their generations called them 
confidence men, and that is exactly what they are. They come 
in, and they befriend, and maybe they are mad at a family 
member--I have seen this in other family situations--and, boy, 
just take advantage of the situation, get close to them, and 
then take everything they have.
    It is my understanding, Congressman Emanuel, of the Senate 
program or the Senate bill that they do not have the DOJ 
provisions and that, if we were going to move this quickly and 
get it into law quickly, that it may be easier without the DOJ 
provisions.
    And as I mentioned in my opening statement, I think the 
real expertise in prosecuting these things has been with State 
and local. And I really do appreciate your pushing this bill to 
begin with. I didn't realize it had been 17 years. My goodness.
    But this is a critical issue, but I wondered about that 
possibility of moving forward. Congressman Sestak has a 
provision, as I understand, might allow that part to be 
standalone so we could move forward, the House pass it, and we 
got one like the Senate, and it becomes law.
    What is your thought on that?
    Mr. Emanuel. Well, two or three things that I can bring up 
to point here.
    One is--and I will not speak for the senators, but they do 
support how we have drafted the legislation, and it happens to 
be jurisdictional, vis-a-vis over there as opposed to what we 
do here.
    Second is the National Sheriff Association supports the 
legislation as is. And they have a good take on why it requires 
that piece of it.
    Third is that--more than willing, without taking a lot of 
time with everybody, maybe my staff and your staff can sit down 
and we can see if we can work around or see if we can resolve 
some of your concerns, if not.
    I happen to think this has the right balance, in the sense 
it doesn't put Federal laws in place in sense of ex crimes, but 
it assists at the State and local level so they can actually 
pursue the cases at that level. As we said, it sets national 
standards.
    One of the things that I think, as Chairman Scott showed 
when he was a State Senator, some States are doing certain 
things. Certain States don't know whether they are falling 
behind or leading the pack. We need national standards, 
national resources, and a help on the national enforcement 
level.
    I would note--and this brings up with something that 
Congressman Johnson noted--in the prescription drug bill, there 
was a study to be done on having background checks for people 
working at nursing homes. One of the things that we called on 
is that report to be issued by CMS in the next 6 months, 
because it showed that they prevented 500 people going to get 
jobs in nursing homes who actually had a background that should 
have stopped them even from applying.
    And hopefully we can have that report issued so we can then 
make sure that all States do background checks for people 
working at nursing homes. That is not what is done there.
    And, again, I want to remind you, as I said earlier--and 
hopefully my staff will sit down with your staff so we can try 
to work through this issue--it doesn't set national laws, it 
doesn't make it a national crime, or a Federal, rather, but it 
gives the resources, the type of enforcement, and the type of 
standards that we need so, in fact, all our States and local 
law enforcements are doing the job they need to do and have the 
backing that they did.
    And as we saw on child abuse and we saw on domestic 
violence, until you do that, it will always be put to the side 
as a family issue and not the type of concern that needs to be 
brought.
    But hopefully we can work together and resolve your 
concern.
    Mr. Gohmert. Oh, and one other issue would be the criminal 
laws. That was brought up a moment ago.
    And it does seem--I mean, there is no question, even with 
someone that tries to be as constitutionally strict as I do, we 
have jurisdiction over matters in interstate commerce, and that 
includes the mail, that includes telephones, and those are 
being used to defraud our elderly.
    I was at a dialysis center and somebody came up and said 
they had an elderly person on dialysis and they would have been 
hit up for some home improvement. Stuff came in the mail. They 
got involved. And now they are paying 80 percent interest. I 
said, ``No, we have laws against that,'' and come to find out 
we didn't and we don't.
    So some usury laws, but also, if you are using the mail--
and particularly make the elderly a protected class, we may be 
able to further the criminal laws.
    Mr. Emanuel. Mr. Chairman, we will work with all due speed 
to try to resolve the concerns that the Ranking Member----
    Mr. Gohmert. Well, that may need to be a separate bill.
    Mr. Emanuel. Yes, it may be. But I know one thing: What I 
don't want to do, as just a cautionary yellow light, is passed 
an elder abuse bill that doesn't have any oomph behind it.
    And my concern is, if you don't have the Department of 
Justice in some way helping coordinate, having the office and 
the resources available, given that we talked about $8 billion 
and only less than 2 percent dedicated to this issue, I think 
we would be doing a disservice, not only to the elderly, but 
the law enforcement that is on the front line--and we would be 
actually basically, in my view, winking at a serious problem 
and not doing what we really need to do.
    And I don't--I think we can work through this. I really do. 
But I don't think you want to participate, nor do I, in one 
that really is something fake, it makes us feel good and does 
nothing to prevent the crimes or enforce them.
    Mr. Gohmert. I don't think there will be any winking.
    Mr. Emanuel. There won't.
    Mr. Gohmert. I think there will be fists in play here. So 
thank you.
    Mr. Emanuel. Well, okay, then I think then--let us help you 
get comfortable with it.
    Mr. Rothman. Mr. Chairman?
    Mr. Scott. Oh, I am sorry, excuse me.
    Mr. Emanuel. That is what happens when you bring former 
Members back.
    Mr. Rothman. I apologize and appreciate your indulgence. I 
wanted to make two points I didn't make very briefly.
    Number one, in 2000, while there were many problems of 
violence at all levels of our school system, it has only 
increased and in particular because of the prevalence of gangs. 
Gangs are now everywhere. It is not just in inner city; it is 
not any one community. Gangs are everywhere.
    And if you talk to local law enforcement, they need every 
amount of resource they can get. And when you talk to the kids, 
they are more afraid now than ever, and that is why we need to 
have these programs, so they can at least feel free from fear 
and feel safe in the school setting, so that they can not only 
be safe, but so that they can learn, because you cannot learn 
in an atmosphere of fear.
    And, finally, if I didn't make this point earlier, this is 
a local program where local law enforcement provides the 
expertise and works hand-in-glove with the school systems.
    So this is not some Federal law enforcement agency. We 
provide the resources; we provide the expertise. But in the 
end, it is local law enforcement working hand-in-glove with the 
school system, implementing these new Federal ideas with 
Federal money, with a predominance of Federal money.
    But that is one of the reasons why it is so effective: 
Federal money, local law enforcement, local school systems.
    Thank you, Mr. Chairman.
    Mr. Scott. Thank you.
    If there are no further questions, I want to thank the 
panel for your testimony. And we appreciate your being with us 
today.
    Our next panel, if they would come forward.
    Our first witness will be Mr. Robert Blancato, the national 
coordinator, Elder Justice Coalition, Washington, DC. He served 
for 6 years as President of the National Committee for the 
Prevention of Elder Abuse. He is a former House staff member, 
serving 17 years on the House Select Committee on Aging.
    He is executive director of the 1995 White House Conference 
on Aging. He has a B.A. from Georgetown University and a MBA 
from the American University.
    Our next witness will be Sherry Friedlander-Olsen, the 
founder and CEO of A Child Is Missing program. A Child Is 
Missing is a national nonprofit organization dedicated to 
assisting law enforcement in the early and safe recovery of 
missing children, the elderly, college students, and the 
disabled.
    She is actively involved in many areas of her community and 
has been distinguished in many awards, including Citizen of the 
Year in 2005 for Broward County Sheriff's Office in Florida. 
She also received the J. Edgar Hoover Humanitarian Award in 
1999 for the National Association of Police Chiefs.
    Our next witness, the gentleman from Georgia has asked to 
introduce our next witness.
    Mr. Johnson. Thank you, Mr. Chairman.
    I am proud to introduce our next witness, a fellow 
Georgian, Mr. Vernon Keenan, director of the Georgia Bureau of 
Investigation. Beginning his career in my congressional 
district, the 4th Congressional District of Georgia, Mr. Keenan 
entered law enforcement in 1972 as a uniformed police officer 
in DeKalb County, and he has made his way up the ranks, doing 
it the old-fashioned way.
    In 1973, he became a Georgia Bureau of Investigation 
special agent. And throughout his career, he has been promoted 
to every sworn rank in the agency.
    In 2003, he was appointed as the director of the Georgia 
Bureau of Investigations by Governor Sonny Perdue. And as 
director, Mr. Keenan is responsible for managing a law 
enforcement agency of close to 900 employees with a budget of 
about $90 million.
    A graduate of Valdosta State University with a bachelor of 
science degree in criminal justice, he also holds a master's 
degree in public administration from the Columbus State 
University.
    And Mr. Keenan is also a graduate of the FBI National 
Academy and Command College of the Georgia Association of 
Chiefs of Police.
    Thank you, Mr. Keenan, for joining us today, and we look 
forward to your testimony.
    And I yield back. Thank you.
    Mr. Scott. Thank you.
    Mr. Blancato?

   TESTIMONY OF ROBERT BLANCATO, NATIONAL COORDINATOR, ELDER 
               JUSTICE COALITION, WASHINGTON, DC

    Mr. Blancato. Chairman Scott, Judge Gohmert, Members of the 
Subcommittee, on behalf of the nonpartisan, 556-member Elder 
Justice Coalition, I testify today in strong support of H.R. 
1783, the ``Elder Justice Act.''
    This hearing is held during National Crime Victims' Rights 
Week. A victim of elder abuse, neglect or exploitation is a 
crime victim, but the impact is especially severe because of 
the age and the vulnerable nature of the victim.
    Our coalition salutes the strong leadership of Congressman 
Rahm Emanuel, the author of H.R. 1783, as well as Congressman 
Peter King. We note that 12 of the 135 co-sponsors of the bill 
are Members of the Judiciary Committee, including Subcommittee 
Members Mr. Johnson and Ms. Baldwin.
    Passage of H.R. 1783 is long overdue. The bill is 
necessitated by the combination of a growing national problem 
and an anemic Federal response to the problem.
    Elder abuse takes on many forms, including physical, 
emotional, sexual and financial. The common thread involving 
elder abuse is that it involves one or more persons 
establishing and then violating a trust relationship with a 
vulnerable older person.
    National data on elder abuse provides some disturbing 
present-day realities and future trends. According to the 
National Center on Elder Abuse, each year between 1 million and 
2 million Americans 65 and over have been injured, exploited, 
or otherwise mistreated by someone on whom they depended for 
care or protection.
    For every case of elder abuse, at least five more go 
unreported. Another 20,000 cases of abuse in nursing homes were 
reported by State Long-Term Care Ombudsman program.
    Among perpetrators of elder abuse, as has been noted, 80 
percent were either a family member of or in an ongoing 
relationship with the victim. According to the Department of 
Justice, crime victims 65 and over lost a total of $1.3 billion 
due to personal and property crimes in 2005, including Internet 
fraud.
    Finally, the average elder abuse victim is an older woman 
in her upper 70's living alone. Today, 48 percent of all women 
75 and over now live alone.
    As striking as national data may be, elder abuse happens 
locally. We review news articles from the States where the 
Members of this Subcommittee reside and found a total of 67 
articles in just the month of March regarding elder abuse. And 
they have been submitted for the record.
    The Elder Justice Act has been proposed in each of the last 
few congresses. It always has enjoyed significant bipartisan 
support. It has passed the Senate Finance Committee on two 
occasions. And a small provision of the act dealing with data 
collection was actually included in public law in the 109th 
Congress.
    The Elder Justice Act also served to promote changes in the 
Older Americans Act, when Congress broadened in 2006 the role 
of the administration on aging related to elder justice and 
elder abuse, including the coordination of elder justice 
activities.
    H.R. 1783 includes, among its key provisions, the first-
ever dedicated Federal funding for Adult Protective Services, 
the critical program in every State that assists victims and 
works with law enforcement.
    It provides improved APS training and investigations 
through Federal coordination and demonstration grants from the 
Department of Health and Human Services and provide grants to 
improve ombudsman capacity, conduct pilots, provide support, 
and improve training.
    It also contains provisions related to law enforcement and 
the Department of Justice, as has been noted, including forming 
an Elder Justice Coordinating Council and an advisory board to 
that to foster coordination throughout the Federal Government 
on elder abuse. And law enforcement would be represented in 
both these commission.
    Grants would be provided for mobile and stationary forensic 
centers to help develop better expertise on elder abuse and 
exploitation. Adult Protective Services grants would interface 
with law enforcement when abuse is found.
    A national training institute for surveyors of long-term 
care facilities would be established in the bill.
    And very importantly, since it has come up some times this 
morning, immediate reporting of crimes in nursing homes to law 
enforcement is called for in this bill.
    There are also important grant programs, including those 
that review model State laws and practices, provide victims 
advocacy grants for law enforcement training, support for 
local, State and Federal prosecutors, and specialized training 
for law enforcement in the case of elder abuse.
    H.R. 1783 makes elder abuse prevention a higher priority in 
the Department of Justice. The grants that are proposed are 
sound investments.
    There must be a level of shared responsibility in elder 
abuse prevention. Older people need to be more vigilant to 
protect themselves and their assets. We must remember that all 
seniors do not have equal capacity to manage their financial 
resources. Where assistance is needed, we need to ensure 
maximum reasonable decision-making for vulnerable seniors whose 
resources are at stake.
    The shared responsibility for protecting the Nation's 
elders against abuse must extend to the Federal Government. Our 
current policy of directing paltry sums in a piecemeal fashion 
is not the answer.
    A comprehensive and effective approach, as embodied in the 
Elder Justice Act, is the way we need to go. As the number of 
older people increase in our Nation, so does the potential for 
more elder abuse.
    We have an opportunity to get ahead of the curve. We ask 
you to report out H.R. 1783 so we can get one step closer to it 
becoming public law this year.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Blancato follows:]
                 Prepared Statement of Robert Blancato
    Chairman Scott and Members of the Subcommittee, on behalf of the 
nonpartisan 556 member Elder Justice Coalition, I appreciate the 
invitation to testify today regarding H.R. 1783, the Elder Justice Act. 
The coalition commends this subcommittee for holding this hearing. We 
hope it proves to be a catalyst for passing this worthwhile legislation 
in the House. We especially thank you for holding this hearing during 
National Crime Victims' Rights Week. A victim of elder abuse, neglect, 
or exploitation is a victim of a crime, but the impact of these crimes 
is especially severe because of the age and vulnerable nature of the 
victim. Frankly, Mr. Chairman, we need more than a designated week to 
address a daily national disgrace.
    The Elder Justice Coalition also commends Representatives Rahm 
Emanuel (D-IL) and Rep. Peter King (R-NY), the co-authors of the Elder 
Justice Act. They have been longstanding champions of this legislation. 
We also salute the 105 co-sponsors of the bill, including the following 
Members from the Judiciary Committee: Representative Baldwin, 
Representative Berman, Representative Boucher, Representative Cohen, 
Representative Delahunt, Representative Johnson, Representative 
Lofgren, Representative Sanchez, Representative Sutton, Representative 
Wasserman Schultz, Representative Weiner, and Representative Wexler.
    H.R. 1783 addresses elder abuse, neglect, and exploitation and its 
passage is long overdue. The legislation is necessitated by the 
combination of a growing national problem and an anemic federal 
response to the problem.
    Elder abuse is a multifaceted issue. The abuse takes on many forms, 
including physical, emotional, sexual, and financial. The common thread 
involving elder abuse is that it involves one or more persons 
establishing and then violating a trust relationship with a vulnerable 
older person.
    National data related to elder abuse provides some disturbing 
present-day realities and future trends:

        <bullet>  According to the National Center on Elder Abuse 2005 
        fact sheet: Best available estimates are each year between 1 
        and 2 million Americans age 65 and over have been injured, 
        exploited or otherwise mistreated by someone on whom they 
        depended for care or protection.

        <bullet>  For every one case of elder abuse, neglect, 
        exploitation or self-neglect reported to authorities, at least 
        five more go unreported. As a result, the Senate Special 
        Committee on Aging has estimated the number of elder abuse 
        cases nationally at more than 5 million.

        <bullet>  A 2004 survey of Adult Protective Service agencies 
        revealed a 19.7 percent increase in the combined total of 
        reports of elder and vulnerable adult abuse and a 15.6 percent 
        increase in substantiated cases since 2000.

        <bullet>  Overall, APS agencies received more than 556,000 
        reports of suspected elder abuse in 2004.

        <bullet>  Another 20,000 cases of abuse in nursing homes were 
        reported by State Long-Term Care Ombudsman Programs. It should 
        be noted that this is only one of several possible reporting 
        sources, suggesting the number of nursing home abuse cases may 
        be considerably higher.

        <bullet>  Of a group of more than 190,000 substantiated cases 
        of elder abuse reported to APS, the two highest forms were 
        caregiver neglect and financial exploitation.

        <bullet>  Among perpetrators of elder abuse, 80% were either a 
        family member of or in an ongoing relationship with the victim.

        <bullet>  According to the Department of Justice Office of 
        Victims of Crime, crime victims 65 and over lost a total of 
        $1.3 billion due to personal and property crimes in 2005, 
        including internet fraud complaints. The median loss for those 
        60 and over was $866, higher than any other age group.

        <bullet>  The average victim of elder abuse, according to 
        various studies, is an older woman in her upper 70's living 
        alone. According to the most recent Profile of Older Americans 
        issued by the Administration on Aging, 48 percent of all women 
        75 and over now live alone. Sadly, data is lacking regarding 
        abuse across race, religion, ethnicity and the diversity of 
        other elderly sub-population groups.

        <bullet>  Earlier studies pointed to the fact that as much as 
        70 percent of the wealth in our nation is controlled by persons 
        50 and over, a trend which will continue at the same time as 
        elder financial abuse is one of the fastest rising forms of 
        elder abuse.

    Perhaps the most graphic impact of elder abuse can be found in the 
text of a study by Dr. Mark Lachs entitled ``The Mortality of Elder 
Mistreatment.'' The study looked at 176 older persons over a 13 year 
period and found that those who were reported to APS for elder 
mistreatment had a 9% survival rate over that time period vs. a 40% 
survival rate for the persons not so reported, adjusted for disease, 
cognitive status and several other factors.
    As striking as the national data may be, elder abuse, neglect, and 
exploitation are intensely local issues as well. One of the better 
sources of information that we use to track elder abuse cases is the 
newsfeed provided as a service by the National Center on Elder Abuse. 
In preparation for this hearing, we reviewed articles from the States 
where the Members of this Subcommittee reside and found a total of 67 
articles in just the month of March regarding abuse. A complete list of 
these articles is included as an attachment. The problem is a local, 
state, and national one. The solution must involve all three entities. 
In fact, that is the strength of the Elder Justice Act, which helps 
coordinate and fund programs but also enables states and local 
communities to run programs that best serve their needs.
    The Elder Justice Act has been proposed in each of the last few 
Congresses. It is legislation which has always, and still does, enjoy 
significant bi-partisan support. It is legislation that has passed the 
Senate Finance Committee on two occasions, and in the 109th Congress a 
very small provision of the EJA dealing with data collection was passed 
and signed into law. The Elder Justice Act also served as a catalyst 
for changes that were made to the Older Americans Act of 2006, in which 
Congress broadened the role of the Administration on Aging related to 
elder justice and elder abuse, including the coordination of elder 
justice activities.
    However the fact remains that of all the federal funds spent on 
abuse prevention, less than 2 percent is spent on elder abuse, despite 
the national increase in the number of cases. Many states opt to use 
some of their Social Services Block Grant funds to support APS, but the 
amount used for APS varies dramatically from state to state and 
fluctuates as states adjust their SSBG expenditures to deal with cuts 
in social services and other priorities. Moreover, the SSBG has 
incurred more than $1billion in funding cuts over the past number of 
years and the president's budget proposes even deeper cuts to SSBG. A 
dedicated federal funding stream for Adult Protective Services is 
urgently needed in order to protect the lives and financial well-being 
of the rapidly increasing number of older citizens vulnerable to abuse, 
neglect, and exploitation.
    H.R. 1783 includes among its key provisions:

        1.  Provide the first ever dedicated federal funding for adult 
        protective services--the critical program in every state that 
        assists victims and works with law enforcement.

        2.  Provide improved APS training and investigations through 
        federal coordination and demonstration grants from HHS.

        3.  Provide grants to improve ombudsman capacity, conduct 
        pilots, provide support, and improve training.

        4.  Require immediate reporting to law enforcement of crimes in 
        a long-term care facility and provide better consumer 
        information on Nursing Home Compare.

        5.  Create a National Training Institute for Surveyors of long-
        term care facilities.

        6.  Establish an Elder Justice Coordinating Council to foster 
        coordination throughout the federal government on elder abuse 
        topics and an Advisory Board to the Coordinating Council made 
        up of experts on elder abuse, neglect, and exploitation.

    It also contains important provisions under the jurisdiction of 
this Committee. This includes requiring the Attorney General to invest 
through grants in improved training, policy development, and other 
types of support to state and local prosecutors handling elder abuse 
cases, as well as retaining additional Federal prosecutors and nurse 
investigators needed to assist with elder abuse cases. The bill would 
also permit the Attorney General to fund a resource group to assist 
prosecutors nationwide with respect to elder justice matters.
    In addition to the need for greater reporting of elder abuse is the 
need for greater prosecutions of these cases once reported. Victims of 
elder abuse are crime victims. They can suffer physical harm or 
tremendous loss of needed financial resources. Our criminal justice 
system needs to be aggressive in bringing those who commit elder abuse 
to justice and H.R. 1783 can help make that a reality. Current laws and 
policies of the Department of Justice are not sufficiently elder abuse 
sensitive and H.R. 1783 would make elder abuse prevention a more 
distinct priority in DOJ.
    In addition, H.R. 1783 would require the Attorney General to award 
grants to provide training, technical assistance, and other types of 
support to police and other front-line law enforcement personnel 
handling elder abuse cases. Again, the point is to recognize the 
critical role that law enforcement must play in elder abuse prevention. 
Unless training is provided throughout the system from adult protective 
services to law enforcement to prosecutors, we will never improve upon 
our efforts to combat and prosecute those who commit elder abuse as 
well as prevent future victimization.
    Further, H.R. 1783 would place responsibilities with the Department 
of Justice to work to help achieve a coordinated federal response to 
elder justice, evaluate effective state laws, provide recommendations, 
and conduct evaluations of all new programs authorized under this 
legislation.
    Finally, the bill makes grants to establish and operate stationary 
and mobile forensic centers to develop forensic expertise on elder 
abuse and to assist in making winnable cases against perpetrators.
    Elder abuse prevention is an issue where the resources of the 
Department of Justice are needed. At the local level, it has been 
determined over and over again that a multi-disciplinary team approach 
works best in elder abuse prevention. This means involving the APS, 
social services, law enforcement, health, and other sectors in the 
effort. Grants that foster better trained multi-disciplinary responses 
are sound investments.
    There must be a level of shared responsibility in elder abuse 
prevention. Older people need to be more vigilant to protect themselves 
and their assets. For the record, some of the common tips include:

        <bullet>  Use Direct Deposit for your checks.

        <bullet>  Don't sign blank checks allowing another person to 
        fill in the amount.

        <bullet>  Don't leave money or valuables in plain sight.

        <bullet>  Don't sign anything you don't understand.

        <bullet>  Protect your money. The bank may be able to protect 
        your money by arranging your accounts to control access to your 
        funds.

        <bullet>  Be aware of scams. If it sounds too good to be true, 
        it probably is.

        <bullet>  Don't give anyone your ATM PIN number, and cancel 
        your ATM card immediately if it is stolen.

        <bullet>  Check your bank statements carefully for unauthorized 
        withdrawals.

        <bullet>  Be cautious of joint accounts.

        <bullet>  Build good relationships with the professionals who 
        handle your money.

    Finally, we must remember that all seniors do not have equal 
capacity to manage their financial resources. Where assistance is 
needed, ensure maximum reasonable decision-making for vulnerable 
seniors whose resources are at stake.
    In conclusion, the shared responsibility for protecting the 
nation's elders must finally be extended to the federal response to 
elder abuse. Our current policy of directing paltry sums in a piecemeal 
fashion is not the answer. A comprehensive and effective approach as 
embodied in the Elder Justice Act is the way we need to go. The Elder 
Justice Coalition strongly urges the enactment of the Elder Justice Act 
this year.
    Thank you Mr. Chairman.
                               __________

                               ATTACHMENT

The Elder Justice Coalition: 556 members 4/17/08
        *Denotes Elder Justice Coalition Coordinating Committee

Organizational Members: 229

*National Committee for the Prevention of Elder Abuse
*National Academy of Elder Law Attorneys
*National Association of State Units on Aging
*National Adult Protective Services Association
*National Association of State Long-Term Care Ombudsman Programs
*AARP
Adams County Social Services Department, CO
Adult Abuse Coalition of South Central Tennessee, TN
Adult Guardianship Services, OH
Adult Protective Services, Sacramento, CA
Adult Protective Services, San Francisco, CA
Advocates for National Guardianship Ethics and Reform
Aging Solutions
Alabama Dept. of Senior Services
Alabama Long-Term Care Ombudsman
Alaska State Office of the Long-Term Care Ombudsman
Alliance for Better Long Term Care
Alliance for Quality Nursing Home Care
Alliance of Retired Americans
American Art Therapy Association
Alzheimer's Association
*American Association of Homes and Services for the Aging
American Association for Single People
American Geriatrics Society
*American Health Care Association
American Psychological Association
Americans for Better Care of the Dying
American Society on Aging
Area Agency on Aging, Region One, Phoenix, AZ
Arlington AAA, Arlington, VA
Arizona Elder Abuse Coalition
Arlington Steering Committee for Services to Older Persons
Arkansas Advocates For Nursing Home Residents
Assisted Living Federation of America
Association for Protection of the Elderly
Association for Protection of the Elderly--PA Chapter
Association for Protection of the Elderly--West Coast Chapter
Bay Area Agency on Aging, Inc.
Benjamin Rose Institute, Cleveland, OH
Billings Chapter of NCPEA, Montana
Brookdale Center on Aging of Hunter College
Burden Center for the Aging
California Medical Training Center, UC Davis
Catholic Charities of the Archdiocese of St. Paul & Minneapolis
Catholic Charities Health and Human Services, Cleveland, Ohio
Center for Advocacy for the Rights and Interests of the Elderly
Center on Aging & Disabilities--University of Miami, FL
Center for a Just Society
Center for Medicare Advocacy, Inc.
Center for Social Gerontology
Central PA Critical Jobs Training
Chatham County S.A.L.T. (Seniors And Law enforcement Together), GA
Citizens for Better Care
Coalition of Wisconsin Aging Groups & the Elder Law Center
Coastline Elderly Services, Inc.
Cochise County, Arizona, Elder Abuse Task Force
College of Professional Mediation, Puerto Rico
Collier County S.A.L.T. (Seniors And Law enforcement Together) Council, 
    FL
Consumer Consortium for Assisted Living
Council on Aging--Orange County
Council of Senior Centers and Services of New York
County Welfare Directors Association of California
Crater District Area Agency on Aging, VA
District of Columbia Long-Term Care Ombudsman Office
Disability, Abuse and Personal Rights Project
Elder Abuse Institute of Maine
Eldercare America
ElderCare Rights Alliance
Elder Financial Protection Network
Elder Law of Michigan
Elder Law Offices of Mitchell A. Karasov, CA
Elder Law Practice of Timothy Takacs, TN
Family Research Council
Foundation for Senior Living
Gallatin County Attorney's Office, TN
Gary Jones Association, NE
General Federation of Women's Clubs
Georgia Division of Aging Services
Georgia Office of the State Long-Term Care Ombudsman
Gerontological Society of America
Governor's Commission on Senior Services, OR
Gray Panthers
Greater Cleveland Elder Abuse/Domestic Violence Roundtable
Hawaii State Long-Term Care Ombudsman Program
Heart and Hand, Inc.
Home Instead Senior Care, Inc.
Hospice Patients Alliance
Idaho State Long-Term Care Ombudsman Program
Institute on Aging
Institute for Caregiver Education, PA
Institute of Gerontology at the University of Louisiana at Monroe
International Association of Forensic Nurses
International Cemetery and Funeral Association
International Longevity Center
Joint Public Affairs Committee for Older Adults, NY
Kansas Advocates for Better Care
Kansas Area Agencies on Aging Association
Kalamazoo County Advocates for Senior Issues
Kentucky Office of the State Long-Term Care Ombudsman
Lawyers for Elder Abuse Prevention, NY
Lee County Sheriff's Office, Fort Myers, FL
Lifecycles, MT
LIFESPAN, NY
Los Angeles City Attorney's Office
Louisiana Association of Councils on Aging
Louisiana Geriatrics Society
Louisiana Long-Term Care Ombudsman Program
Lucas County (Ohio) Prosecutor's Office
Maine Long-Term Care Ombudsman Program
Margate Police Department, FL
Maricopa Elder Abuse Prevention Alliance, AZ
Massachusetts Long-Term Care Ombudsman Program
Meals on Wheels Association
MedAmerica Insurance Company
Mendocino County DHHS, CA
Member of the Family
Metropolitan Crime Commission of Jackson, MS
Michigan Campaign for Quality Care
Michigan Office of the State Long Term Care Ombudsman
Missouri Advocates For The Elderly
Napa County Health and Human Services Agency, CA
National Adult Day Services Association
National Association of Area Agencies on Aging
National Association of Counties
National Association of Directors of Nursing Home Administration in 
    Long Term Care
National Association of Legal Services Developers
National Association of Local Long Term Care Ombudsmen
National Association of Nutrition and Aging Service Programs
National Association of Orthopedic Nurses
National Association of Professional Geriatric Care Managers
National Association of Senior Legal Help lines
National Association of Social Workers
National Clearinghouse on Abuse in Later Life
National Caucus and Center on Black Aged, Inc.
National Citizens' Coalition for Nursing Home Reform
National Committee to Preserve Social Security and Medicare
*National Council on Aging
National Council on Child Abuse & Family Violence
National Education Association--Retired
National Family Caregivers Association
National Funeral Directors Association
National Guardianship Association
National Hispanic Council on Aging
National Indian Council on Aging
National Senior Citizens Law Center
National Silver Haired Congress
Nebraska State Long-Term Care Ombudsman Program
Nevada State Long-Term Care Ombudsman Program
Nevada County (California) Department of Adult & Family Services
New Britain Area Seniors, CT
New Hampshire Long-Term Care Ombudsman Program
New Mexico Guardianship Association
New Mexico State Agency on Aging
New Mexico State Long Term Care Ombudsman Program
New York Citizens' Committee on Aging
New York City Department for the Aging
New York Foundation for Senior Citizens Guardian Services
New York State Coalition on Elder Abuse
New York State Society on Aging
Northeastern Illinois Area Agency on Aging
Northern Area Agency of Aging, WI
Northern Virginia Long-Term Care Ombudsman Programs
Nursing Home Monitors
Office of Ombudsman for Older Minnesotans
Ohio Association of Probate Judges
Ohio Association of Regional Long-Term Care Ombudsman
Ohio Coalition for Adult Protective Services
Ohio Office of the State Long-Term Care Ombudsman
Older and Disabled Adult Services/Solano County Health and Social 
    Services
Older Women's League
Ombudsman for Older Minnesotans
Oneida County Elder Abuse Coalition, NY
Orange County Vulnerable Adult Specialist Team, CA
Palm Beach County Courthouse, FL
Pennsylvania Coalition Against Rape
Philadelphia Corporation for Aging (AAA), PA
Pima Council on Aging, AZ
Pinal County Attorney's Office, AZ
Pinal County Public Fiduciary, AZ
Pinal-Gila Elder Abuse Specialist Team, AZ
Police Executive Research Forum
Rhode Island Office of the State Long-Term Care Ombudsman
Riverside County Office on Aging, CA
Rockdale County Adult Protective Services, GA
San Francisco Consortium for Elder Abuse Prevention
San Francisco Department of Aging and Adult Services
San Francisco Department of Human Services
Santa Clara County Department of Aging and Adult Services
Senior & Adult Services of Cuyahoga County, OH
Senior Citizens, Inc., TN
Senior Protective Ministry
SeniorLAW Center, PA
Seniors 'N Sync, LLC, VA
SLTCO of Iowa
SOLACE
Sonoma County Area Agency on Aging, CA
Stanislaus County Adult Services Advisory Committee, CA
Stanislaus County Community Services Agency, CA
Stanislaus Elder Abuse Prevention Alliance, CA
Stop Family Violence, NY
Suburban Area Agency on Aging, IL
Tanana Chiefs Conference
Texas Dept. of Family & Protective Services
Texas Elder Abuse and Mistreatment Institute
Texas Office of the State Long Term Care Ombudsman
The Alliance for Retired Americans, DC
The Burden Center for the Aging, NY
The Center for Social Gerontology, Inc.
The Long Term Ombudsman Council of Broward County, FL
TRIAD
United Jewish Appeal Federation of New York
United Jewish Communities
Upstate Medical University Binghamton Clinical Campus CARES Project, NY
Ventura Adult Abuse Prevention Council, CA
Vermont Ombudsman Project
Virginia Coalition on Aging
Virginia Elder Rights Coalition
Virginia Hospital Center
Virginia Office of the State Long-Term Care Ombudsman
Washington County, Oregon Elder Abuse MDT
Washington State Long-Term Care Ombudsman Program
Wellspring Personal Care
Western Montana Chapter for the Prevention of Elder Abuse
Western Reserve Area Agency on Aging, OH
Wider Opportunities for Women
Wisconsin Association of Area Agencies on Aging
Wisconsin Board on Aging and Long Term Care
Wisconsin Social Services Association
WordBridges
Wyoming Dept of Health/Aging Division

Individual Members: 325

Pamela Aalderink
Sarah Albert
Nancy Alterio
Debbie Armstrong
Georgia Anetzberger
Ben Antinori
Moya Atkinson
John Attwood
Susan Aziz
Nora J. Baladerian, Ph.D.
Shantha Balaswamy (OH)
Dave Baldridge
Doris Ball
Rick Barry
Cheryl Bartholomew (VA)
Virginia Bell
Bill Belzner
Brenda Bensman
Louis Blancato, MD
Bennett Blum, MD
Patricia Bomba, MD
Sybil Boutilier (CA)
Betty Bowers
Karen Buck
Jamie Buckmaster (CA)
Kelly Bradford
Bonnie Brandl
Michelle Brannon
Sarah Briggs
Sharon Brigner
Bernadine Brooks
Richard Browdie
Dr. Patricia Brownell
Karen C. Buck
Mark I. Burnstein, MD
Tracey E. Burnstein, MS, HSA
Bobbi Butler
Gordon Butler
Paul Caccamise (NY)
Stephanie Carr
Richard Carriere
Ashley Carson
Susan Castano
Curtis B. Clark, MD
Kathy Cilley-Wagner
Patricia Ciripompa
Ruth Coberly (CO)
Laura Stewart Cockman
Walter Coffey
Joshua Cohen
Valarie Colmore
Ken Connor
Michael Cottone
Loree Cook-Daniels
Mary Counihan
Ed Coyle
Dr. Lawrence Cranberg
Susan Crone
Kathy Cubit
Neely Dahl
Sophia Dalle
Carol Dayton, ACSW, LISW
Alice Deak
Domingo Delgado
Joyce DeMonnin
Annette DePauli (CA)
Farrell Didio
Alison Dieter (TX)
Maggie Donahue
Judith Dorsett
Jennifer Duft
Joy Duke
Susan Emmer
Susan Era
Diane Fassel
Bob Fells
Susan Ferlauto
Mara Ferris (NH)
Elizabeth Figueroa, CSW, MPA
Marcella Fierro, MD
Rich Fiesta
Jim Firman
Ivy Firouztale
Marta Fontaine (MO)
Janet Forlini
Robert Franz
Iris Freeman
David Gammill
Oscar Garcia
Manuel Garcia
Barbara Gay
Lori Gerber
Stanley M. Giannet, Ph.D.
Pasquale Gilberto
Robert Goldberg
Gary Gotham
AC Graber (WA)
Rebecca Gray (NC)
Sasha Greene
Marsha Greenfield
Paul Greenwood
Stanley Habib
A. Ricker Hamilton
Cathy Hart
Roberta Hawkins
Alice Hayes
Marshall Hayes
Meg Heap
June Hebb
Jonathan Heller
Jayd Hendricks
Gema Hernandez
Fay Hewitt M.S.W.
Donna Hicks
Alison Hirschel
Bonnie Hogue
Katrina Hotrum
Peg Horan
Ann Howard
Laura Howard
Sam Hubbard
Joan Hurdle, RN (VT)
Kary Hyre
Kathryn Ieada, CPA
Paula Inglese
Peggy Ingram
Dale Jackson
Tim Jackson
Michelle Jacobs
Mary Charlene Johns
Patricia Johnson
Gilda Johnstone
Rene Jones
Tom Joseph
Alecia Juber
Cindy Kadavy
Mitchell Karasov
Dale Kassan
Norm Katz
Linda Keegan
Kathleen Kelso
John Paul Kenney (MD)
Richard Keys
Steffanie Keys
Joanne Keyston
Anne Kincaid
Valerie King
Violet King
Kathy Klatzke
Amy Knight (TN)
Diana Koin
Lynn Koontz
Elaine Korthals
Linda Kretz
Catherine Kruger
Becky Kurtz
Janice Langford (FL)
Tom Laughlin
Dr. Tomas Larrieux
Jon Lavin
Debi Lee
David Leopard
Vickijo Letchworth
Nina Levigne
Bryan Liang
Carol J. Lieske
Brian Lindberg
Karin Linenberger
Elizabeth Loewy
Janet Lombard
Karen Love
Rebecca Ludens
Nadine Lujan
Jack Mack
Jackie Majoros
Beatrice A. Maloney, CSW
Sandy Markwood
Irene Masiello
Art Mason
Margaret S. McCarthy
George E. McClane
Marcy McCrumb
John McDermott
Mary McKenna
Winnie McLin
Kate McWhinney
Melissa Medick
Jennifer Merck
Carol Merlini
Nina Merer
Kathy Miller
Robert D. Miller
Patty Mitchell
Paula Mixson
Lu Molberg
Ricker Mooers
Ailee Moon, Ph.D.
Paula Moreau
Gary Morgan
Rebecca Morgan
Cal Morken
Scott Morken
Debra Morrow, MSW (CA)
Laura Mosqueda, MD
Michael Munson
Mary Brugger Murphy
Chris Nelson
Rudy Norris
Jim Nyberg
Jeanne O'Brien
Nora O'Brien
Joanne Otto
Mark Pafford (FL)
Lisabeth Passalis-Bain
Brian K. Payne, Ph.D.
Stacey Payne
Roxanne Perales
Noel Peters
Crystal Peterson
Jeanne Pici
Les Plooster
Martha Plotkin
Dianna Porter
George Potaracke
Mebane Powell
Laura Prohov
Ron Proudfoot
Kathleen Quinn
Mary Joy Quinn
Dan Quirk
Jane Raymond
Jo Reed
Kimberly Reed
Lisa Reid
Sandy Reynolds
Betty Rhodes
Esther L. Aguila Rivera
Erin Rock
Emily Ross
Alfred Rotondaro
Kathy Rotondaro
Mary Martha Rugg
Brenda Russell
Charlie Sabatino
Francine T. Saccio, ACSW
EJ Santos
Kristin Schaer RN, MSN
Frank Schersing
Ellen Schmeding (CA)
Sarah Schram
Gail Schultz
Rita Schumacher
Carol Scott
Patti Seager
April Seitz
Edward Sheehy
Daniel J. Sheridan, PhD, RN
Jean Sherman, Ed.D.RN
Mark Sherman
Mike Shetka, LCSW (CA)
Chris Shoemaker
Cynthia Shott
Rob Shotwell
Denise Shukoff
Richard Sicchio
Stephen J. Silverberg, JD
Sarah Slocum
Linda Smith (TN)
Donny Smith
Lori Smith
Monica Smith (WI)
Kaja Snell
Matt Socknat
Susan Somers
Joseph Soos
Helen Spencer
Gail Spessert
Ruth Spinale
Pat Stanis
Dennis Steele
Lori Stiegel
Terry Stone
Patricia Storch, J.D.
Sandy Storherr
Sara Strope
Donald Sullivan
Sandra Sullivan
Erika Taylor
Grady Tarbutton
Dorothy Thomas
Natalie Thomas
Randolph W. Thomas
Robert Tiller
Brenda Toline, R.N., B.S.N.
Marie Tomlin
Luci Ungar
Catherine Valcourt
Elaine Wadsworth
Andre Waguespack
Joy Ann von Wahlde, Attorney
Bessie Walker (KS)
Debra Wanser
Sarah Warnke
Dawn Washington
Linda L. Watts
Eric Weakly
Patti West
Teresa Baisley Webb (CA)
Jane Weinheimer
Jim Weiser
Janet Wells
Rebecka Westerfors
Robin Cohen Westmiller
Marilyn Whalen
Larry White
Megan Wiley (VA)
Shayne Wilks
Pamela Williams
Karen Wilson
Genevieve Wood
Carol Woodcock
Jacquie Woodruff
Aileen Worrell
Mitzi Wortman
Jim Wright
Ann Yom
Diane Zielinski

                    Elder Abuse Cases/News Articles

                               March 2008

New York (Rep. Weiner, Rep. Nadler)

`` `Pals' Scam 78-year-old Harlem woman out of $15M Fortune''
  --http://tinyurl.com/ywayns

``Travel and Tour Operator Accused of Preying on Senior Citizens''
  --http://tinyurl.com/yqmtu3

``Require Reporting of Elder Abuse''
  --http://tinyurl.com/yqouq5

``Inside an Animal Hoarder's House''
  --http://tinyurl.com/2tzc6c

``Six Civil Servants will be honors''
  --http://tinyurl.com/2yf23w

``New Scam Targets Elderly in Brooklyn''
  --http://tinyurl.com/2xtubf

``Congress and Albany must protect elders''
  --http://tinyurl.com/224ym8

``3 in Yates County jailed for photographing mentally handicapped 
    Person''
  --http://tinyurl.com/3xpmj2

``Family sues Blossom South Nursing Home''
  --http://tinyurl.com/36f22b

``NY Report signals need to address Elder Abuse''
  --http://tinyurl.com/27bn4o

``I-Team 10 Investigates: Livonia Man Accused of Bilking Elderly 
    Women''
  --http://tinyurl.com/363gay

``Eden Park Nursing Home Cited Again for Deficiencies''
  --http://tinyurl.com/3d62wf


Texas (Rep. Jackson Lee, Rep. Gohmert)


``Family Law councils Advocate for Relatives in Nursing Homes''
  --http://tinyurl.com/389nlf

``Woman pleads not guilty to injury to elderly individual indictments''
  --http://tinyurl.com/39mfuw

``Family Reacts to Elderly Abuse Conviction''
  --http://www.ksat.com/news/15570254/detail.html

``Ex-Nursing Home Exec Guilty of Fraud''
  --http://www.chron.com/disp/story.mpl/ap/tx/5602630.html

``Caretakers admits slapping elderly woman''
  --http://www.ksat.com/news/15531198/detail.html

``APS honors three west Texans''
  --http://www.cbs7.com/news/details.asp?ID=5074


North Carolina (Rep. Coble)


``State to Report all deaths at mental health facilities''
  --http://ww.wral.com/news/state/story/2635209/

``Justice often slow for Elder Crimes''
  --http://newsobserver.com/news/story/991319.html

``Dunmore Grandmother alleges Elder Abuse by Grandsons''
  --http://tinyurl.com/2mnwqe

``It's like Open Season on Seniors''
  --http://tinyurl.com/2ywhkv


Virginia (Rep. Scott)


``Sex Assault Charges Certified Against Adult Day Care Worker''
  --http://tinyurl.com/2y72mt

``Patient Advocate Makes Sure Seniors are Heard''
  --http://tinyurl.com/33q735

``Injunction Expanded in Elder Abuse Lawsuit''
  --http://tinyurl.com/25jvmx

``Gretna Man Sues Daughter''
  --http://tinyurl.com/2f4rh6


California (Rep. Waters, Rep. Lungren)

``Ex-Patton Employee Charged''
  --http://www.sbsun.com/sanbernardino/ci_8737553

``Panel Approves Wolk Bill to Increase Reporting Elder Abuse''
  --http://www.californiachronicle.com/articles/56606

``Pair Swindles Thousands from Elderly Woman''
  --http://www.sacbee.com/101/story/810057.html

``Mental Health Patients turn to clinics''
  --http://tinyurl.com/3e2ogk

``Officials deciding fate of filthy OC house''
  --http://knbc.com/news/15683087/detail.html

``Mill Valley Caregiver Accused of throwing dying man's dog''
  --http://www.marinij.com/ci_8657028

``Suit Filed, 7 arrested in Mortgage Fraud Ring''
  --http://www.montereyherald.com/business/ci_8623095

``Seniors targeted in Scams''
  --http://www.modbee.com/business/story/240380.html

``Martinez Nursing Home Comes under Federal Scrutiny''
  --http://winyurl.com/3a5sva

``Antioch Man Arrested for beating his 78-year-old mom''
  --http://www.insidebayarea.com/localnews/ci_8540724

``Fraud Case Postponed''
  --http://thereporter.com/news/ci_8544333

``Woman Sues After Arsenic Death''
  --http://ww.fresnobee.com/263/story/458132.html

``Ashburn's Caregiver Background Checks Bill passes legislature, now 
    goes to the governor''
  --http://www.californiachronical.com/articles/54909

``Caregiver gets 3 months for videotaped assault''
  --http://tinyurl.com/23p67c

``Officials to discuss filthy Villa Park Home''
  --http://tinyurl.com/274pgy

``Deputies find mentally disabled adults in cockroach-infested house''
  --http://tinyurl.com/2vjhe4

``Whittier Man convicted in Fatal Beating of Father''
  --http://www.whittierdailynews.com/news/ci_8482005

``Nurse facing 10 years in federal prison for Medicare Fraud''
  --http://www.mercurynews.com/breakingnews/ci_8462331

``State Fines Nursing Homes $100,000''
  --http://www.modbee.com/local/story/229305.html

``Man accused of Scam Targeted at Elderly Arrested''
  --http://nbc11.com/news/15457283.detail.html

``Son Investigated for Elder Abuse in Filthy House Case''
  --http://tinyurl.com/3xxef7


Alabama (Rep. Davis)


``Cuts to DHR Could Eliminate Vital Adult Care Services''
  --http://tinyurl.com2tyaod

``SEC Chariman discusses scams targeting seniors''
  --http://tinyurl.com/39cm36

``Police: Scammer Targeting Elderly''
  --http://tinyurl.com/2jy9g8


Massachusetts (Rep. Delahunt)


``Arraignment set for Brockton elderly abuse suspect''
  --http://tinyurl.com/yvpqdv

``Police, Fire, Senior Care Advocates part of `Traid' ''
  --http://tinyurl.com/2rf8le

``Seniors Warned about new tax rebate scam''
  --http://www.metrowestdailynews.com/state/x1379332448

``Methuen Man Charged with Sexual Assault of Retarded Relative''
  --http://tinyurl.com/378gmf


Georgia (Rep. Johnson)


``DHR urges you to report Elder Abuse''
  --http://tinyurl.com/3sqvrd

``Sales Tactics can put Seniors at Disadvantage''
  --http://tinyurl.com/yvf8db

``Nursing Home Employee Charged with Sodomy''
  --http://tinyurl.com/2g3esg

``Police: Elderly Cobb Man Killed Wife, Shot Himself''
  --http://tinyurl.com/2n59bt

``Elderly woman accused of stocking up on painkillers''
  --http://www.wsbtv.com/news/15478087/detail.html


Wisconsin (Rep. Baldwin, Rep. Sensenbrenner, Jr.)


``Waupun man charged with abusing elderly mother''
  --http://tinyurl.com/28p794

``Nursing Home sued over 2005 death''
  --http://jsonline.com/story/index.aspx?id=723313


Ohio (Rep. Sutton, Rep. Chabot)


``Woman gets 1 year in prison''
  --http://tinyurl.com/2dco2a

``Mansfield Police Arrest Suspect in Car Repair Scam Targeting 
    Elderly''
  --http://tinyurl.com/ys5yn5

``Protecting seniors from abuse''
  --http://tinyurl.com/36kz6q

``Relatives in dark over man's death''
  --http://tinyurl.com/yud861

``Nursing Homes `deplorable'
  --http://tinyurl.com/2qzssh

``Couple arrested in alleged elderly scam''
  --http://www.whiotv.com/news/15568368/detail.html

    Mr. Scott. Thank you.
    Ms. Friedlander-Olsen?

TESTIMONY OF SHERRY FRIEDLANDER-OLSEN, FOUNDER AND CEO, A CHILD 
         IS MISSING ALERT PROGRAM, FORT LAUDERDALE, FL

    Ms. Friedlander-Olsen. Thank you, Chairman Scott and Mr. 
Gohmert, Members of the Subcommittee, and the great staff 
members that allowed me to testify here today in support of 
H.R. 5464, the ``A Child Is Missing Alert and Recovery Center 
Act.''
    And my real thanks to Congressman Klein for introducing the 
bill and to my great friend, Director Keenan, from the Georgia 
Bureau of Investigation.
    One in every 42 children in the United States goes missing 
every year. Every 40 seconds, a child goes missing somewhere in 
the United States. That means almost 10 children will go 
missing in the brief time I am addressing you today.
    These numbers are what motivated me to start A Child Is 
Missing in 1997. I did not have a missing child, just an idea 
to use technology to help law enforcement find missing 
children.
    I started very small, by helping a couple of agencies in 
South Florida. With the help of friends and supporters, I was 
able to expand the program to other parts of Florida, then to 
Rhode Island, Alaska, Ohio, and Georgia. Now we are available 
to law enforcement in 50 States.
    A Child Is Missing is a nonprofit organization that assists 
law enforcement in the first hours a child goes missing. The 
program is also used to help find the elderly, often with 
Alzheimer's or dementia. Almost 30 percent of our cases involve 
the elderly.
    This is a free service, activated only by law enforcement. 
This program fills the gaps between law enforcement and the 
Amber Alert.
    Here is how A Child Is Missing works. A child goes missing. 
A frantic parent calls 911. Law enforcement responds. They go 
to the scene. Then they call our recovery specialist, who 
gathers the information, such as the description of the child 
and where they were last seen.
    Then we use our sophisticated satellite mapping system to 
define the search area. Once the area is defined, a telephone 
message is recorded on behalf of the agency. Our phone system 
then dials out to every listed phone number in the search area. 
Residents are told to report any information they may have 
about the missing individual to the police.
    It only takes us 8 to 12 minutes to accomplish this. And, 
basically, we have 181 T1 lines, and our calls are made at 
1,000 every 60 seconds. We have a database of more than 80 
million listed phone numbers.
    Residents appreciate the call because it is an official 
message from their local law enforcement agencies. Our calls 
have a 98 percent listen rate. When you hear, ``This is the 
Washington, DC, police,'' you will listen.
    When the need arises, we work across jurisdictional 
boundaries with local, State and Federal law enforcement 
agencies, including the FBI and the U.S. Marshal Service.
    The program saves money for law enforcement. To date, A 
Child has worked approximately 9,000 cases and has launched 
almost 16 million alert calls. In 2007 alone, we worked about 
1,500 cases. In the first 4 months of 2007, we worked 412 
cases. In the first 4 months of 2008, we handled more than 900 
cases.
    Law enforcement has credited us with 340 safe assisted 
recoveries; that is 340 lives we have saved, 340 families we 
have touched.
    We could take credit for more recoveries, but unless I have 
a written statement back from that agency, we do not take 
credit for it at all.
    We do this every day. We are available 24/7, 365, and are 
experienced in searching for missing children and the elderly, 
often, again, with Alzheimer's.
    Fifty percent of the Nation's law enforcement agencies have 
25 or fewer sworn personnel. Without A Child Is Missing, these 
agencies would not have a place to turn for this kind of help. 
This vital service, again, is free to law enforcement.
    Though available to 16,000 law enforcement agencies across 
the Nation, a mere 2,200 currently use the program. Therein 
lies the critical need for H.R. 5464.
    The bill will increase the number of agencies using the 
program, thereby saving more lives. This legislation will 
ensure us to stay on the cutting edge of technology and address 
the increasing volume of cases.
    Very large metropolitan areas, such as New York and Los 
Angeles, pose unique challenges to us. Doing nothing in this 
area is not an option, but H.R. 5464 will help us to help the 
special needs of these agencies.
    One-third of our safe assisted recoveries have come just in 
the last year due to our having increased agency participation. 
H.R. 5464, I know we can save more lives.
    Thank you, Mr. Scott, Mr. Gohmert, and the opportunity to 
testify before the Committee.
    [The prepared statement of Ms. Friedlander-Olsen follows:]
             Prepared Statement of Sherry Friedlander-Olsen
    Mr. Chairman and Ranking Member:
    Thank you Chairman Scott, Ranking Member Gohmert, Members of the 
Subcommittee, and staff for allowing me to testify today in support of 
H.R. 5464, the ``A Child Is Missing Alert and Recovery Center Act.'' 
Thank you Congressman Klein for introducing the bill.
    One in every 42 children in the United States goes missing every 
year. That is one child every 40 seconds. Almost 10 children will go 
missing in the brief time I am addressing you today.
    These daunting statistics are what motivated me to start the A 
Child Is Missing program in 1997. I did not have a missing child, just 
an idea to use technology to help law enforcement find missing 
children. I started very small by helping a couple of law enforcement 
agencies in South Florida. With the help of friends and supporters, I 
was able to expand the program to other parts of Florida, and then to 
Rhode Island, Alaska, Ohio and Georgia. Now we are available to law 
enforcement agencies in all 50 states!
    A Child Is Missing is a not-for-profit organization that assists 
law enforcement agencies in the first hours a child is reported 
missing. The program is also used to help find elderly adults. Almost 
30 percent of our cases involve the elderly. This is a free service, 
activated only by law enforcement that fills the gaps of the Amber 
Alert program.
    Here is how A Child Is Missing works. A child goes missing. A 
frantic parent or guardian calls 911. Law enforcement responds and 
verifies if in fact the child is missing. If the child is missing, the 
law enforcement officer calls us. Our Recovery Specialist quickly 
gathers essential information from police such as the description of 
the child and where the child was last seen. Our Recovery Specialist 
then uses our satellite-mapping system, a system similar to Google 
Earth but more detailed, to define the search area. Once the search 
area is defined, the Recovery Specialist records a telephone message on 
behalf of the law enforcement agency and then pushes a button. Our 
phone system then auto dials every listed phone number in the search 
area. Citizens are told to report any information they may have about 
the missing child or elderly adult to the police.
    The speed in which this takes place is remarkable. It takes A Child 
Is Missing only 8-12 minutes to determine the search area, identify the 
phone numbers, record the message, and make the calls. Due to our 181 
T1 lines, our calls can be made at the rate of 1,000 calls every 60 
seconds.
    A Child Is Missing's satellite-mapping system is very sophisticated 
and we have a database of more than 80 million phone numbers. Citizens 
appreciate the calls because it is an official call from the law 
enforcement agency. Our calls have a 98 percent listen rate.
    We also know no jurisdictional boundaries. In fact, we have 
successfully worked cases that have involved multiple states and a host 
of local, state, and federal law enforcement agencies. We also work 
with the U.S. Marshal Service and the FBI.
    To date, A Child Is Missing has worked approximately 9,000 cases 
and has launched more than 16 million alert calls. In 2007 alone, we 
worked almost 1,500 cases. From January 2007 through April 2007, A 
Child Is Missing worked on 412 cases. A year later, we have handled 
more than 900 cases!
    Law enforcement has credited us with 340 safe assisted recoveries. 
That is 340 lives we have saved. 340 families we have touched. We could 
take credit for more safe recoveries; however, I decided long ago to 
only list recoveries where law enforcement--in writing--gives us credit 
for the recovery.
    We do this everyday. Our Recovery Specialists are available 24/7, 
365 and are extremely experienced in the field of missing children and 
elderly adults. We bring this experience to the assistance of law 
enforcement. Fifty-two percent of the nation's law enforcement agencies 
have 25 or fewer sworn personnel. Without A Child Is Missing, these 
agencies would not have a place to turn for help.
    This vital service is free to all law enforcement. Though available 
to all 16,000-law enforcement agencies throughout the nation, only 
2,200 currently use the program. Therein lies a critical need for H.R. 
5464.
    H.R. 5464 will increase the number of agencies using the program 
thereby saving more lives. This legislation will also enable us to 
ensure we stay on the cutting edge of technology and will help address 
the increasing volume of cases. Very large metropolitan areas such as 
New York, Chicago, and Los Angeles pose unique challenges for law 
enforcement and us. Doing nothing in these areas is not an option, but 
H.R. 5464 will allow us to work with these agencies to address their 
special needs.
    Our statistics clearly show that the increased success of A Child 
Is Missing is due to an increase in usage by law enforcement. One third 
of our safe assisted recoveries have come in just last year due to our 
having maximized agency participation. With H.R. 5464, I know we can do 
even more.
    Thank you Chairman Scott and Ranking Member Gohmert for the 
opportunity to testify before your Subcommittee. I would be happy to 
answer any questions you may have.

    Mr. Scott. Thank you very much.
    Ms. Friedlander-Olsen. Can I breathe now? Please let me 
breathe. [Laughter.]
    Mr. Scott. You have done well.
    Mr. Keenan?

           TESTIMONY OF VERNON M. KEENAN, DIRECTOR, 
          GEORGIA BUREAU OF INVESTIGATION, DECATUR, GA

    Mr. Keenan. Mr. Chairman, Members of the Committee, thank 
you for the opportunity to provide testimony here today.
    And thank you, Congressman Johnson, for the introduction. 
My mother is never around when somebody has something positive 
to say. [Laughter.]
    I am here today as director of the Georgia Bureau of 
Investigation and as a representative of all Georgia law 
enforcement to urge your support for A Child is Missing.
    The absolute priority of the GBI is the investigation of 
violent crimes against children. As a statewide agency, we work 
each day with the nearly 600 law enforcement agencies in 
Georgia in their efforts to protect children.
    I believe that Georgia's success with A Child Is Missing 
represents the experience of many law enforcement agencies 
throughout the United States.
    Georgia implemented A Child Is Missing in 2003. And our law 
enforcement officers have received training on the use of this 
simple but valuable program.
    Since its adoption in Georgia, A Child Is Missing has 
assisted in the recovery of many Georgia children. We consider 
this program to be an excellent example of a public and private 
nonprofit partnership with a proven record of success.
    Georgia law enforcement routinely uses both A Child Is 
Missing and the Amber Alert systems. We were the fourth State 
to implement A Child Is Missing and also the fourth State to 
establish an Amber Alert system.
    A Child Is Missing and Amber Alert are two separate and 
distinct child recovery systems, but they mutually support and 
enhance each other. Both systems engage citizens to aid law 
enforcement in the search for and the recovery of children who 
are in danger.
    Georgia has extensive experience in using both systems. A 
Child Is Missing sends telephone alerts to the community when a 
child, elderly or disabled person is missing.
    The recorded telephone message contains a detailed physical 
description of the missing person and is directed to a specific 
neighborhood or a community. The Amber Alert uses the Emergency 
Alert System to interrupt radio and television programming with 
an electronic and voice message when a child has been abducted.
    Because Amber Alert is a voluntary partnership between law 
enforcement and the broadcast industry, there are specific 
requirements for its use and there are established protocols 
that must be followed before activation.
    Amber Alert is activated when a child is criminally 
abducted and is believed to be in imminent danger. Further, 
there must be enough descriptive information about the 
abduction to believe that a media broadcast will assist in the 
child's recovery.
    Amber Alert has limited applications, while A Child Is 
Missing has great flexibility. Both systems are extremely 
valuable resources in the protection of children, but they have 
several differences.
    Amber Alert can be used only when there is a criminal 
abduction of a child, while A Child Is Missing is used to 
search for lost or missing children, as well as abductions. A 
Child Is Missing can also be used to search for the elderly or 
the disabled.
    Amber Alert operates within a very structured process, 
which requires local law enforcement agencies to seek approval 
before activation. This is done at the State level. A Child Is 
Missing can be activated by the first police officer or deputy 
sheriff who responds to the scene of a missing person.
    Amber Alert is most effective when there is a suspect 
vehicle description to give to the public. A Child Is Missing 
gives a targeted segment of the community a detailed physical 
description of the missing person, their clothing, location 
where they were missing, and other relevant information.
    Additionally, A Child Is Missing may request that neighbors 
search their grounds for the missing person.
    When the GBI activates Amber Alert for Georgia law 
enforcement, we recommend that investigators also seek 
assistance from A Child Is Missing. Since 2002, Georgia has 
activated Amber Alert for 69 abductions. We also denied 60 
cases because the incidents did not meet the required criteria 
for Amber Alert.
    In each of the denied cases, law enforcement officers were 
referred to A Child Is Missing for assistance. A Child Is 
Missing serves to fill the gap in endangered children cases 
where Amber Alert is not available.
    A Child Is Missing plays a critical role in law 
enforcement's efforts to protect our children. And I strongly 
urge your support for H.R. 5464.
    [The prepared statement of Mr. Keenan follows:]
                 Prepared Statement of Vernon M. Keenan
    I am here today as Director of the Georgia Bureau of Investigation 
and as the representative of all Georgia law enforcement to urge your 
support for A Child is Missing. The absolute priority of the GBI is the 
investigation of violent crimes against children. As a statewide 
agency, we work each day with the nearly six hundred police and 
sheriffs departments in Georgia in their efforts to protect children. I 
believe that Georgia's success with A Child is Missing represents the 
experience of law enforcement agencies in the United States.
    Georgia implemented A Child is Missing in 2003 and our law 
enforcement officers have received training on the use of this simple 
but, valuable program. Since its adoption in Georgia, A Child is 
Missing has assisted in the recovery of many children. We consider this 
program to be an excellent example of a public and private non-profit 
partnership with a proven record of success.
    Georgia law enforcement routinely uses both the A Child is Missing 
and the Amber Alert systems. We were the fourth state to implement A 
Child is Missing and also the fourth state to establish an Amber Alert 
system.
    A Child is Missing and Amber Alert are two separate and distinct 
child recovery systems, but they mutually support and enhance each 
other. Both systems engage citizens to aid law enforcement in the 
search for and recovery of children who are in danger. Georgia has 
extensive experience in using both systems.
    A Child is Missing sends telephone alerts to the community when a 
child, elderly or disabled person is missing. The recorded telephone 
message contains a detailed physical description of the missing person 
and is directed to a specific neighborhood or community.
    The Amber Alert uses the Emergency Alert System to interrupt radio 
and television programming with electronic and voice messages when a 
child has been abducted. Additionally, the Department of Transportation 
message boards display a description of the suspect vehicle.
    Because Amber Alert is a voluntary partnership between law 
enforcement and the broadcast industry, there are specific requirements 
for its use and there are established protocols to be followed before 
activation.
    Amber Alert is activated when a child is criminally abducted and is 
believed to be in imminent danger. Further, there must be enough 
descriptive information about the abduction to believe that a media 
broadcast will assist in the child's recovery. Amber Alert has limited 
applications while A Child is Missing has great flexibility.
    Both systems are extremely valuable resources in the protection of 
children, but they have several differences:
    Amber Alert can be used only when there is a criminal abduction of 
a child, while A Child is Missing is used to search for lost or missing 
children as well as abductions. A Child is Missing can also be used to 
search for the elderly or the disabled. Amber Alert operates within a 
very structured process which requires local law enforcement agencies 
to seek approval and activation at the state level. A Child is Missing 
can be activated by the first police officer or deputy sheriff who 
responds to the scene of a missing person.
    Amber Alert is most effective when there is a suspect vehicle 
description to give to the public. A Child is Missing gives a targeted 
segment of the community a detailed physical description of the missing 
person, their clothing, location where they became missing and other 
relevant information. Additionally A Child is Missing may request that 
neighbors search their grounds for the missing person.
    When the GBI activates Amber Alert we recommend that investigators 
also seek assistance from A Child is Missing. Since 2002, Georgia has 
activated Amber Alert for 69 abductions. We also denied 60 cases 
because the incidents did not meet the required criteria. In each of 
the denied cases, law enforcement officers were referred to A Child is 
Missing for assistance. A Child is Missing serves to fill the ``gap'' 
in endangered children cases when Amber Alert is not available.
    We train Georgia law enforcement officers to use A Child is Missing 
when they respond to a missing person incident. The system can provide 
public safety personnel with substantial savings in time and money in 
these type cases. A Child is Missing plays a critical role in law 
enforcement's efforts to protect our children.
    As Director of the GBI and as the representative of all Georgia law 
enforcement, I urge your support for A Child is Missing.

    Mr. Scott. Thank you. And I thank all of our witnesses for 
their testimony. We will now begin with our Members' questions.
    I will recognize myself for the first set of questions, 
limited to 5 minutes.
    Ms. Friedlander-Olsen, you said 340 out of 9,000. What 
happens to the others?
    Ms. Friedlander-Olsen. I am sorry?
    Mr. Scott. What happens to the other children that you did 
not assist in recovering?
    Ms. Friedlander-Olsen. Well, fortunately, some of them are 
found before we get the phone calls out. We always love that. 
Some are runaways and they aren't found for years. You know, 
all different kinds of things can happen.
    We get our information back from law enforcement by sending 
out a request, and then they fax it back to us. We get about 67 
percent of those case inquiries back. So those are the ones 
that we really know about in writing.
    Mr. Scott. Your notification is to a small area. You have a 
lot of these cases. One of the problems that would occur if you 
have frequent notifications and you get the crying wolf 
syndrome.
    How many alerts would an individual expect to get over the 
course of a year or 2?
    Ms. Friedlander-Olsen. You know, I am asked that question a 
lot. And as we grow and expand, the number gets further away.
    So if you got one in a year in your neighborhood, that 
would be astronomical, because they go missing from all 
different areas. And it just happens that way. Does that answer 
your question?
    Mr. Scott. Yes. But you didn't want to have somebody get a 
weekly call, like it is----
    Ms. Friedlander-Olsen. No, I don't allow it, number one. We 
did have a place that--it was called the Starting Place. And 
they would run away every day. And I would just have to say--
and they were teenagers. It was a house where they could go to 
for drugs and alcohol. And I wouldn't allow it, because the 
neighbors would put me down.
    And we had to save this for little kids and lots of things 
that were important to people.
    Mr. Scott. Thank you.
    Mr. Blancato, Virginia passed a law to give access to 
elderly people suspected of abuse with a standard less than 
probable cause. For good cause shown, you can get a warrant to 
get access to the person. Is that a problem anywhere else?
    Mr. Blancato. Mr. Chairman, I would probably have to come 
back and give you an answer for the record on that. I am not 
aware of it in too many other States, but we can come back and 
get you the response on that.
    Mr. Scott. You were staff on the Select Committee for Aging 
for 17 years.
    Mr. Blancato. Yes, sir.
    Mr. Scott. Do we have any unfinished business from that 
select Committee?
    Mr. Blancato. Congressman, there is a lot of unfinished 
business, but I commend you for taking one of them on today, 
which is the passage of elder abuse legislation.
    I actually staffed a Subcommittee hearing in 1978, 30 years 
ago, on elder abuse. And Claude Pepper--many of you remember 
Claude Pepper--was the Chairman of that Committee. Back then, 
it was identified as an issue that was going to grow. He was 
prophetic in his views on where we were going.
    And so there has been some response. I mean, there has been 
a small response in the Older Americans Act and there is--money 
is dedicated for Adult Protective Services and some programs.
    But it is about the comprehensive response we are talking 
about. It is about the coordination. And during the comments 
today, I think the point we want to stress is that nobody is 
trying to federalize this issue.
    It is a question of being able to use the resources of the 
Federal Government to give empowerment to programs that are 
working well at the local level, to give grants that can help 
train prosecutors better, so we can actually prosecute these 
cases.
    So I would start with saying, if we could get movement on 
elder justice legislation, that would be one legacy left over 
from the House Committee on Aging.
    Mr. Scott. Now, am I hearing you say that we do not need 
new Federal laws, we just need new resources?
    Mr. Blancato. Well, you need to have the Federal authority, 
for example, to have a dedicated funding stream for Adult 
Protective Services. It has to be established through a Federal 
program. Federal grants can be established.
    But, no, I think what we are saying in this legislation, as 
you go through the legislation, it is about giving empowerment 
to programs that are going on already at the State and local 
level, making them better, but bringing the Federal resources 
in to help coordinate all the activities.
    I mean, right now, coordination is so important in this 
time of fiscal restraint, to be able to know exactly what you 
have at your disposal in the Federal Government already, how 
can you coordinate and make the response better, and then use 
resources more effectively at the State and local level, so you 
are doing the full, comprehensive response to this problem.
    Mr. Scott. Thank you.
    Mr. Keenan, for school safety, do we need new laws or just 
Federal resources to help?
    Mr. Keenan. Federal resources. There are sufficient laws 
relating to the child abduction systems.
    Mr. Scott. Thank you.
    Mr. Keenan. And elderly abuse--the testimony here today is 
extremely abuse. Elderly abuse is going to be a rapidly 
escalating crime in the near future.
    Congress has an excellent track record in the way they have 
provided resources to local and State agencies in addressing 
child abuse. And those same best practices can certainly be put 
into the elderly abuse area.
    Mr. Scott. Thank you.
    The gentleman from Texas?
    Mr. Gohmert. Thank you, Mr. Chairman.
    And, Ms. Friedlander-Olsen, you are to be commended for 
your work. And thank you for all you have done on behalf of 
those children you have assisted and those that you gave 
comfort in knowing that somebody was actually doing something. 
So that is wonderful.
    It is my understanding that basically Amber Alert, the way 
it proceeds now, and A Child Is Missing systems complement each 
other then, is that fair to say?
    And, Mr. Keenan, you are nodding. That is your experience, 
as well?
    Mr. Keenan. That is correct.
    Mr. Gohmert. And so are there any problems you see with the 
way in which they do complement each other?
    Mr. Keenan. No, I think they are an absolute perfect match. 
And when we train law enforcement officers in handling child 
abduction situations, we train them on Amber Alert and on Child 
Is Missing. And they go hand-in-hand.
    Mr. Gohmert. You had mentioned that you don't know that 
more laws are needed as much as assistance, as I understood. I 
think there may be some place for additional laws with regard 
to elder abuse and the ways in which our elderly are being 
pursued and taken advantage of these days.
    And it does sound like it is going to get worse. I know you 
were sitting through the beginning of the hearing.
    But I am wondering--I just don't want to create new 
entities. I was not a fan, for example, of creating a new 
Department of Homeland Security. I was a judge back in those 
days, and what do you want another bureaucracy for? You are 
just adding to the problems. And so I am still not a big fan 
when I see the complications that have arisen there.
    I know we have the National Committee for the Prevention of 
Elder Abuse. That is one of six partners that make up the 
National Center on Elder Abuse. I don't want to keep federally 
reinventing the wheel, and so I am wanting some input from you 
on--and, Mr. Blancato, on this issue.
    Will we duplicate things? Should we be more directive in 
where we are going with the elder abuse issue and the studies 
to be done?
    Yes, sir, if you would first.
    Mr. Blancato. I will attempt to answer some of that, and I 
imagine some we will have to come back to you in more detail.
    But in the case of the National Center on Elder Abuse, that 
is a federally funded entity that is intended to do improved 
amounts of research in the field of aging, data collection so 
we can have a better grip on the extent of the problem that is 
going on. That is an appropriate Federal activity that has been 
going since 1988, frankly, doing a lot of good work that the 
field appreciates.
    I mean, at the end of the day, you want to be able to go 
down to the field, people at the State and local level, and 
say, ``Are you benefiting from the work that the center is 
doing?'' And in many instances, the answer has been yes.
    In fact, one of the more important things it is doing is 
helping to set up local network development programs, where 
there are no activities going on in a locality, where you don't 
have multidisciplinary teams working at the local level to help 
stop elder abuse.
    This center helps provide them with the technical resources 
to do that. And at the end of the day, that is very important.
    And I am sensitive to the question about, you know, the 
duplication. I think the purpose of this legislation is to get 
an accurate handle on how to do better coordination between the 
Federal, State and local levels throughout on elder abuse so 
that the response that is done is done comprehensively, whether 
it is helping the victim or that is prosecuting against the 
perpetrators, whether it is just providing support for 
worthwhile programs.
    So my guess is that we are, through this legislation, 
making an effort to build coordination, as compared to 
enhancing any duplication activities.
    And I would also point out that, in the early stages of 
development of this legislation, staff from the Department of 
Justice were put on detail to the Senate Special Committee on 
Aging and helped draft the legislation, including the 
provisions that are before us today.
    Mr. Gohmert. Well, I was curious, having dealt with 
felonies of all types, well, there is a prosecutor, a judge, 
and a chief justice, and being so familiar with so many of the 
Federal law enforcement people in DOJ, I kind of figured if we 
push them to do a study, the first thing they are going to do 
is go back to the local and State law enforcement folks and 
say, ``Tell us what the problems are,'' when you have people 
that are already dealing with those.
    So I am curious, Mr. Keenan, are there any crimes with 
regard to elder abuse that in Georgia are not getting 
prosecuted that would require Federal laws to pursue?
    Mr. Keenan. Not Federal laws. My view is, having been in 
law enforcement 36 years, is that the secret to--the way to 
handle this problem would be to--the role of the Federal 
Government should be in providing resources and direction to be 
in partnerships between local, State prosecutors, providing 
training.
    This is what happens in the child abuse arena, with great 
success. There are Federal funds that are available to set up 
the multi-disciplinary investigative teams to handle child 
abuse. The same process could be used for elderly abuse.
    That gives an opportunity for local and State law 
enforcement to come together, with best practices training, 
specialized training to handling the area, and they build the 
teams that go forward and do the work.
    The test in American law enforcement is that, in the middle 
of the night, when the system has a problem, and they call 911, 
who shows up to respond? It is local law enforcement, and that 
is going to be the key to addressing any major crime problem 
like elderly abuse, is training local and State law enforcement 
to be able to use their State laws to handle the issues.
    A process like that would bring to light shortcomings in 
State laws that could be--new laws could be enacted at the 
State level to enhance the investigation prosecution of elderly 
abuse. That is what has happened in the child abuse arena.
    Mr. Gohmert. Thank you. I have more questions, but my time 
is expired. Thank you.
    Mr. Scott. Thank you.
    The gentleman from Georgia?
    Mr. Johnson. Thank you, Mr. Chairman.
    Ms. Friedlander, how is A Child Is Missing funded 
currently?
    Ms. Friedlander-Olsen. Currently, we have gotten Federal 
funds, State funds, local funds, private contributions, and 
some corporations.
    We run a very tight ship, because I started very tight. 
Well, I started very poor, if you want the truth. But we are a 
tight organization. But our funding is where I said it came 
from.
    Mr. Johnson. Okay. And H.R. 5464 would provide funding for 
the establishment and maintenance of regional centers. Does A 
Child Is Missing currently have regional centers?
    Ms. Friedlander-Olsen. We have one center at present. And 
what is happening is that we have a trainer up in Fort Thomas, 
Kentucky. That is right across the border from Cincinnati, 
Ohio. And he is going to act as one of our regions.
    And so we would put these very small pods. I don't want a 
lot of big places to run. It is just that the cost of 
airplanes, in some States like Montana and Idaho, and North 
Dakota, it takes a lot to get there.
    And so by having somebody locally within a five-state, six-
state region would be very helpful, because the turnover in law 
enforcement--a chief's life is about 3\1/2\ years. And then 
they move on and move on.
    And law enforcement officers, they move from department to 
department, and that is why you have to constantly be there to 
remind them, ``Call A Child Is Missing,'' because we have had--
--
    Mr. Johnson. To kind of develop local contacts and kind of 
face-to-face dialogue, so that local law enforcement will 
know--will be able to interface easily, I guess, with a live 
person representing A Child Is Missing, that would probably a 
good thing to enhance this effort.
    Are you available or do you have the technology to respond 
to calls for assistance from any one of the 50 States in the 
United States?
    Ms. Friedlander-Olsen. Yes, sir. We are at present--in the 
50 States, we are available. When I go into a State, I 
generally pick some place, like the capital area, because we go 
in on our own dollar, on our general funds, and then we have 
to--we invite about a 2-hour ring around that particular area 
to the officers, train them, and then we will make calls, 
emergency calls for that State any place.
    But we just are held back right now, because we don't have 
the funding to go throughout Montana, to go throughout the 
various areas.
    Mr. Johnson. Yes, ma'am. All right. Thank you.
    Mr. Keenan, are you aware of any other organizations, 
whether public or private, that provides the same services as A 
Child Is Missing?
    Mr. Keenan. I am not aware of any other service like this 
that is out there. This is a great example, a success story of 
a nonprofit organization that worked hand-in-hand with law 
enforcement with a great success record. I am not aware of 
another body that does anything like this.
    Mr. Johnson. And does your department have to pay for the 
services of A Child Is Missing?
    Mr. Keenan. We do not. And that is one of the reasons why 
the GBI has become such a strong proponent for this.
    Many of the local law enforcement agencies do not have the 
resources to pay even a small charge for a service. And Ms. 
Friedlander's group has never asked for funding from agencies 
who couldn't provide it, and they have always stepped forward 
and done this without charge.
    Mr. Johnson. How many children or how many persons have 
actually been recovered in Georgia utilizing A Child Is Missing 
technology?
    Mr. Keenan. There are about--I think there were 17 
documented cases of recovery in Georgia. And I was telling Ms. 
Friedlander earlier I am convinced there are more of those--
other successes that they just did not get the documentation 
back for that.
    Mr. Johnson. And I assume that A Child Is Missing expertise 
and efforts save money for the Georgia Bureau of Investigation 
and local law enforcement?
    Mr. Keenan. They certainly do. And what is important about 
this is that, always for all of us to remember, the value that 
the public has, that the public is interested in this. They 
will coordinate with law enforcement. They will provide law 
enforcement. They just need to know what they are looking for 
and what the issue is.
    Many of the cases involving when you call A Child Is 
Missing, their staff give that officer at the scene some 
immediate directions about what to do. For instance, if it is a 
small child, there is a body of water nearby. Officers are 
directed to get to that body of water and set up a security 
perimeter and begin a search there, because children are 
attracted to water.
    And this is valuable on-the-scene dialogue between the 
center's caseworkers and the officer on the scene. And this 
doesn't require a law enforcement officer to go through their 
hierarchy to get permission to activate A Child Is Missing. The 
officer at the scene can call from a cell phone, get to the 
center, and immediately get results.
    Mr. Johnson. Thank you.
    Mr. Scott. Thank you.
    The gentlelady from Wisconsin?
    Ms. Baldwin. Thank you, Mr. Chairman.
    Mr. Blancato, in your written testimony, you State that 
crime victims aged 65 and over lost a total of $1.3 billion due 
to personal and property crimes in 2005, including Internet 
fraud complaints.
    You also write that, of the almost 200,000 substantiated 
cases of elder abuse reported to the Adult Protective Services 
agencies, one of the highest and one of the fastest rising 
forms of abuse was financial exploitation.
    According to the Department of Justice Bureau of Justice 
Statistics, between 1993 and 2002, more than 9 in 10 crimes 
against the elderly were property crimes.
    So given these troubling statistics, can you speak a little 
bit about how you think financial exploitation of seniors in 
America fits within the definition of senior abuse, neglect and 
exploitation that we are addressing through the two bills 
before us today, the Elder Justice Act and the Elder Abuse 
Victims Act?
    Mr. Blancato. Yes, Congresswoman, and thank you also for 
your co-sponsorship of the Elder Justice Act.
    The definition of elder abuse is multifaceted, but a 
central feature of it has always been financial abuse and 
exploitation, in terms of what is addressed by the efforts to 
try to combat elder abuse.
    The growing concern about financial exploitation--and you 
touched on one aspect of it, with the whole question of mail 
fraud and the whole external scams that go on, the financial 
abuse occurs directed by family members against other family 
members or form the outside.
    This legislation would do a number of things to address 
this concern, ranging from something as basic as the raising of 
public awareness to the potential older person victims, to look 
out for certain things, to have the capacity to have certain 
tips and public awareness campaigns so they can be more 
protective of their own assets.
    I think the other thing is that it trains everybody who 
would deal with a senior to look out for certain things that 
obviously would show a potential victimization of someone.
    For example, if a homebound older person suddenly has their 
ATM card being used, there is a sign of trouble. If an older 
person who has lived in their own home for years suddenly is 
having utilities shut off, okay, there is a concern that 
somebody is coming in and doing things.
    But in order to make people aware of this problem, they 
have to be trained to understand what this issue is, what elder 
abuse is. I mean, we talked earlier in some comments about 
older people showing up in emergency rooms and they think they 
just fell, yet if there was better forensic information in the 
centers, you could actually determine that it wasn't a fall, 
that it was actually a case of abuse that went on.
    So central to the Elder Justice Act is providing Federal 
resources to better train people to be able to detect elder 
abuse and report it, because the underreporting of elder abuse 
is the central problem we have here.
    And I think this legislation's whole function is to get 
training dollars out so people can become more responsive to 
the problem, report it. People can be prosecuted, and 
victimization can be limited. And financial exploitation is 
clearly in the center of that whole conversation.
    Ms. Baldwin. Generally, I am wondering whether you think 
that, on this particular issue, the response that is in the two 
bills we are looking at is adequate or whether we ought to be 
looking at other ways, additional legislation, additional 
programming to protect seniors from telemarketing and mail 
fraud and other forms of--and I am thinking in this case more 
the exploitation from outside the family setting.
    Mr. Blancato. Right. Well, first of all, I am enough of a 
realist, having worked up here for a long time, that it has 
taken 5 years to get this bill to this point.
    Ms. Baldwin. I hear you.
    Mr. Blancato. And so, in the world of legislation, you 
always want the perfect legislation. But in reality, you want 
to get a passable bill started so you can build on it. There 
are too many issues that we can all identify sitting here 
where, if we just started with some place, got something 
underway, you can always build on it later and make a better 
deal.
    I think what this legislation serves to do and the 
attention being focused on it, it leads outside groups to help 
in this fight, while we wait for the passage of legislation.
    One of our leading Elder Justice Coalition members is AARP, 
which you know is very actively engaged in helping to fight 
financial abuse against older people from external sources.
    So as long as this conversation goes forward, provided we 
can get the bill passed in this session, I think we will see 
more response happening, simply because more attention is being 
focused on it.
    Ms. Baldwin. Thank you, Mr. Blancato.
    Mr. Scott. The gentlelady from Texas.
    Ms. Jackson Lee. I thank the Chairman, and the Ranking 
Member, and the witnesses, and the previous panel. And I 
apologize for being detained in another meeting.
    But I do want to congratulate you for hitting on really the 
Achilles' heel of our society, the early part of life and the 
sunsetting or the older aspect of our lives. And we are living 
longer and certainly become vulnerable on both ends of the 
spectrum.
    I would like to ask Ms. Friedlander about the utilization 
of your program. And my first question is: How does this--and 
you may have commented, but I appreciate your repeating it--how 
does your program complement or how is it distinct from the 
Missing and Exploited Children's program?
    Ms. Friedlander-Olsen. A Child Is Missing concentrates 
basically in one area. And we complement greatly the Amber 
Alert. We are the gap between two particular--those two 
programs.
    And the national center is a great program. And they do a 
lot of different things. I mean, they have been around for 20-
some years. I have only been doing this for 11 years, overnight 
success.
    But they can work very well together. I am not trying to 
duplicate----
    Ms. Jackson Lee. What specifically do you do that puts you 
in between Amber and Missing and Exploited Children?
    Ms. Friedlander-Olsen. What do we do?
    Ms. Jackson Lee. Yes.
    Ms. Friedlander-Olsen. First of all, law enforcement is 
called by an individual whose child or elderly Alzheimer's has 
gone missing. Then the policemen go to the area, make sure the 
person is missing. Then they will call, as long as it is in 
their SOP, standard operating procedure, A Child Is Missing 
directly, 24/7, 365----
    Ms. Jackson Lee. So they are able to call you sooner than 
Missing and Exploited Children?
    Ms. Friedlander-Olsen. Sooner than the Amber Alert.
    Ms. Jackson Lee. Sooner than the Amber Alert.
    Ms. Friedlander-Olsen. Missing and Exploited Children do 
not do what we do. We are the only program of its kind in the 
United States. We are free.
    Ms. Jackson Lee. You get activated immediately, is that 
what you are saying? After the police person calls you, you 
begin to reach out?
    Ms. Friedlander-Olsen. That is correct. That is correct.
    Ms. Jackson Lee. In reaching out, what actions do you take?
    Ms. Friedlander-Olsen. What do I take?
    Ms. Jackson Lee. What actions do you take once you----
    Ms. Friedlander-Olsen. Oh, what actions.
    Ms. Jackson Lee. Yes.
    Ms. Friedlander-Olsen. Well, they call our office. Our 
recovery specialists are on-call 24/7. They will take all of 
the information, and we will direct--we will plan an area with 
our satellite mapping. And then we will get the phone numbers 
down of our databank that represent that area.
    Then the technician will make a recorded call that says, 
``This is the Houston Police Department. We are currently 
looking for a missing child in your area. The child's name and 
description is Mary Jones, 3 year old, 30 pounds"----
    Ms. Jackson Lee. Excellent.
    Ms. Friedlander-Olsen.--"last seen at, please call the 
Houston Police Department.''
    Ms. Jackson Lee. And so if this----
    Ms. Friedlander-Olsen. And that goes out to those people. 
And if they don't answer the first time, it rings a second time 
and a third time, and then it stops. And that way, then they 
are asked to call the Houston Police Department back.
    Ms. Jackson Lee. So you start a chain reaction as quickly 
as possible?
    Ms. Friedlander-Olsen. A chain reaction as quick as 
possible.
    Ms. Jackson Lee. And then this legislation will certainly 
help you expand what you do?
    Ms. Friedlander-Olsen. Yes, ma'am, it will.
    Ms. Jackson Lee. Let me thank you for what you are doing.
    Let me quickly ask--I have encountered both on the 
children's end, obviously coming from Houston, Texas, but also 
missing elderly, as you mentioned, who suffer from Alzheimer's 
or other forms of senility.
    One of the suggestions is a tracking bracelet that would be 
under the jurisdiction of some kind of entity. Is that a 
welcome opportunity that communities should invest in if 
families want to participate in that, working with agencies 
like yourself?
    Ms. Friedlander-Olsen. Well, in my opinion, anything that 
helps to save a life is worthwhile. I am familiar with the 
program you are talking about. It does cost money. Some elderly 
cannot afford it, so assistance must be made.
    You know, anything that can help save, because, again, the 
elderly will go out in the bitter cold in a nightgown and 
slippers, and they are gone, and, honest to God, they freeze to 
death.
    Ms. Jackson Lee. You are right.
    Ms. Friedlander-Olsen. And we have helped to save a lot of 
those people when we are called immediately. We can only do 
with as much time as we have. And they also go to water. 
Elderly go right to water, just like children.
    Ms. Jackson Lee. Let me thank you for your answer. I would 
like to say to the Chairman, let me thank all the witnesses.
    I know Mr. Rothman was probably previously here on an 
earlier panel, and I just wanted to briefly comment on the H.R. 
2352. There is no witness here. I will look forward to working 
with the Committee on two aspects that I think can be clarified 
in this very good legislation, as issues dealing with securing 
schools that relates to terrorist acts and also as it relates 
to hazardous materials.
    And I would just like to place that on the record and work 
with the Chairman in terms of amendments to assist that. And I 
want to suggest that I am in full support of the legislation 
that you represent and certainly that of the gentleman dealing 
with elder abuse.
    And, Ms. Friedlander, we will work with you----
    Ms. Friedlander-Olsen. Thank you.
    Ms. Jackson Lee [continuing]. For the very constructive 
approach to saving our children.
    I yield back.
    Mr. Scott. Thank you.
    We will have another very quick round of questions.
    And I just had one question, Mr. Blancato. The Elder 
Justice Act includes an Elder Justice Coordinating Council and 
an advisory board on elder abuse, neglect and exploitation. How 
can this help us, assuming we get the bill passed and into law, 
look for additional areas that need our attention?
    And do these two--does the council and the board, do they 
overlap and contradict each other? Or can they work in a 
coordinated fashion?
    Mr. Blancato. They clearly can work in a coordinated 
fashion. My understanding about the coordinating council is it 
is made up primarily of people who would be existing in the 
Federal Government now that would be working to define a 
coordinated response at the Federal level to elder abuse 
prevention.
    And advisory people could include people from outside, who 
would be consulted to provide input into, again, how to improve 
coordination at all levels as it relates to elder abuse. So I 
think they are complementary to one another.
    And I think, at the end of the day, if you end up with a 
coordinated response, you may end up actually saving money, as 
compared to having fragmented programs that may be existing out 
there that couldn't otherwise be channeled together.
    Mr. Scott. The gentleman from Texas?
    Mr. Gohmert. Yes, just very briefly, Ms. Friedlander-Olsen, 
you mentioned that one of the problems is the transition of law 
enforcement personnel from one department to another. Mr. 
Keenan also is familiar with that problem.
    And one of the problems that has come up here before is 
with regard to the FBI. And having been involved at a local 
level in different capacities, it seemed to be the importance 
of that credibility with law enforcement is very high and that 
especially as Federal agents come in to your area, it takes a 
while for them to build up credibility, and sometimes just 
build up experience so where they have as much experience as 
the local and the State people they deal with.
    I have been concerned about an FBI program that this 
director had implemented called the Five Year Up or Out program 
that, at least in Texas, has caused us to lose some really 
valuable assets who were told, ``You either move up to 
Washington or you demote or you retire,'' and so they retired.
    I am just curious, in your capacity there in Georgia, Mr. 
Keenan, have you seen that effect the FBI's experience level?
    Mr. Keenan. I have discussed with FBI officials before my 
belief that they would be much more effective if they left 
their supervisors in duty stations longer to build those 
relationships.
    Law enforcement is based around personal relationships and 
partnerships. And you have to have a stabilized workforce to 
build those relationships. The FBI is a wonderful law 
enforcement agency. Our agents--to be a GBI agent, it is the 
same requirements to be an FBI agent.
    We have found out over the years that our most productive 
agents, most effective agents are those that live and work in a 
community that have an opportunity to build public trust and 
work with their counterparts. And that is relationships.
    Mr. Gohmert. I wish our current FBI director had heard that 
from you before he changed the policy and implemented that.
    But thank you very much, Mr. Keenan.
    Mr. Scott. Thank you.
    The gentleman from Georgia?
    Mr. Johnson. Thank you, Mr. Chairman.
    Mr. Blancato, what do you see as the biggest obstacle 
facing States in effectively addressing the problem of elder 
abuse, neglect and exploitation?
    Mr. Blancato. Well, the biggest problem I suspect is the 
inadequate level of dedicated funding for Adult Protective 
Services, which is the state-run programs. They operate in all 
50 States. They are the front lines in the efforts to combat 
elder abuse.
    At the moment, because they are funded through a block 
grant, there is sporadic funding between the different States. 
Even elder abuse is a growing problem in all the States.
    So certainly dedicated funding for Adult Protective 
Services is something that is necessary at the State level.
    And I think also, again, the notion of coordinating the 
response from all levels of government, particularly with the 
effort to provide adequate resources to train State and local 
prosecutors and law enforcement personnel to be more aggressive 
and effective in the ultimate pursuit of the people committing 
abuse and prosecuting them I think is another area where they 
need additional help.
    And both issues are addressed in the Elder Justice Act, 
which is why a lot of State organizations and people at the 
local level support the bill and why they have joined our 
coalition to help get the bill passed.
    Mr. Johnson. So are you suggesting that, under Social 
Services Block Grants, the recipient States are not necessarily 
investing that money or funding elder abuse, neglect and 
exploitation initiatives?
    Mr. Blancato. Correct. And I think what I will do for the 
record is we will provide some data, to the extent we have it, 
about how much money from the States--from the Social Services 
Block Grant is dedicated to Adult Protective Services.
    My understanding is that that number has declined over the 
years, as has the funding overall for the Social Services Block 
Grant program.
    What the Elder Justice Act says is, ``Let's remove Adult 
Protective Services from having that restriction of it being 
tied to a larger block grant and give it dedicated funding so 
everybody knows in all States there will be money going in to 
fighting elder abuse,'' which is really what we want to get 
done.
    Mr. Johnson. Thank you.
    Mr. Blancato. Thank you.
    Mr. Scott. We have been joined by the gentlelady from 
California, who has questions.
    The gentlelady is recognized for 5 minutes.
    Ms. Waters. Thank you very much, Mr. Chairman. And I don't 
think I need the 5 minutes.
    First of all, I would like to thank you for doing what 
should have been done a long time in dealing with some of the 
issues by way of the four bills that are before us. And I think 
it is very important that we pay attention to what is happening 
with our elders and, of course, our children and our students.
    We in my office have been attempting to deal with some of 
these issues. Let me just raise a couple of questions.
    Are there unique problems associated with the investigation 
and prosecution of elder abuse that do not exist with child 
abuse cases? Anybody?
    Mr. Blancato. Congresswoman Waters, not being a prosecutor, 
I know there are issues about the victim coming forth and 
identifying the person committing the suspected abuse, because 
oftentimes it is family members involved, and I suspect that 
that is somewhat of a complicated thing.
    I think what--in California, actually in San Diego, there 
is a very well known unit in the San Diego Police Department, 
there is a prosecuting person by the name of Paul Greenwood who 
specializes in elder abuse prosecutions.
    And he is a national example and a model that we could turn 
to for information on how he has been able to improve the level 
of prosecutions of elder abuse cases in his area, by being 
focused on it and getting resources to do that.
    The other part of it, of course, is that there are so many 
forms of elder abuse going on right now, financial, physical 
neglect, self-neglect, sexual abuse, that it is just the lack 
of some knowledge about how to pursue a prosecution sometimes 
is an impediment to successful prosecutions.
    Ms. Waters. Thank you very much, Mr. Chairman. I yield 
back.
    Mr. Scott. Thank you.
    And I would like to thank all of our witnesses for their 
testimony today. And Members may have additional----
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Scott. Excuse me?
    Ms. Jackson Lee. May I have a----
    Mr. Scott. The gentlelady from Texas, I am sorry.
    Ms. Jackson Lee. Thank you. Thank you very much.
    I sort of ran through the issue of school security and also 
the question of elder abuse, and I just wanted to raise a 
question again.
    With the rising good news of people living longer, with 
respect to elder abuse, do we have the right pressure points? 
Do we need to ensure that the FBI, for example, has a component 
because of the interstate aspect sometimes of what happens to 
elder abuse?
    Caretakers may go from place to place, masquerading as 
caretakers, and really be undermining that elderly person.
    I yield to you.
    Mr. Blancato. There is certainly grounds to pursue that, 
even as an element of this legislation is pending. There are 
certain issues that are addressed in the Elder Justice Act 
about getting the Department of Justice more focused on elder 
abuse and being more sensitive to the issues and providing the 
kind of training and grants to help improve training of people 
and prosecutors at the State and local level.
    You know, going deeper into more specific assignments for 
FBI would have to be something that this Subcommittee would 
have to look at, at the time of markup.
    I think basically the point that has been made most of the 
day is that the Federal response is the most anemic of all 
responses so far to elder abuse. And this is what we are hoping 
through the Elder Justice Act to correct. And anything that can 
be done in that regard we would be supportive of.
    Ms. Jackson Lee. It is a very helpful answer. We will, 
obviously, explore that and research that.
    And my final point, again, is just to expand for the record 
my issue as it relates to making sure that the school security 
bill--and I will engage Mr. Rothman--does take into 
consideration really the issue--I see it mentioned safety and 
security--but really focuses, since this Subcommittee has 
responsibilities dealing with terrorism, really focus on the 
vulnerability of the school, as it relates to being subjected 
to terrorist acts.
    The schools are probably, even with the new metal detectors 
in some of our urban schools, are probably the most vulnerable. 
They are in rural areas, in urban areas, in suburban areas, and 
I think it is crucial that we not frighten our educational 
system, but we prepare them.
    Alongside of that, I think it is important to put the 
school district on notice about the easiness of toxic, 
hazardous materials, air conditioning systems that are old and 
may be vulnerable to someone who would want to do something 
untoward.
    So I make the record, because we have had something like 
that occur in my own hometown of Houston, with a school that 
seems to be continuously faced with toxicity, and not attended 
to by the district. So I wanted to make that record.
    And I look forward, as we move toward markup--and, again, I 
thank the witnesses for their very detailed testimony on their 
various issues.
    I yield back.
    Mr. Scott. Thank you.
    Thank you. And I want to thank our witnesses for their 
testimony today. Members may have additional written questions, 
which we will forward to you and ask that you answer as 
promptly as you can, in order that your answers may be made 
part of the record.
    At this point, I would like to enter into the record a 
statement of Joseph O'Connor, submitted on behalf of the 
American Bar Association.
    [The prepared statement of Mr. O'Connor follows:]
     Prepared Statement of Joseph D. O'Connor, Chair, American Bar 
 Association Commission on Law and Aging, the American Bar Association 
                                 (ABA)
    Mr. Chairman and Members of the Committee:
    I appreciate the opportunity to present the views of the American 
Bar Association on H. R. 1783, the ``Elder Justice Act.''
    The American Bar Association commends the Crime, Terrorism and 
Homeland Security Subcommittee of the House Judiciary Committee for 
holding this hearing on the Elder Justice Act. The Committee has before 
it a tremendous opportunity to address in a strong bipartisan way the 
growing national problem of elder abuse, neglect and exploitation--a 
domestic and institutional tragedy that causes serious harm to between 
500,000 and 5 million individuals each year. The American Bar 
Association strongly supports enactment of this legislation. No current 
federal law adequately and comprehensively addresses issues of elder 
abuse, neglect, and exploitation, and there are very limited resources 
available to those in the field directly dealing with these issues.
    The Elder Justice Act would create an infrastructure and provide 
resources needed to develop and implement a nationally coordinated 
strategy in collaboration with the states to make elder justice a 
reality. As elder justice is central to any viable notion of the rule 
of law and social justice, American Bar Association policy ``supports 
efforts to improve the response of the federal, state, territorial and 
local governments and of the criminal and civil justice systems to 
elder abuse, neglect and exploitation'' through, among other things, 
the creation of ``a nationwide structure for raising public awareness; 
supporting research, training and technical assistance; funding 
critical services; and coordinating local, territorial, state, and 
national resources.'' Enactment of the Elder Justice Act can make that 
goal a reality.
    It is also important to stress how these steps at the federal level 
really do have an impact on preventing elder abuse and helping victims 
of elder abuse. We can tell you that, over the last fifteen years, 
American Bar Association staff have heard and read the stories of 
hundreds, if not thousands, of victims and caring family members who 
have sought assistance. Too many of those people were angry and 
frustrated at their inability to get help from adult protective 
services or law enforcement agencies, prosecutors, civil lawyers, the 
courts, and other local and state government agencies, or they felt 
that the ``help'' they received was counter-productive. Their stories 
demonstrate that the law-related provisions of the act, which the 
American Bar Association supports, would only improve the quality of 
justice currently provided to older persons who have been abused, 
neglected or exploited.
    The victim advocacy grants in the act that would support training 
about elder abuse of ``health care, social, and protective services 
providers, law enforcement, fiduciaries (including guardians), judges 
and court personnel, and victim advocates'' would decrease the 
likelihood of common situations like these: the older person whose 
assets were stolen by a guardian or agent under a power of attorney who 
is told that ``it's a civil legal problem, not a crime''; or the niece 
who suspects that her aunt is being financially exploited by a 
caregiver and subsequently learns that her suspicions were determined 
to be baseless after her aunt was interviewed while the alleged 
perpetrator sat next to her.
    Legal assistance for older persons would enable them to protect 
their retirement savings from the ``new best friend'' or to have legal 
representation if they face eviction because a grandchild is making 
methamphetamine in the home. Grants to support hiring and training of 
prosecutors and provide resources to their offices would reduce the 
number of victims who are told that elder abuse just isn't a priority. 
Studies of model state laws and practices would enable state 
legislators to more easily and effectively strengthen their laws 
protecting older persons from abuse.
    The American Bar Association encourages your subcommittee to 
quickly approve H.R. 1783. We especially support the law-related 
provisions that are in the House bill and not in the Senate version of 
the legislation, S. 1070. If passed by the House, we will urge a 
conference committee to include the law-related provisions in any final 
bill. The serious problems faced daily by victims cannot be fixed 
unless the justice system is given the resources it needs to 
effectively address those problems.
    Again, we thank you for weighing the need to move forward with the 
Elder Justice Act.
    Thank you for giving me this opportunity to submit the American Bar 
Association's views to you on this important subject.

    Mr. Scott. And without objection, the hearing record will 
remain open for 1 week for the submission of additional 
materials.
    Without objection, the Subcommittee stands adjourned.
    [Whereupon, at 12:03 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
        Subcommittee on Crime, Terrorism, and Homeland Security
    Thank you Chairman Scott and ranking member Gohmert for your 
leadership in holding today's very important hearing which is aimed at 
making America a safer place. There are four bills that we will be 
discussing today. The bills address health and safety issues for 
children, students, and elders. It is fitting that we discuss these 
bills today during National Crime Victims week. These bills will 
protect the most vulnerable members of our society: the elderly and 
children. The four bills are: H.R. 1783, the Elder Justice Act; H.R. 
5352, the Elder Abuse Victims Act of 2008; H.R. 2352, the School Safety 
Enhancements Act of 2007; and H.R. 5464, A Child is Missing Alert and 
Recovery Center Act. I welcome our distinguished group of panelists and 
I look forward to their insightful testimony.
                          A. Elder Justice Act
    Each year in the United States, between one-half million to five 
million elders are abused, neglected or exploited. Experts agree that 
most cases are never reported. Data collected on the problem is 
minimal, and there has been no comprehensive national approach to 
solving the many problems. In fact, the House has held only one hearing 
on elder abuse, over 16 years ago, in 1991. These problems likely will 
increase in the next 30 years, as 76 million baby boomers approach 
retirement.
    H.R. 1783 sets forth a comprehensive plan for preventing and 
combating elder abuse, neglect and exploitation, including the 
development of the Elder Justice Coordinating Council within the Office 
of the Secretary of Health and Human Services (HHS). It authorizes 
funding for numerous programs to promote elder justice, including State 
and local adult protective services, and requires the Department of 
Justice (DOJ) to develop policies and plans and support federal 
prosecution of elder abuse. Witnesses expected to testify are the 
Honorable Rahm Emanuel, sponsor of H.R. 1783; and Bob Blancato, 
National Coordinator of the Elder Justice Coalition.
    The Elder Justice Act provides a comprehensive multi-disciplinary 
approach to preventing and combating elder abuse, neglect and 
exploitation, yet respects the need of and assists state and local 
communities to develop their own programs. It establishes the national 
Elder Justice Coordinating Council and Advisory Board on Elder Abuse, 
Neglect, and Exploitation. The Act starts the critically needed process 
of researching state practices and collecting national data on the 
problem. The Act authorizes grant monies for all areas of elder abuse, 
beginning with the prevention of abuse. It authorizes critically needed 
money to state and local adult protective services and helps long-term 
care facilities recruit, train and retain competent employees. It 
requires long-term care facilities to report suspected elder abuse, and 
provides grant money to law enforcement and prosecutors for the 
investigation and prosecution of elder abuse cases.
    The Elder Abuse Victims Act of 2008, H.R. 5352, focuses on the 
enforcement provisions of the Elder Justice Act. It provides funding 
for law enforcement and prosecutors to combat elder abuse. The 
Honorable Joe Sestak, sponsor of H.R. 5352, is expected to testify.
    H.R. 5352 establishes a national Elder Justice Coordinating Council 
and Advisory Board on Elder Abuse, Neglect, and Exploitation. Its 
purpose is to protect seniors in the United States from elder abuse by 
establishing specialized elder abuse prosecution and research programs 
and providing training for law enforcement and prosecutors.
    I note that H.R. 1783 should involve the Federal Bureau of 
Investigation because many of the elder abuse issues occur across state 
lines. Moreover, involving the FBI would provide greater enforcement, 
manpower, and resources. I would also like to offer an amendment to 
this bill or possibly H.R. 5465, also discussed today, to give elderly 
the option of wearing a bracelet that could be monitored to ensure 
their safety.
         B. School Safety Enhancements Act of 2007 (H.R. 2352)
    Violence at our schools have increased at an alarming rate in 
states such as California, Colorado, Illinois, Louisiana, Minnesota, 
Missouri, Ohio, Pennsylvania, Tennessee, Vermont, Virginia, Washington, 
and Wisconsin over the last few years. H.R. 2352 seeks to curb that 
stem of violence.
    H.R. 2352 increases authorized annual funding from $30 million to 
$50 million for FY 2008-2009 for the Secure Our Schools grant program, 
and decreases the non-federal grant participation percentage from 50% 
to 20%. It requires institutions of higher education to conduct annual 
campus safety assessments and develop and implement campus emergency 
response plans. The Honorable Steven R. Rothman (NJ-9), sponsor of H.R. 
2352 is expected to testify.
    This bill seeks to address the violence in our schools. It will 
ensure the safety of students and teachers and will make sure that 
education is the paramount concern of educators.
    The Act also increases the federal portion of the funding from 50% 
to 80%, which decreases the non-federal portion from 50% to 20%. 
According to the Community Oriented Policing Services (COPS) Office of 
the Department of Justice, which administers the Secure Our Schools 
grants, many of the poorer communities that need help the most have 
been unable to participate in the program because they cannot afford 
the previously required 50% non-federal grant match. The proposed 
change in non-federal funding is more in line with the COPS traditional 
75/25% split, and should allow more participation in the program.
    The Act increases the possible uses of funding to include 
surveillance equipment, hotlines to report potentially dangerous 
situations and capital improvements to make school facilities more 
secure. Finally, the Act requires the establishment of an interagency 
task force to develop and promulgate advisory school safety guidelines.
    The Act amends the existing requirements for grant applications, 
and requires each grant application to be accompanied by a report, 
signed by the chief education officer and the attorney general or other 
chief legal officer, demonstrating that the proposed use of the grant 
funds is an effective means for improving school safety, is consistent 
with a comprehensive approach to preventing school violence, and meets 
the individualized needs of the particular school.
    Finally, the Act amends the Higher Education Act and requires each 
eligible participating institution to conduct an annual campus safety 
assessment, and develop and implement a campus emergency response plan 
to address emergency situations, including natural disasters, active 
shooter situations, and terrorist attacks. The bill is sponsored by Mr. 
Rothman, and has 52 cosponsors.
    I note that I would like to offer an amendment that would 
specifically provide monies to the state and local schools to implement 
safety measures to protect students from terrorist attacks and 
hazardous conditions/chemicals. Moreover, the state and local schools 
should also be required to demonstrate that they have a response plan 
to deal with terrorist attacks and hazardous conditions.
      C. A Child Is Missing Alert and Recovery Center (H.R. 5464)
    A child goes missing every 40 seconds. The successful recovery of 
missing children often requires a quick response. In 1997, Sherry 
Friedlander, the founder of A Child is Missing (ACIM), saw the need for 
a rapid-response program to persons who go missing, especially in 
situations that do not involve abductions. In response to this need, 
she established ACIM, a national non-profit organization that offers 
free assistance to law enforcement 365 days of the year, 24 hours per 
day. The program is not limited to children, but extends to elderly 
persons (suffering from senility or Alzheimer's), mentally challenged 
or disabled individuals and college students.
    When law enforcement receives a call regarding a missing person, 
the first-responder can immediately call ACIM for help. The officer 
provides critical information to ACIM, such as the person's age and 
description and the last time/place seen. ACIM uses that information to 
record a message that, within minutes, is sent via phone to 1000s of 
locations within a radius of the last sighting of the person. Through 
their computer mapping system, ACIM also can identify ``hot spots,'' 
such as water or wooded areas.
    ACIM complements the Amber Alert program by providing different 
services. While Amber Alert focuses on children who are abducted, ACIM 
covers all ``persons'' who go missing, including situations where 
criminal intent may not be at issue. Amber Alert uses television and 
highway signs to broadcast information about the abducted child and the 
related vehicle, while ACIM uses a rapid response telephone alert 
system and covers cases where there is no vehicle involved. The ACIM 
notification system often can respond more quickly than the Amber Alert 
program.
    ACIM would use the requested money to operate and expand the 
existing ACIM office in Florida, to develop Regional Centers for on-
site training and communication with local law enforcement, to maintain 
and expand their computer and phone technologies, and to assist the 
National Center for Missing and Exploited Children, the AMBER Alert 
Coordinator, and appropriate law enforcement agencies with training.
    H.R. 5464 authorizes $5 million annual grants for 2009 through 2014 
to A Child is Missing Alert and Recovery Center (ACIM) to assist law 
enforcement in the rapid recovery of missing children and other 
individuals. Witnesses expected to testify are the Honorable Ron Klein 
(FL-22), sponsor of H.R.5464; Sherry Friedlander, the founder of ACIM; 
and Vernon Keenan, Director of the Georgia Bureau of Investigation.
    The bill is sponsored by Mr. Klein and has bi-partisan support. It 
has 21 cosponsors, including committee members Chairman Conyers, 
Chairman Scott, Mr. Chabot, Mr. Nadler, Mr. Wexler, Mr. Cohen, Mr. 
Johnson, Ms. Sutton, and Ms. Wasserman Schultz.
    I look forward to hearing from our witnesses ad look forward to 
their testimony. I hope that we can ensure the health and safety of the 
young and the elderly--two vulnerable populations--whose rights I have 
long championed. Thank you, and I yield the remainder of my time.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

           Prepared Statement of the National Association of 
                Local Long Term Care Ombudsmen (NALLTCO)
    Mr. Chairman and Members of the Committee;
    We, the governing board, appreciate the opportunity to present the 
views of the membership of the National Association of Local Long Term 
Care Ombudsmen regarding H.R. 1783, the ``Elder Justice Act.'' NALLTCO 
lauds the Crime, Terrorism, and Homeland Security Subcommittee of the 
House Judiciary Committee for holding the April 17, 2008 hearing on the 
Elder Justice Act. As Representative Rahm Emanuel stated, ``it has been 
over 17 years since the House had hearings regarding the problem of 
elder abuse, neglect, and exploitation as witnessed throughout the 
nation.'' No current federal law comprehensively addresses these issues 
in a standardized manner, and limited resources are available to 
professionals in the field to collect the data needed to research the 
scope of the matter.
    In our duties as regional and local long term care ombudsmen, our 
members are faced daily with the atrocities that are inflicted on our 
most frail and vulnerable adults that live in long term care settings. 
We sustain a united support for efforts that create a national law 
which powerfully raises public awareness, supports research, training 
and technical assistance, funds critical services, (including the 
ombudsman program), and coordinates the resources of national resources 
with the state, regional, and local entities. The Elder Justice Act 
serves as a vehicle to coordinate all of these efforts.
    Civil remedies have been rendered inadequate through the imposition 
of binding arbitration agreements placed in admission contracts. The 
victim of elder abuse in a long term care setting is already deprived 
of a voice of credibility when alleging they have been harmed. The 
resident is dependent on caregivers for all aspects of their daily 
living, as basic as the food they consume, the medicines they need to 
withstand illness, and the most intimate tasks of hygiene. The current 
laws vary from state to state, with little standardization regarding 
the victim's rights to pursue criminal actions. The victim advocacy 
grants outlined in the act would provide resources for training about 
elder abuse to ``healthcare, social, and protective services providers, 
law enforcement, fiduciaries (including guardians), judges and court 
personnel, and victim advocates.'' Provisions to study model state laws 
and practices would establish standards of practice and enable state 
and local legislators to easily identify and strengthen their own laws 
protecting our nation's elders. As ombudsmen, we know that so few of 
the alleged cases of abuse in long term care settings are vetted in the 
prosecution and conviction of perpetrators that are caregivers or 
family members who may inflict physical harm or commit financial acts 
of exploitation. Fear of retaliation is a real phenomenon because so 
many victims of elder abuse express their need for continued reliance 
on the very person who has inflicted the harm.
    We strongly urge the Committee to approve the provisions within 
H.R. 1783. Our nation's long term care residents are entitled to swift 
action of protection. They should not be required to wait for justice. 
If passed, we encourage a conference committee with the Senate to adopt 
provisions that are reflective of law-related provisions in the 
legislation that may not be included in the Senate version S. 1070 of 
the same title. We are active members of the Elder Justice Coalition 
and fully support the testimony entered by Bob Blancato.
    We thank you for the progressive step in acknowledging that elder 
abuse is prevalent in long term care settings and needs immediate 
attention. NALLTCO urges you to take action and vote in favor of the 
Elder Justice Act.
                                 ______
                                 
    Respectfully submitted by the NALLTCO Board of Directors: 
Jacqueline Case (NJ/NY) Chair; JM Sorrell (MA) Vice-Chair; Tonya Amos 
(IA) Treasurer; Eileen Bennett (MD) Secretary; Patrice Berry (TX); 
Karen Guice (AL); Alana Kietzman (MT); Cindy Kincaid (NC); Sue McCauley 
(AZ); Alice Nicholson (VT); Joe Oertel (WA); Tammy Wacker (IL); John 
Weir (MI)

                                 <all>

</pre></body></html>
